No. ______

IN THE

Supreme Court of the United States

d

MELVIN L. PHILLIPS , SR ., individually and as trustee,
MELVIN L. PHILLIPS , SR ., ORCHARD PARTY,
Petitioners,
—v.—
ONEIDA INDIAN NATION ,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

PETITION FOR WRIT OF CERTIORARI

WOODRUFF L. CARROLL
Counsel of Record
WOODRUFF LEE CARROLL P.C.
334 Nottingham Road
Syracuse, New York 13210
(315) 474-5356
carrollcarroll@carrolloffice.com
Attorney for Petitioner

i
QUESTIONS FOR REVIEW
JURISDICTION
Can the federal court exercise jurisdiction over this
case when the land is listed on a tax map and the tax
rolls in the name of New York State?
If New York is involved is there jurisdiction in the
federal courts?
Is the State of New York a necessary party because
it is listed in the tax roles and the tax map as having
an interest in the land?
Should there have been discovery to determine the
role of New York State regarding this land?
CENTRAL ISSUES
Can the Oneida Indian Nation set aside a deed of
the Orchard Party/Marble Hill Oneida (otherwise
known as Orchard Hill Oneidas) land by the
designated head of the Orchard Party, Melvin
Phillips when he is placing these Lands in trust for
the benefit of the residents of the Marble Hill and the
Orchard Party?
Has this land been under the control of the
Orchard Party since the filing of the map at 111a of
the appendix in 1842?
Does the Oneida Indian Nation have any interest
in this land?
Has federal recognition of this parcel as Orchard
Party land this been admitted by the Plaintiff
Oneida Indian Nation at paragraph 85a,
paragraph 17 of the complaint?
Does federally filed map at page 111a of the
appendix describing the “Orchard Party

ii
Reservation” and the land contested herein
create federal recognition of the Orchard Party
Reservation?
Is the Orchard Party a separate tribe from the
Oneida Indian Nation?
Does the map at page 111a of the record
purporting to show Orchard Party land create
any rights of the Oneida Indian Nation in Lot 3?
Does the filed map of the 1842 sale to New York
by the Orchard Party with the name of the
Orchard Party on it showing Lot 3 to be Orchard
Party land at page 111a of the record, give
federal recognition of Lot 3 as Orchard Party
Land or Oneida Indian Land?
Has the Orchard Party and the Oneida Indian
Nation merged?
Does the 2013 Oneida Indian Land claim Settlement give the Oneida Indian Nation title to the
contested land when:
1. the land is historically recognized and
federally recognized as land of the of the
Orchard Party by said map and treaty
2. The settlement with New York has never
been federally approved but
3. Orchard Party never participated in said
settlement
4. the treaty is not congressionally approved
5. It contains a clause stating that the land
claim cannot be used a precedent
Can the 2013 Oneida Land claim Settlement
transfer land federally registered as an Indian
reservation without congressional approval?

iii
Is construction of the Oneida Indian Nation of
the 2013 Oneida Land claim settlement
precluded by the express terms of the 2013
Oneida Nation Settlement Agreement under the
Procurement clause that states the settlement
agreement is restricted to settling the land
claim?
Has Congress dissolved the Orchard Party?
Did the lower courts accept the pleadings of the
Orchard Party Defendant as true in resolving the
claim against them?
Did the lower courts consider the admissions of the
Defendant when deciding the case?
Is discovery needed to obtain the full history of
both tribes from the Bureau of Indian Affairs and the
State of New York rather than just relying on the
pleadings?
Did the court accept the denials of the Defendant
Orchard Party as true or did they ignore them?
Did the Oneida Indian Nation acquire title without
the consent of the Orchard Party by:
1. the 2013 Oneida Land claim Settlement
Agreement or
2. Alleging that this parcel of land was under
the historic control of the Oneida Indian
Nation from time immemorial.
3. claiming a merger of the tribes
Did the Orchard Party create a question of fact by
alleging that:
1. They controlled this parcel from time
immemorial
2. The 2013 Land Claim settlement is restricted
to its itself by the “No Precedent” clause?

iv
3. Denying a merger and all the facts alleged to
support it
Are there questions of fact regarding:
1. the construction of the 2013 Oneida
Settlement Agreement as to the Orchard
Party, the text of the document and the “No
Precedent” clause
2. Does the construction of the Oneida Indian
Nation of the 2013 Settlement Agreement
affect other parcels on the reservation who
were not a party to the settlement?
3. Is the Oneida Indian Nation lying about
controlling the parcel since time immemorial
when the parcel was created in 1842 130
years before the Oneida Nation was formed?
4. who owned and controlled this land since
1842
5. the merger of the tribes
Is the Oneida Indian Nation formed circa 1977
lying about having ownership or control of this land
since 1842?
What is the political structure of the Oneida
Nation?
How do the two New York tribes the Oneida Indian
Nation and the Orchard Party relate to each other in
that structure?
Is the Orchard Party a federally recognized tribe
because there is a map of their reservation filed in
the Bureau of Land management and because they
signed the Treaty of Buffalo (244a) Creek as a
separate tribe named Orchard Party?

v
PARTIES TO THE PROCEEDING
PLAINTIFF: Oneida Indian Nation Appellee
DEFENDANTS: MELVIN L. PHILLIPS,
SR., individually Appellant
and
as trustee, MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST, Appellant
__________________________
ONEIDA INDIAN NATION,
Plaintiff-Counter Defendant-Appellee,
– v. –
MELVIN L. PHILLIPS, SR., individually
and
as trustee, MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST,
Defendants-Counter Claimants-Appellants.
Directly Related proceedings
The Defendant may be filing a Motion to Amend
the answer or submit additional papers on appeal
which has not been filed yet.
The Defendant Oneida Indian Nation brought a
motion to Dismiss the Answer pursuant to Rule 12 (6)
for a Judgment on the Pleadings in the Northern
District of New York case (Docket number
5:17−cv−01035−GTS−ATB) caption:
Final Judgment of dismissal was entered on
7/31/19 in favor of the Oneida Indian Nation in the
Northern District of New York.

vi
The Defendant Melvin Phillips, Sr. individually
and as trustee Melvin Phillips Sr/Orchard Party
Trust appealed to the United States Court of Appeals
for the Second Circuit, Docket number: 19-2737 with
the same caption.
Final Judgment of dismissal was entered on
11/24/20 in favor of the Oneida Indian Nation.
The Defendant Melvin Phillips, Sr. individually
and as trustee Melvin Phillips Sr/Orchard Party
Trust Petitioned for a Rehearing and En Banc
Hearing in Docket number: 5:17−cv−01035−
GTS−ATB with the same caption. A denial of the
petition was entered on 12/30/20

vii
TABLE OF CONTENTS

PAGE

QUESTIONS FOR REVIEW . . . . . . . . . . . . . . . . .

i

JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . .

i

CENTRAL ISSUES . . . . . . . . . . . . . . . . . . . . . .

i

PARTIES TO THE PROCEEDING . . . . . . . . . . .

v

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . .

xi

JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES, ORDINANCES AND
REGULATIONS . . . . . . . . . . . . . . . . . . . . . . . . .

2

BUFFALO CREEK TREATY 1838 . . . . . . . .

3

CONCISE STATEMENT OF THE CASE . .

8

STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . .

9

THE ADMISSIONS OF
THE PLAINTIFF . . . . . . . . . . . . . . . . . . . . .

11

THE 2013 LANDCLAIM SETTLEMENT . .

12

MERGER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

14

ORCHARD PARTY AND FEDERAL
RECOGNITION . . . . . . . . . . . . . . . . . . . . . .

17

THE CURRENT POLITICAL STRUCTURE
OF THE ONEIDA NATION . . . . . . . . . . .

17

THE ORIGINAL ONEIDA NATION . . . . . . .

18

viii
PAGE

THE FALSE ALLEGATION THAT THIS WAS
THE LAND OF THE ONEIDA INDIAN
NATION IN THE PAST . . . . . . . . . . . . . . .
19
TREATY OF 1842 . . . . . . . . . . . . . . . . . . . . . . . .

21

REASONS FOR GRANTING CERTIORARI . .

22

SUPREME COURT IS THE ONLY PLACE
FOR A FINAL RESOLUTION . . . . . . . . .

22

THE ONEIDA NATION IS LYING . . . . . . . .

23

FAILURE TO FOLLOW THE NORMAL
COURSE OF EVENTS . . . . . . . . . . . . . . . .

24

DENIALS OF DEFENDANTS NOT
CREDITED. . . . . . . . . . . . . . . . . . . . . . . . . . .

25

ADMISSION OF PLAINTIFF IGNORED . .

25

QUESTIONS OF FACT IGNORED . . . . . . . .

26

NEEDED DISCOVERY NOT DONE . . . . . .

26

CONCLUSION AND
REQUESTS FOR RELIEF . . . . . . . . . . . . . . . .

27

APPENDIX
APPENDIX A:
Judgment of the Second Circuit Court of Appeals,
dated November 24, 2020 . . . . . . . . . . . . . . . . .
1a

ix
PAGE

APPENDIX B:
Opinion of the Second Circuit Court of Appeals,
dated November 24, 2020, with Concurrence
of Judge Menash . . . . . . . . . . . . . . . . . . . . . . . . .
3a
APPENDIX C:
Order of the Second Circuit Court of Appeals,
dated December 30, 2020 . . . . . . . . . . . . . . . . .
51a
APPENDIX D:
Decision and Order of the District Court for
the Northern District of New York,
dated July 31, 2019 . . . . . . . . . . . . . . . . . . . . . .

53a

APPENDIX E:
Judgment of the District Court for
the Northern District of New York,
dated July 31, 2019 . . . . . . . . . . . . . . . . . . . . . .

76a

APPENDIX F:
Notice of Appeal from the District Court for
the Northern District of New York,
dated Auguat 29, 2019. . . . . . . . . . . . . . . . . . . .

78a

APPENDIX G:
Complaint in the District Court for
the Northern District of New York,
dated September 18, 2017 . . . . . . . . . . . . . . . .

81a

APPENDIX H:
1842 Treaty of Orchard Party with
New York State . . . . . . . . . . . . . . . . . . . . . . . . . .

95a

APPENDIX I:
1842 Map of Purchase from Orchard Party . . . . . .

111a

x
PAGE

APPENDIX J:
Map of the Oneida Land Sales . . . . . . . . . . . .

112a

APPENDIX K:
2013 Oneida Land Claim Settlement
Agreement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

113a

APPENDIX L:
Deed Putting Land in Trust for
Orchard Party . . . . . . . . . . . . . . . . . . . . . . . . . . .

152a

APPENDIX M:
Answer and Counterclaims to the Complaint
in the District Court for the Northern District
of New York, dated January 12, 2018 . . . . . . 209a
APPENDIX N:
United States Constitution,
Eleventh Amendment . . . . . . . . . . . . . . . . . . . .

247a

APPENDIX O:
New York Indian Law § 7:
Partition of Lands . . . . . . . . . . . . . . . . . . . . . . . .

248a

APPENDIX P:
Unpublished decision by Judge Port in
Oneida Nation of New York v. County
of Oneida, dated June 7, 1979 . . . . . . . . . . . . .

250a

xi
TABLE OF AUTHORITIES

PAGE(S)

Cases
County of Oneida v. Oneida Indian Nation,
470 U.S. 226 (1985) . . . . . . . . . . . . . . . . . . . . . .

1

Hans v. Louisiana,
134 U.S. 1; 10 S. Ct. 504; 33 L. Ed. 842;
1890 U.S. LEXIS 1943 . . . . . . . . . . . . . . . . . . . .

8

Seminole Tribe of Florida v. Florida,
517 U.S. 44, 116 S. Ct. 1114; 134 L. Ed. 2d 252;
1996 U.S. LEXIS 2165; 64 U.S.L.W. 4167;
67 Empl. Prac. Dec. (CCH) ¶ 43,952;
96 Cal. Daily Op. Service 2125; 34 Collier
Bankr. Cas. 2d (MB) 1199; 96 Daily Journal
DAR 3499; 42 ERC (BNA) 1289; 9 Fla. L.
Weekly Fed. S 484 . . . . . . . . . . . . . . . . . . . . . . .

8

Virgil v. Town of Gates,
455 Fed. Appx. 36, 2012 U.S. App. LEXIS 1236,
2012 WL 29273 . . . . . . . . . . . . . . . . . . . . . . . . . .
24
Statutes
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1, 2

28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

28 U.S.C. § 1362 . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

28 U.S.C. § 1367 . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

New York Indian Law § 7 . . . . . . . . . . . . . . . . . . . .

6

Constitutional Provisions
11th Amendment . . . . . . . . . . . . . . . . . . . . . . . . . . .

2, 8

xii
Rules

PAGE(S)

Fed. R. Civ. P. 12(6) . . . . . . . . . . . . . . . . . . . . . . . . .

25

Fed. R. Civ. P. 12(c) . . . . . . . . . . . . . . . . . . . . . . . . . 10, 25
Treaties
Treaty of Canandaigua 1794 7 Stat 44 . . . . . . . .

5

1
JURISDICTION
The Defendant appeals from a final judgment of the
Second Circuit dated 11/24/20 and entered 11/24/20.
The Defendant filed a Petition for Rehearing and
Hearing En Banc that was denied on 12/30/20 under
section 28 USC 1291 and 28 USC 1254. The Plaintiff
appeals from the denial of the Second Circuit.
The district court entered final judgment on July
31, 2019. Phillips filed a notice of appeal on August
29, 2019. The Court has jurisdiction of the appeal
pursuant to 28 U.S.C. § 1291.
The Oneida Indian Nation’s complaint invoked the
district court’s subject matter jurisdiction pursuant
to 28 U.S.C. §§ 1331 & 1362, asserting a tribal right
to possession of land under the Indian Commerce
Clause, federal treaties and statutes, and federal
common law; County of Oneida v. Oneida Indian
Nation (Oneida II), 470 U.S. 226, 235-36 (1985)
(Oneidas“ ’possessory right .is a federal right to the
lands at issue” and “we hold that the Oneidas can
maintain this action for violation of their possessory
rights based on federal common law”).
Phillips’ counterclaim invoked only the district
court’s supplemental jurisdiction over state claims
pursuant to 28 U.S.C. § 1367. The district court
dismissed Phillips ’counterclaim for lack of
jurisdiction because of tribal sovereign immunity.
The Plaintiff brought the suit alleging jurisdiction
to be:
28 U.S.C. §§ 1331 & 1362 establish subject
matter jurisdiction. The Nation is an Indian
tribe with a governing body duly recognized
by the Secretary of the Interior. This action

2
and the matter in controversy arise under
the Constitution (Indian Commerce Clause
and Supremacy Clause), a statute (Nonintercourse Act), the treaties (Treaty of
Canandaigua) and the common law of the
United States – which protect the Nation’s
right to possess the 19.6 acres.6. This district
is an appropriate venue pursuant to 28
U.S.C. § 1391(b)(1)-(2). All defendants reside
in it and are New York residents. The events
giving rise to the Nation’s claim occurred in
this district. The property that is the subject
of this action is situated in this district.
The Petitioner has made a certiorari application
herein to the Supreme Court of the United States of
America under 28 USC 1254, appealing the final
order of the Second Circuit based on the federal
questions presented in the Circuit Court and the
district court.
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES, ORDINANCES AND REGULATIONS
11th Amendment
The Judicial power of the United States shall not be
construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or
Subjects of any Foreign State.
2013 Oneida Land Claim Settlement
VIII IMPLEMENTATION
G. No Precedent. The parties agree that no
provision of this settlement shall be
interpreted to be an acknowledgment of the
validity of any of the allegations or claims

3
that have been made in any litigation
covered by this agreement. This settlement
does not constitute a determination of, or
admission by any party to any underlying
allegations, facts or merits of their respective
positions. The settlement of the litigation
covered by this agreement is limited to the
circumstances in those actions alone and
shall not be given effect beyond the specific
provisions stipulated to. This settlement
does not form and shall not be claimed as
any precedent for, or an agreement by the
parties to any generally applicable policy or
procedure in the future.
BUFFALO CREEK TREATY 1838
SPECIAL PROVISIONS FOR THE
ONEIDAS RESIDING IN THE STATE
OF NEW YORK.
ARTICLE 13. The United States will pay the
sum of four thousand dollars, dollars, to be
·paid to Baptista Powlis, and the chiefs of the
first Christian party residing at Oneida, and
the sum of two thousand dollars shall be
paid to William Day, and the chiefs of the
Orchard party residing there, for expenses
incurred and services rendered in securing
theGreen Bay country, and the settlement of
a portion thereof; and they hereby agree to
remove to their new homes in the Indian
territory, as soon as they can make
satisfactory arrangements with the Governor
of the State of New York for the purchase of
their lands at Oneida.
_______________

4
At 244a
18th January 1839.
We the undersigned chiefs of the Oneida
tribe of New York Indians do hereby give our
free and voluntary assent to the foregoing
treaty as·amended by the resolution of the
Senate of the United States on the eleventh
day of June 1838, the same having been
submitted to us by Ransom H. Gillet, a.
commissioner on the part of the United
States and fully and fairly explained by him
to our said tribe in council assembled.
Dated August 9th 1838 at the Oneida
Council House.
Executed in the presence of:
First Christian Party:
Baptiata Powlis
Anthony Biiz Knife,
Peter Williams,
Jacob Powlis, ·
Anthony Anthony,
Peter Martin,
Cornelius Summer,
IsaacWheelock,
Thomas M Doxtater,
William Hill,
Baptiste Denny.
Timothy Jenkins.
Orchard Party:
Jonathan Jordon,
Thomas Scanado,
Henry Jordon,
William Day.

5
Second Christian Party:
Abraham Denny,
Adam Thompson,
Peter Elm,
Lewis Denny,
Martin Denny
(To the Indian names are subjoined marks.)
The above assent was voluntarily freely and
fairly given in my presence. after being fully
and fairly explained.by me.
R. H. Gillet, Commissioner, &c.
ARTICLE 4. Perpetual peace and friendship
shall exist between the United States and
the New York Indians; and the United States
hereby guaranty to protect and defend them
in the peaceable possession and enjoyment of
their new homes, and hereby secure to them,
in said country, the right to establish their
own form of government, appoint their own
officers, and administer their own laws;
subject, however, to the legislation of the
Congress of the United States, regulating
trade and intercourse with the Indians. The
lands secured them by patent under this
treaty shall never be included in any State or
Territory of this Union. The said Indians
shall also be entitled, in all respects, to the
same political and civil rights and privileges,
that are granted and secured by the United
States to any of the several tribes of
emigrant Indians settled in the Indian
Territory.

6
Treaty of Canandaigua 1794 7 Stat 44
Article II. The United States acknowledge
the lands reserved to the Oneida, Onondaga
and Cayuga Nations, in their respective
treaties with the state of New York, and
called their reservations, to be their
property; and the United States will never
claim the same, nor disturb them or either of
the Six Nations, nor their Indian friends
residing thereon and united with them, in
the free use and enjoyment thereof: but the
said reservations shall remain theirs, until
they choose to sell the same to the people of
the United States who have right to purchase.
—————
Article IV. The United States having thus
described and acknowledged what lands
belong to the Oneidas, Onondagas, Cayugas,
and Senecas, and engaged never to claim the
same, nor to disturb them, or any of the Six
Nations, or their Indian friends residing
thereon and united with them, in the free
use and enjoyment thereof: Now the Six
Nations, and each of them, hereby engage
that they will never claim any other lands
within the boundaries of the United States;
nor ever disturb the people of the United
States in the free use and enjoyment thereof.
New York Indian Law 7
New York Indian Law § 7. Partition of tribal
lands
Any nation, tribe or band of Indians which
owns and occupies land in this state as the
common property of such nation, tribe or

7
band may, by the act of its Indian government, divide such lands into lots, and
distribute and partition the same, quantity
and quality relatively considered, among the
individuals and families of such nation, tribe
or band, so that the same may be held in
severalty and in fee simple, according to the
laws of this state. No lands occupied and
improved by any Indian according to the
laws, usages or customs of the nation, tribe
or band shall be set off to any person other
than the occupant or his family. The officers,
agents or commissioners to execute the deeds
to effect such partition shall be appointed by
the nation, tribe or band, whose lands are to
be distributed, subject to the approval of the
commissioner of general services. They shall
go before the county judge of the county in
which such lands are situated, and prove to
his satisfaction that they are authorized to
effect such transfers, and shall acknowledge
before him the deeds necessary therefor. The
county judge shall examine such deeds, and
his endorsement thereon that he has
examined the same, and that they are
executed in pursuance of authority duly
conferred, shall authorize the county clerk to
record such deeds.
Lands partitioned or distributed in
pursuance of this section shall not be subject
to any lien or incumbrance, by way of
mortgage, judgment or otherwise, or be
alienable by the grantee or his heirs, for
twenty years after the recording of the deed
effecting the partition; but may be

8
partitioned among the heirs of a grantee who
dies.
CONCISE STATEMENT OF THE CASE
State of New York
The State of New York office Wildlife and Forest is
listed on the tax roles as having an interest. in this
property. (195a)
The 11th amendment precludes exerting jurisdiction over the State of New York. Seminole Tribe v.
Fla., 517 U.S. 44, 116 S. Ct. 1114, 134 L. Ed. 2d 252,
1996 U.S. LEXIS 2165, 64 U.S.L.W. 4167, 67 Empl.
Prac. Dec. (CCH) P43,952, 96 Cal. Daily Op. Service
2125, 34 Collier Bankr. Cas. 2d (MB) 1199, 96 Daily
Journal DAR 3499, 42 ERC (BNA) 1289, 9 Fla. L.
Weekly Fed. S 484 and Hans v. Louisiana, 134 U.S. 1,
10 S. Ct. 504, 33 L. Ed. 842, 1890 U.S. LEXIS 1943 et
seq.
Therefore the Oneida Indian Nation cannot bring
this action if the land is held in the name of New
York State.
There has been no discovery as to what the
involvement of the State of New York is in this
matter, why it is listed on the tax roles as the owner
or a determination of the related jurisdictional issues
under the 11th Amendment.
Therefore the Federal Courts have no jurisdiction
over this case or discovery is needed to determine the
relationship between the land and the State of New
York as there has been no deed to the State of New
York.

9
STATEMENT
Melvin Phillips pursuant to his authority as
appointed head of the Orchard Party/Marble Hill
Oneidas (hereinafter the Orchard Party Oneidas) by
the Haudenosaunee (Iroquois Central governing
council) (179a) placed a portion of Lot 3 of the
Orchard Party Tract of 1942 into trust for the
Orchard Party and his descendants who are also
Orchard Party members. (154a) (201a) The trust
agreement states: (201a)
TRUST PROPERTY. The Grantor, desiring
to create a Trust for the benefit of himself,
his lineal heirs as well as the present and
future members of the Orchard Party, hereby
transfers and conveys to the Trustee (by
deed recorded in the Oneida County Clerk’s
Office) certain real property as more
particularly and specifically described on the
attached Schedule “A” (herein-after referred
to as the “trust property”), in trust for the
following uses and purposes, and on the
conditions hereinafter stated. It is the intent
of MELVIN L. PHILLIPS, SR., to relinquish
all personal ownership interest, occupancy
and possessory rights in all real property
now or hereafter transferred and assigned to
the Trustee.
This land was used historically by Melvin Phillips
and his family for 180 years. (152a-208a) The
Appendix from 152a to 208a contains the entire
Phillips family history of the property.
The land had been federally recognized as Orchard
Party land pursuant to a map filed with the federal
government in 1842 under the Treaty of (244a) Creek
as Orchard Party land and has been under the

10
control of the Orchard Party since at least 1842.
(111a)
The Oneida Indian Nation objected and moved for
judgement on the pleadings pursuant to Rule 12 (c) to
set aside the trust deed on the grounds (85a):
1. that the Oneida Indian Nation (formed circa
1977) owned or controlled the land from time
immemorial
2. the Oneida Indian Nation had obtained the
land under the 2013 Oneida Land Claim
Settlement (151a)
3. the two sub tribes of the Oneida Nation had
merged.(86a-90a
of
the
appendix
or
paragraphs 19-28 of the complaint and 217a220a of the answer.)
The Orchard Party responded:
1. The admission of the Plaintiff at complaint
85a paragraph 17 prove that this is the
federally recognized federal land of the
Orchard Party based on the map at 111a
2. claiming the land in the map at page 111a
had been theirs since from time immemorial
or at least 1842, (214a, 217a, 223 a, 223 a)
3. that the 2013 Oneida Land claim Settlement
(to which the Orchard Party was not a party)
was restricted to just the land claim under the
paragraph VII G No precedent clause (150a)
The Orchard Party was not a party to the
litigation and was not represented in the
settlement and lastly the settlement
transferred a federally recognized reservation
under a state compact without congressional
approval
4. the Defendants Orchard Party denied any
merger had occurred (210a)

11
5. That the Plaintiff was formed circa 1977 and
Orchard Party had continuously occupied the
land since 1842
6. that the Plaintiff was formerly the Oneida
Nation of New York with no historical
connection to the Marble/Orchard Party of
this parcel since 1805
7. Denied that Melvin Phillips was a member of
the Oneida Indian Nation.
8. Oneida Indian Nation was lying to get the
land (infra)
9. Claimed that the Orchard Party and the
Oneida Indian Nation were equal but
separate tribes of the Oneida Nation. There
has been no unified Oneida government since
1805.
Plaintiff seeks to have the matter reversed and
remanded to obtain the records of the BIA and the
State of New York and have discovery to clarify the
matter and reach a just and proper decision.
THE ADMISSIONS OF THE PLAINTIFF
The Plaintiff has admitted in his compliant that
this is Orchard Party Land and that the filed map
federally recognizes an Orchard Party Reservation as
of 1842 (85a paragraph 17 and 111a).
The Plaintiff also admits that
the Orchard party and Oneida Indians are separate
tribes on separate reservations. (86a-87a P 21)
That they have separate clerks who keep the
separate rolls (87a p 23 b) (86a-87a P 21, )
Paragraph 17 of the Plaintiff’s compliant states
(85a)

12
The United States recognizes the 19.6 acres
as a part of the reservation that was not
conveyed in the June 25, 1842 treaty.
Attached as Exhibit C to this complaint is a
Bureau of Land Management map, filed by
the United States in Oneida Land Claim
Litigation depicting the land within the
reservation that the State Sought to obtain.
The June 25, 1842 treaty transaction is
depicted as number 27. The white rectangle
within number 27 represents Lot 3, depicting
it s not sold under the treaty terms. The 19.6
acres are within the white space that
represents Lot 3.
This an admission of federal recognition and that
the land is the Orchard Party.
THE 2013 LANDCLAIM SETTLEMENT
The 2013 Land claim settlement is limited to itself
and has no application outside the landclaim (150a).
The 2013 Oneida Land Claim Settlement states:
(150a)
VIII IMPLEMENTATION
G. No Precedent. The parties agree that no
provision of this settlement shall be
interpreted to be an acknowledgment of the
validity of any of the allegations or claims
that have been made in any litigation
covered by this agreement. This settlement
does not constitute a determination of, or
admission by any party to any underlying
allegations, facts or merits of their respective
positions. The settlement of the litigation
covered by this agreement is limited to the

13
circumstances in those actions alone and
shall not be given effect beyond the specific
provisions stipulated to. This settlement
does not form and shall not be claimed as
any precedent for, or an agreement by the
parties to any generally applicable policy or
procedure in the future.
The effect of all this is that the Orchard Party has
lost any right to bring a landclaim (which it does not
wish to do) but keeps all its other rights and property
unaffected including this parcel.
Also, the Orchard Party was a not party in the land
claim proceeding and had no say in the settlement.
Despite being a separate federally recognized tribe
for over 150 years they were not allowed to be in the
land claim. Their attempts to intervene failed. Judge
Port stated: (Oneida Indian Nation of New York v
County of Oneida 6/7/79 unpublished decision
appendix 250a):
Affidavits and exhibits on this motion
indicate that the balkanization of the
Oneidas of New York with its internecine
sniping and worse, should not be introduced
into this lawsuit. As indicated by the
exhibits, this is not the forum in which to
resolve the internal problems of governance.
This set the approach for the land claim and every
single intervenor lost thereafter.
The Orchard Party a/k/a the Marble Hill Oneidas
tried to intervene in the Oneida Land claim several
times. (62 Fed App 389, See Appendix 250a, 680 F2d
285 (1980) Finally the contentious issue of
representation was resolved in favor of the Oneida
Indian Nation of New York (the Plaintiffs herein) and

14
no one else. The court ordered that Oneida Nation of
New York represented them for the purposes of the
litigation. (see the No precedence clause at 150a) But
never ruled that Orchard Party land was to be
involuntarily transferred to the Oneida Indian
Nation.
The court in the land claim did recognized the
fractured nature of the government of the Oneida
Nation. But wanted one defendant who could control
the action. This position was routinely reaffirmed and
reaffirmed again against every attempted intervenor
in the land claim as a matter of judicial convenience
without consideration of tribal sovereignty.
This approach to the Oneida Sovereignty is
restricted to the land claim by the No Precedent
clause (supra)
But nothing was said in any decision or settlement
about transferring the land of the Orchard Party to
the Oneida Nation of New York.
Further the 2013 Oneida Land Claim Settlement
with the State of New York lacks federal
Congressional approval. Federally registered indian
reservation land cannot be transferred by a state
agreement without congressional approval.224a
MERGER
The Orchard Hill Party has been separate tribe
from the Oneida Nation of New York and its alleged
predecessors since at least 1805 when the ancient
Oneida Nation split into several politically distinct
tribes because of religious differences and federal
relocation policies. The Orchard Party is the only
Oneida Tribe to continuously occupy is reservation.
The Oneida Indian Nation of New York *now the

15
Oneida Indian Nation) appeared in the late 20th
century circa 1977. See the History of the Oneida
Nation by the BIA at 6:08-cv-006600 Document 4012, and affidavit of Melvin Phillips at 6:08-cv-00660
Docket 40-4 dated 11/19/08, the appendix at 224a228a et al
The Orchard Hill Party denied the allegations
alleging merger. (217a et seq) The allegations are at
86a-90a of the appendix or paragraphs 19-28. There
has been no merger. No dissolution by congress of eh
Orchard party is alleged. The claims in the complaint
often support Defendants position of two separate
governments. The complaint and answer state:
Paragraph in complaint

Answer of Defendant

21. This Defense admits that these are separate
tribes on separate reservations. (86a, 87a)
22. Answered at 218a not all Marble Hill
members are Oneida Indian Nation. Some are
and some are not. (87a, 218a)
23a. The Oneida Indian Nation did not exist at
the time of the alleged IRA vote in 1936, The
Orchard Party was the sole organized and
recognized Oneida tribe in New York at that
time. (87a, 218 a)
23b. This is another admission supporting the
Defendants position. There were two separate
(87a p 23 b)s because there were two separate
tribes One on Marble Hill and one on the 32 Acre
Boylan parcel (87a, 281a)
23c. Denied except as to some (but not all
members) are members of both tribes. (87a, 218a)

16
23d. The Orchard Party is a state indian tribe
who receives no federal benefits and therefore is
not listed in the federal registry. (87d, 218a)
24. Melvin Phillips denies he is a member of the
Oneida Indian Nation. His credential are recited
in the answer at paragraph 24. (281a)(88a)
(218a)
25. Denied This is a traditional tribe and he is
the appointed head. (88a) (219a)(179a)
26a. We agree with the statement: “The United
States considers these groups to be part of one
Oneida Nation” They are both tribes and part of
one Oneida Nation but govern themselves
separately. (89a, 219a, 220a) They are not part of
the Oneida Indian Nation.
26b. We admit there are common members but
deny that the land has been transferred or that
the tribes are merged or dissolved by congress.
(89a, 219a, 220a) There is no allegation that the
Orchard Party has been dissolved by Congress.
27a. Denied. There are members of the Orchard
Party. There are members of both parties. (89a,
220 a)
27b. The Orchard Party is a state indian tribe
who receives no federal benefits and therefore is
not listed in the federal registry. (89a, 220a)
28. The land claim decisions did not dissolve the
Orchard Party, merge the Orchard Party into the
Oneida Indian Nation without their consent or
take its land without their consent. The No
Precedent clause limits the land claim to itself
and its settlement with no effect outside the

17
lawsuit. (89a, 220 a) and precludes merger and
taking the land.
The courts put the Oneida Nation of New York in
charge of the landclaim over the objection of the
Orchard Party. The Orchard Party was not a party to
the settlement. Then the courts bound the Orchard
Party to the settlement even though the Orchard
Party was not a party.
ORCHARD PARTY AND FEDERAL
RECOGNITION
The Oneidas have not lost their federal recognition
since 1842 when they were recognized in the 1842
Treaty of (244a) Creek and the federally filed map at
111a. Thereafter they remained on their reservation
and are still there today. (214a) There is no
congressional dissolution.
They have been federally recognized ever since1842
(11a, 85a paragraph 17). The BIA register of Indian
Tribes does not record state tribes who receive no
benefit. (See the preamble to the register)
There is no allegation that the Orchard Party has
been dissolved by congress.
THE CURRENT POLITICAL STRUCTURE OF
THE ONEIDA NATION
Because the nation fractured in various pieces from
1805 to 1842 the “Oneida tribe” currently consists of
two sub parts: the Orchard Party and the Oneida
Indian Nation of New York.
The BIA classifies the Orchard Party/Marble Hill
and the Oneida Indian Nation as two equal but
politically separate sub tribes of the original Oneida
Nation. (See complaint admission at 86a p 21) This is

18
how the special Treaty for Oneidas residing in New
York is structured. The federal government treated
each individual tribe as a separate government
because there was no central government of the tribe.
But The newly formed Oneida Indian Nation is
continually claiming to be the former fractured the
Oneida Nation of old, which confuses a lot of people
including the two lower courts. The Wisconsin
Oneidas have renamed themselves the Oneida
Nation. (see Federal Indian Register).
The history of the Orchard Party is contained in an
affidavit of Melvin Phillips at 6:08-cv-00660, Docket
40-4 dated 11/19/08 and also 6:08-cv-006600
Document 40-12).
The Orchard Party has not been dissolved by
Congress.
The Oneida Indian Nation has a separate
reservation on the Boylan Parcel and the Marble Hill
Oneidas/Orchard Party have their own reservation on
the 19.6 acres which are the subject of this suit. Also
they have separate clerks and heads of their tribes
and governments. (86a-87a P 21)
The Orchard Party are the descendants of the
original signors of the Treaty of Buffalo Creek.(244a)
They are the only Oneidas to continuously occupy
their historical lands. (211a) The Oneida Indian
Nation did not even exist in 1842.
THE ORIGINAL ONEIDA NATION
The original Oneida Nation fractured into several
tribes (parties) based on religion and federal
relocation policies between 1805 and 1842. The two
relevant ones are the Oneida Nation of New York and
the Orchard Party. (87a, 217a p 20, 86a p 20 and 21)

19
THE FALSE ALLEGATION THAT THIS WAS
THE LAND OF THE ONEIDA INDIAN
NATION IN THE PAST
The Oneida Indian Nation alleges that they have
controlled this land from 1842 (83a to 86a paragraphs
1-17) This is a blatant lie. The map at 111a clearly
shows that this was Orchard Party Land in 1842, 150
years before the Oneida Indian Nation of New York
existed. At that time the Oneida Nation was divided
by religious and federal relocation policies into five
bands: the Thames in Canada, the Wisconsins, the
First Christian, the Second Christian and the
Orchard Party. (see the decisions in the Oneida
Landclaim and the supporting records) There was no
central Oneida government. Each tribe had its own
separate government, but all were part of the Oneida
Nation. (224a-227a)
In 1842 the ancient Oneida Nation in New York
(not the recent Oneida Indian Nation) consisted of
three tribes the First and Second Christians and the
Orchard Party. (See the Special Provisions for
Oneidas residing in the State of NewYork and 225a
supra)
The Orchard Party had the land on Marble Hill
(86a p 20) The Christians were in the valley on the 32
Acre Boylan Parcel. (86a p 20). But all were tribes or
parties of the greater but fractured Oneida Nation of
old. The ancient Oneida Nation is the “nation” in
paragraph 1-17 of the complaint not the newly
formed Oneida Indian Nation as alleged in paragraph
7 of the complaint.
The Oneida Nation is like a name on a door with
numerous groups behind it.

20
The recently formed Oneida Indian Nation claims
it is the ancient Oneida Nation in these papers. (83a
to 86a paragraphs 1-17) The Wisconsin Oneidas are
doing the same, renaming themselves the Oneida
Nation.. (See Federal Indian Registry)
The Oneida Indian Nation of New York now the
Oneida Indian Nation was formed circa 1977. The
legal entity Oneida Indian Nation did not exist until
relatively recently.
A history of the Oneidas by the BIA is in the record
of 6:08-cv-00660 in an affidavit of Melvin Phillips at
6:08-cv-00660 Docket 40-4 dated 11/19/08 and also
6:08-cv-006600 Document 40-12 which contains the
BIA history of the Oneidas.
This misrepresentation permeates the pleadings.
For example 86a Paragraph 21 states that there were
two nation settlements, one on Marble Hill and one
on the 32 acre Boylan parcel. This is correct as to the
ancient Oneida Nation. The statement is incorrect as
to the Oneida Indian Nation of New York who did not
exist at the time when the Boylan Parcel was
originally occupied by the Christian parties.
Another example exists at paragraph 88a Melvin
Phillips admits he belongs to the greater Oneida
Nation. He has never admitted and will never admit
that he belongs to the Oneida Indian Nation. He
denies it.
The Oneida Indian Nation of New York is part of
the greater Oneida Nation just like the Orchard
Party. The Oneida Indian Nation of New York is
attempting bolster its case with a lie claiming to be
the ancient Oneida Nation in the pleadings at
paragraphs 7-23 pages 83a-86a.

21
There are two “nations” the original Oneida Nation
of old which included the Wisconsins and the
Thames, the Orchard and Christian parties. The
second is the Oneida Indian Nation of New York now
the Oneida Indian Nation. The Oneida Indian Nation
of New York uses the term “nation” for both
themselves and the ancient Oneidas ignoring its own
formation date circa 1977 over 150 years after the
Oneida Nation was fractured.
This situation and the misrepresentation caused no
end of confusion in the lower courts on the facts. As
they treated the Oneida Indian Nation as the owner
of this land from time immemorial.
This map at 111a clearly states that: the 19.7 acres
are Orchard Party Land, that this 19.7 acres is
federally recognized as Orchard Party Land and the
Plaintiff admit this. (111a, 85a paragraph 17) The
land is wholly located within the historic Orchard
Party Reservation. (111a)
TREATY OF 1842
My client demands that this be included:
4. The 1842 Treaty
Pursuant to the Buffalo Creek treaty Article 13
special provision the State of New York made a treaty
with the Orchard Party Oneidas on June 26, 1842.
Trust deed Exhibit 2 The 1842 Treaty provided for
New York to Purchase the majority of the remaining
lands occupied by the Orchard Party Oneidas,
including Appellants direct ancestors in what is today
the Town of Vernon, Oneida County, New York Trust
deed. Exhibit 9. The lands are identified as Lot 1, 2, 4
on that exhibit. The treaty further arranged for New
York not to purchase Lot 3 which New York agreed

22
would remain the property for the “Home Party of the
Orchard Indians” who decided to remain on their
land in New York.
Please note that New York State did not buy the
reservation from the Oneida Nation but the party the
Orchard Party. The Orchard Party was considered
the owner and controller. Not the Oneida Nation, not
the Oneida Indian Nation. The Orchard Party owned
this parcel as of 1842 and has not lost it in the Treaty
of 2013 or by merger.
REASONS FOR GRANTING CERTIORARI
SUPREME COURT IS THE ONLY PLACE
FOR A FINAL RESOLUTION
This is the First time the 2013 Oneida Settlement
agreement is before the United States Supreme Court
and rulings on the document are needed. The United
States Supreme Court is the only forum that can
finally resolve the following issues:
1. define the fractured government of the
Oneida Nation
2. give a final interpretation of the 2013
Oneida Land claim settlement
The 2013 Land claim settlement deals with the
Orchard Party land without them being represented
or a party to the proceeding or consenting the
treatment of their land.
The scope of the 2013 Oneida Land claim
Settlement Agreement and its effect on non parties
are at issue in this case and the expansive rulings of
the Lower Courts affect at least the entire Orchard
Party reservation and the people living thereon and
their land titles.

23
The Orchard Party was not a party to the 2013
Land claim. (151a) The courts wanted one
representative not multiple “squabbling” sub tribes.
(see unpublished Port court opinion in Appendix
250a) Eventually the Oneida Indian Nation of New
York prevailed and the other tribes were precluded
from participating. The Orchard Party did not contest
the settlement because they were not involved . They
did want not to bring a land claim.
Now years later the Oneida Indian Nation is
reinterpreting the agreement to affect all the
individually owned parcels on the Orchard Party
reservation by giving the Oneida Nation control of
the area.
The interpretation of the 2013 land claim
agreement needs to be restricted to its terms. An
expansive ruling will create havoc in the region.
The Supreme Court is the only forum available for
resolving the fractured structure of the Oneida
Nation and determining the rights among the tribes
including the issue of merger of the tribes to finally
resolve the tribal structure.
The Orchard Hill Party denied the facts alleging
merger. The Orchard Party denied the allegation that
the tribes were merged. (Supra in concise Statement
of Facts)
THE ONEIDA NATION IS LYING
The Plaintiff admits the map at 111a shows the
federally recognized reservation Orchard Party
Reservation and that it is federally recognized. (85a)
The Oneida Indian Nation was formed in 1977 (83a)
but the Oneida Indian Nation claims to own this
parcel from time memorial. (83-86a paragraphs 9-18)

24
The plaintiff contradicts themself and their own case.
How can they own land that was federally recognized
as the Orchard Party from 1842 when the Oneida
Indian Nation was formed in 1977?
The Oneida Indian Nation is marketing name
confusion between the 1977 Oneida Indian Nation
and the ancient unified Oneida Nation.
Nor is Melvin Phillips a nation member. (83a, 213a,
214a) Said Plaintiff denied being a nation member.
(213a, 214a)
FAILURE TO FOLLOW
COURSE OF EVENTS

THE

NORMAL

Virgil v. Town of Gates, 455 Fed. Appx. 36, 2012
U.S. App. LEXIS 1236, 2012 WL 29273 states:
We review a judgment under Fed. R. Civ. P.
12(c) de novo, accepting the complaint’s
factual allegations as true and drawing all
reasonable inferences in the plaintiff’s favor.
See Hayden v. Paterson, 594 F.3d 150, 160
(2d Cir. 2010). To survive a Fed R. Civ. P.
12(c) motion, a complaint must contain
sufficient factual matter to “state a claim to
relief that is plausible on its face,” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570, 127 S.
Ct. 1955, 167 L. Ed. 2d 929 (2007); in short,
it [*38] must plead facts sufficient to allow a
court to draw the “reasonable inference that
the defendant is liable for the misconduct
alleged,” Ashcroft v. Iqbal, 556 U.S. 662, 129
S. Ct. 1937, 1949, 173 L. Ed. 2d 868 (2009).
Where referenced documents are integral to
the complaint, those documents are
appropriately considered together with the
pleadings in deciding a Fed R. Civ. P. 12(c)

25
motion. See Chambers v. Time Warner, Inc.,
282 F.3d 147, 153 (2d Cir. 2002).
Normally in litigation and on a Rule 12(6) a motion
on the pleadings::
1. the allegations of the non moving party are
considered admitted and true
We review de novo a judgment under Fed. R.
Civ. P. 12(c), accepting the complaint’s factual
allegations as true and drawing all reasonable
inferences in the plaintiff’s [**6] favor.
Kirkendall v. Halliburton, Inc., 707 F.3d 173,
178-79 (2d Cir. 2013). Ezra v. Bristol-Myers
Squibb Co., 784 Fed. Appx. 48
2. Admissions against interest in the movants
pleadings are considered
3. Questions of Fact mandate denial of the
motion
4. The claim must be plausible.
5. Discovery is granted
Absolutely none of this happened. As stated herein
Defendant has a plausible case.
DENIALS OF DEFENDANTS NOT CREDITED
The Defendant denied everything in particular any
allegations of merger. See 86a-90a of the appendix or
paragraphs 19-28 of the complaint and 217a-220a of
the answer, supra
ADMISSION OF PLAINTIFF IGNORED
The map at 111a is not mentioned anywhere and it
establishes the legitimacy of the Plaintiffs federal
recognition as does the Treaty of Buffalo Creek. 244a

26
The remaining issue is: has the Orchard Party lost
its federal recognition?
QUESTIONS OF FACT IGNORED
The record is replete with obvious questions of fact.
Such as:
1. the construction of the 2013 Oneida
Settlement Agreement as to the Orchard
Party, the text of the document and the “No
Precedent” clause
2. Does the construction of the Oneida Indian
Nation of the 2013 Settlement Agreement
affect other parcels on the reservation who
were not a party to the settlement?
3. Is the Oneida Indian Nation lying about
controlling the parcel since time immemorial
when the parcel was created in 1842 130
years before the Oneida Nation was formed?
4. who owned and controlled this land since
1842
5. the merger of the tribes
The Oneida Indian Nation is claiming the terms of
the settlement agreement give the land to the Oneida
Indian Nation. The Defendant Orchard Party is
claiming that the No Precedence clause limits the
effect of the agreement and leaves all other rights
unaffected. Can the settlement agreement transfer
the rights of the Marble Hill Oneidas without their
consent?
There is complete disagreement on whether the
tribes have merged.
NEEDED DISCOVERY NOT DONE
Normally when there are questions of fact on
jurisdiction or major issues in a case there is

27
discovery the information is assembled and a decision
reached. In this case there was a substantial
deviation from that practice in resolving the case on
the pleadings without the BIA and New York State
records.
This case should not be decided in a factual
vacuum , the documents of the BIA and the State of
New York would clarify and resolve this situation.
Before a 180 year old tribe loses it land and the titles
on Orchard reservation are clouded the work should
be done and proper processes observed.
Presently the status quo of the last 180 years has
been upset by this decision.
CONCLUSION AND REQUESTS FOR RELIEF
The case should be reversed and remanded to the
district court for discovery and other proceedings.
A ruling is needed on interpreting the 2013 Oneida
Land claim Settlement. The Supreme Court is the
only court that can finally resolve the matter. Also,
this is the only court that can finally settle the
Oneida tribal structure. Also, a state compact without
congressional approval cannot transfer federally
recognized Indian land like the Orchard Party
reservation out of trust without the consent of the
Orchard Party.
The lower court proceedings ignored all the
standard rules of Civil Procedure and issued
judgment on the pleadings based on little more than
a lawyer’s write up of the case.
Further the complete failure to credit the denials of
the Defendants, the failure to consider the damaging
admissions of the Plaintiffs, ignoring the numerous
questions of fact and other matters merits reversal,

28
remand and discovery and a considered opinion based
on the facts not allegations written by lawyers in
their offices.
Dated May 28, 2021
Respectfully submitted,
Woodruff L. Carroll
Counsel of Record
Woodruff Lee Carroll P.C.
334 Nottingham Road
Syracuse, New York 13210
(315) 474-5356
carrollcarroll@carrolloffice.com
Attorney for Petitioner

APPENDIX

1a
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE S ECOND C IRCUIT
FINAL JUDGMENT BEING APPEALED
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40
Foley Square, in the City of New York, on the 24th
day of November, two thousand twenty.
Before: José A Cabranes,
Raymond J. Lohier, Jr.,
Steven J. Menashi,
Circuit Judges.

__________
Docket No. 19-2737

__________
O NEIDA I NDIAN N ATION ,
Plaintiff-Counter Defendant-Appellee,
—v.—
M ELVIN L. P HILLIPS , S R ., INDIVIDUALLY AND
TRUSTEE , M ELVIN L. P HILLIPS , S R ./
O RCHARD P ARTY T RUST ,

AS

Defendants-Counter Claimants-Appellants.

__________

86780 • CARROLL • APPENDIX A

AL 5/10/21

2a
JUDGMENT
The appeal in the above captioned case from a
judgment of the United States District Court for
the Northern District of New York was argued on
the district court’s record and the parties’ briefs.
Upon consideration thereof,
IT IS HEREBY ORDERED, ADJUDGED and
DECREED that the November 15, 2018 decision
and order and the July 31, 2019 final judgment of
the district court are AFFIRMED.
For the Court:
/s/ Catherine O’Hagan Wolfe
Catherine O’Hagan Wolfe
Clerk of Court
[STAMP]

86780 • CARROLL • APPENDIX A

AL 5/10/21

3a
Appendix B
IN THE

UNITED STATES COURT OF APPEALS
FOR THE S ECOND C IRCUIT

__________
OPINION

__________
A UGUST T ERM 2019
No. 19-2737-cv

__________
O NEIDA I NDIAN N ATION ,
Plaintiff-Counter Defendant-Appellee,
—v.—
M ELVIN L. P HILLIPS , S R ., INDIVIDUALLY AND
TRUSTEE , M ELVIN L. P HILLIPS , S R ./
O RCHARD P ARTY T RUST ,

AS

Defendants-Counter Claimants-Appellants.

__________
On Appeal from the United States District Court
for the Northern District of New York

__________

86780 • CARROLL • APPENDIX B

Al 5/10/21

4a

__________
ARGUED : JUNE 24, 2020
D ECIDED : N OVEMBER 24, 2020

__________
Before: CABRANES , LOHIER , and MENASHI ,
Circuit Judges.

__________
Defendants-Counter Claimants-Appellants Melvin
L. Phillips, Sr. and the Melvin L. Phillips,
Sr./Orchard Party Trust appeal from a July 31,
2019 judgment entered in the United States
District Court for the Northern District of New
York (Glenn T. Suddaby, Chief Judge) principally
granting the motion of Plaintiff-Counter DefendantAppellee Oneida Indian Nation of New York (“the
Nation”) for judgment on the pleadings for its
claims asserting a tribal right to possession of land
under the Indian Commerce Clause, federal
treaties and statutes, and federal common law.
Phillips also appeals the District Court’s decision
and order dated November 15, 2018 granting the
Nation’s motion to dismiss Phillips’s counterclaim.
For the reasons set forth below, the November 15,
2018 decision and order and the July 31, 2019 final
judgment of the District Court is AFFIRMED.
Judge Menashi concurs in part and concurs in
the judgment in a separate opinion.

__________

86780 • CARROLL • APPENDIX B

Al 5/10/21

5a
MICHAEL R. SMITH (David A. Reiser, on
the brief), Washington, DC, for PlaintiffCounter Defendant-Appellee, Oneida Indian
Nation.
JOSEPH R. MEMBRINO , Cooperstown, NY,
(Claudia L. Tenney, Clinton, NY on the
brief), for Defendants-Counter ClaimantsAppellants, Melvin L. Phillips, Sr. and the
Melvin L. Phillips, Sr./Orchard Party
Trust.

__________
J OSÉ A. C ABRANES , Circuit Judge:
The principal question presented in this matter
concerns the tribal right to possession of land
under the Indian Commerce Clause of the U.S.
Constitution,1 federal treaties and statutes, and
federal common law.
Defendants-Counter Claimants-Appellants Melvin
L. Phillips, Sr. and the Melvin L. Phillips, Sr./
Orchard Party Trust (together, “Phillips”) appeal
from a July 31, 2019 judgment entered in the
United States District Court for the Northern
District of New York (Glenn T. Suddaby, Chief
Judge) principally granting the motion of PlaintiffCounter Defendant-Appellee Oneida Indian Nation
of New York (“the Nation”) for judgment on the
pleadings on its claims for declaratory and
injunctive relief. Phillips also appeals the District
1

U.S. CONST . art. I, § 8, cl. 3 (“Congress shall have
Power . . . [t]o regulate Commerce with foreign Nations and
among the several States, and with the Indian Tribes . . . ”).

86780 • CARROLL • APPENDIX B

Al 5/10/21

6a
Court’s decision and order dated November 15,
2018 granting the Nation’s motion to dismiss
Phillips’s counterclaim.
On appeal, Phillips argues that the District
Court erred by granting: (1) the Nation’s motion
for judgment on the pleadings; and the Nation’s
motion to dismiss Phillips’s counterclaim.
We hold that: (1) the District Court correctly
granted the Nation’s motion for judgment on the
pleadings because title was not properly transferred
to Phillips, and Phillips’s defenses do not raise any
issues of material fact that would preclude the
requested declaratory and injunctive relief sought
by the Nation; and (2) the District Court did not
err by declining to apply an immovable property
exception to tribal sovereign immunity in dismissing Phillips’s counterclaim.
Accordingly, we AFFIRM the November 15,
2018 decision and order and the July 31, 2019 final
judgment of the District Court.
I. BACKGROUND
We draw the facts, which are undisputed unless
specifically noted, from the District Court’s
decisions and orders dated November 15, 2018 and
July 31, 20192 and from the record before us.

2

Oneida Indian Nation v. Phillips, 397 F. Supp. 3d 223
(N.D.N.Y. 2019); Oneida Indian Nation v. Phillips, 360 F.
Supp. 3d 122 (N.D.N.Y. 2018).

86780 • CARROLL • APPENDIX B

Al 5/10/21

7a
A. Factual Background
This suit arises from a disputed tract of 19.6
acres of land in the Town of Vernon in Oneida
County, New York, over which both the Nation and
Phillips assert ownership (“the 19.6 Acre Parcel”).
Before contact with Europeans, the Oneida Indian
Nation owned and occupied over six million acres
of land in the territory that would later become
New York State.3 Under the United States Constitution, Indian relations were reserved exclusively
to the federal government.4 Throughout the 1780s
and 1790s, the United States entered into several
treaties with the Nation confirming the Nation’s
right of possession of their lands until the United
States purchased those lands.5 These treaties were
incorporated into federal law by the Nonintercourse Act of 1790, subsequently codified at 25
3

See Oneida Indian Nation of N.Y. State v. Oneida
Cnty., N.Y., 414 U.S. 661, 663-64 (1974) (“Oneida I”).
4
See Note 1, ante; Worcester v. State of Ga., 31 U.S. 515,
519 (1832) (explaining that “that the whole power of regulating
the intercourse with [the Indian nations], was vested in the
United States”); see also Oneida County, N.Y. v. Oneida Indian
Nation of N.Y. State, 470 U.S. 226, 234-35 (1985) (“Oneida II”)
(“From the first Indian claims presented, this Court recognized
the aboriginal rights of the Indians to their lands.”); Cherokee
Nation v. Georgia, 30 U.S. 1, 17 (1831) (noting the
“unquestioned right” of Indians to their lands); Felix S. Cohen, 1
Cohen’s Handbook of Federal Indian Law § 5.01 (2019)
(explaining that the Indian Commerce Clause is the basis for
laws requiring federal approval for land sales by Indian tribes).
Under federal common law, the Indian tribes own their land as
common property in what is referred to as “Indian title” or
“aboriginal title.” See id. § 15.04(2). Tribal land may also be held
by “recognized title,” i.e., that the title is recognized by a federal
statute or treaty. See id. § 15.04(3).
5

See Oneida I, 414 U.S. at 664.

86780 • CARROLL • APPENDIX B

Al 5/10/21

8a
U.S.C. § 177, which prohibited the conveyance of
Indian lands without the consent of the United
States.6 In 1794, by signing the Treaty of
Canandaigua, the United States recognized
approximately 300,000 acres of the Nation’s land
as “their reservation[].”7 The 19.6 Acre Parcel
disputed in this case was located within that
reservation as of 1794. The State of New York has
never attempted to obtain the 19.6 Acre Parcel.
The United States has not withdrawn the 19.6
Acre Parcel from the Nation’s reservation.8
In 1838, the United States and various New
York State Indian tribes, including the Nation,
entered into the Treaty of Buffalo Creek, an agreement which “contemplated the eventual removal of
all remaining Native Americans in New York to
reservation lands in Kansas.”9
On June 25, 1842, New York State entered into a
treaty with the Nation (the “1842 Treaty”) to purchase a portion of the Nation’s land, paying certain
6

See id.; Oneida II, 470 U.S. at 245-46.
Oneida II, 470 U.S. at 231 n.1 (“The Treaty of
Canandaigua of 1794 provided: ‘The United States acknowledge
the lands reserved to the Oneida, Onondaga and Cayuga
Nations, in their respective treaties with the state of New York,
and called their reservations, to be their property; and the
United States will never claim the same, nor disturb them . . . in
the free use and enjoyment thereof: but the said reservations
shall remain theirs, until they choose to sell the same to the
people of the United States, who have the right to purchase.’”
(quoting 7 Stat. 45)).
8
See Oneida Indian Nation v. Madison Cnty., 665 F.3d
408, 443 (2d Cir. 2011) (“It remains the law of this Circuit that
the [the Nation’s] reservation was not disestablished.”).
9
Id. at 416; see generally Act of Jan. 15, 1838, 7 Stat. 550.
7

86780 • CARROLL • APPENDIX B

Al 5/10/21

9a
members of the Nation described in the treaty as
“the Orchard Party of the Oneida Indians residing
in the town of Vernon county of Oneida.”10 Prior to
entering into the 1842 Treaty, New York State
surveyed part of the reservation, by which it
divided the land in question into four numbered
lots.11 The 19.6 Acre Parcel is entirely within Lot 3
(referred to as the Marble Hill tract). The 1842
Treaty did not convey Lot 3 to New York State, but
rather, listed the names of members of the Nation
who intended to continue living within Lot 3.12

10

App’x 21 (A Treaty made June 25, 1842 with the
Orchard Party of the Oneida Indians). We observe that the
1842 Treaty appears to have been entered into by New York
State notwithstanding “Congress’ clear policy that no person
or entity should purchase Indian land without the
acquiescence of the Federal Government” under the
Nonintercourse Act. Oneida II, 470 U.S. at 232; see also
Cohen, Handbook of Federal Indian Law § 15.06 (citing the
Nonintercourse Act and explaining that only the United
States can extinguish Indian title; thus, “[a] seller or buyer
of tribal land must show clear authority in federal law to
allow a transfer of the interest from the tribe”). Nonetheless,
the validity of the 1842 Treaty with New York State under
federal law is irrelevant here because this matter concerns
land—the 19.6 Acre Parcel—that was categorically not
conveyed under the 1842 Treaty. See App’x 11 (Complaint,
¶¶ 15-17); see also Note 12, post.
11
See App’x 37 (depicting the surveyed territory and the
four lots).
12

See App’x 27 (reciting the names of members of the
Nation). The United States recognizes that the 19.6 Acre Parcel
was not conveyed as part of the 1842 Treaty. See App’x 38
(Bureau of Land Management map, filed by the United States
in Oneida land claim litigation, depicting the land within the
Oneida reservation that New York State sought to obtain).

86780 • CARROLL • APPENDIX B

Al 5/10/21

10a
In 2013, a comprehensive settlement agreement
in a civil lawsuit in the Northern District of New
York, to which the United States was a party, was
reached between the State of New York, Madison
County, Oneida County, and the Nation to resolve
all legal disputes regarding land, taxation, and
governance.13 This agreement provided that the
land designated as Lot 3 of the 1842 Treaty: (1)
was excluded from the sale in the 1842 Treaty; (2)
is “Nation Land” located within the Oneida
reservation; (3) is subject to the Nation’s assertion
of “sovereignty” and “rights under federal law”;
and (4) is not subject to state or local taxation or
regulation.14 This settlement was approved by the
United States District Court for the Northern
District of New York (Lawrence E. Kahn, Judge),
which incorporated it into a memorandum decision
and order dated March 4, 2014 and under which it
thereafter retained enforcement jurisdiction.15
The Nation’s land surrounding the 19.6 Acre
Parcel is called “the Orchard” or “Marble Hill.”16
The United States has recognized that there is one
Oneida Indian Nation in New York State, and
some of its members live in Marble Hill.

13

See generally New York v. Jewell, 2014 WL 841764, at
*1-2 (N.D.N.Y. 2014); see also App’x 39-58 (Settlement
Agreement by the Oneida Nation, the State of New York, the
County of Madison, and the County of Oneida). Sally Jewell,
Secretary of the United States Department of the Interior,
was the named defendant in that action and the Nation
participated as an intervenor-defendant.
14
See App’x 40-41, 49-50, 52 (Settlement Agreement).
15
See Jewell, 2014 WL 841764, at *12.
16
App’x 13 (Complaint, ¶ 19).

86780 • CARROLL • APPENDIX B

Al 5/10/21

11a
Although all parties concede that Phillips is a
member of the Nation, Phillips has on several
occasions asserted that the Orchard Party or
Marble Hill Oneidas are a separate tribe from the
Nation, and he has claimed to represent that
separate tribe. On September 1, 2015, Phillips
recorded a quitclaim deed with a trust declaration
titled “Melvin L. Phillips, Sr./Orchard Party Trust”
(the “Orchard Party Trust” or “trust”), naming
himself both as grantor of the 19.6 Acre Parcel and
as sole trustee of the trust.17 The declaration
states that Phillips “hereby transfers and conveys
to the Trustee [i.e., Phillips] (by deed recorded in
the Oneida County Clerk’s Office) certain real
property as more particularly and specifically
described on the attached Schedule A . . . .”18
Schedule A of the trust instrument describes four
parcels of land.19 “Parcel IV” comprises the 19.6
Acre Parcel in question and the access road/
driveway leading to it from Marble Road.20 The
trust documents state that the 19.6 Acre Parcel is
composed of “tribal lands belonging to the Oneida
Nation/Orchard Hill Party,” that Phillips is a
“spokesman” and “representative” of the Orchard

17
App’x 60 (quitclaim deed), 103 (trust declaration)
(capitalization omitted). The trust declaration does not name
a grantee, but it appears that Phillips intended himself, as
trustee, to serve as such.
18
Id. at 103 (trust declaration); see also id. at 62-64
(Schedule A).
19
Id. Parcels I, II and III are not in dispute nor the subject
of this lawsuit.
20
App’x 63-64 (Schedule A).

86780 • CARROLL • APPENDIX B

Al 5/10/21

12a
Party, and that the land was “under the stewardship of Melvin L. Phillips, Sr.”21
B. Procedural History
The Nation filed this action in the United States
District Court for the Northern District of New
York on September 18, 2017, asserting, inter alia,
its possessory rights over the 19.6 Acre Parcel
identified in the trust deed and seeking: (1)
declaratory relief stating that neither Phillips nor
the Orchard Party Trust “owns or has any
property interest in the 19.6 acres” and that the
trust instrument and quitclaim deed Phillips
recorded “are invalid and void so far as they
concern the [19.6 Acre Parcel];” and (2) an injunction prohibiting Phillips and the trust from
claiming the 19.6 Acre Parcel or clouding its title.22
Phillips filed an answer and a counterclaim, which
the Nation moved to dismiss under Rule 12(b)(6).23
Invoking the District Court’s supplemental jurisdiction, Phillips’s counterclaim requested (1) a
declaration stating that the Nation does not have a
property interest in the 19.6 Acre Parcel and that
the quitclaim deed and trust are valid with respect
to the 19.6 Acre Parcel; and (2) that the Nation be
enjoined from claiming the 19.6 Acre Parcel or
clouding its title.24
21

Id. at 64 (Schedule A), 103 (trust declaration)
(capitalization omitted).
22
App’x 19; see also Phillips, 360 F. Supp. 3d at 125.
23
See Phillips, 360 F. Supp. 3d at 125; see also App’x 112
(Phillips’s Answer and Counterclaim), 6 (District Court docket,
Doc. 24, Nation’s Motion to Dismiss).
24
See Phillips, 360 F. Supp. 3d at 125.

86780 • CARROLL • APPENDIX B

Al 5/10/21

13a
The parties agreed that: (1) the 19.6 Acre Parcel
was within the lands recognized by the United
States in the 1794 Treaty of Canandaigua as
comprising the Nation’s reservation; (2) the 19.6
Acre Parcel was never conveyed to New York
State; and (3) the 1842 Treaty with New York
State reserved the 19.6 Acre Parcel and certain
other parcels from cession and declared that
members of the Nation would continue to occupy
those parcels “collectively in the same manner and
with the same right, title and interest therein as
appertained to them, the party so remaining before
the execution of this treaty.”25 Accordingly, the dispute between the parties was limited to whether,
after the 1842 Treaty with New York State, the
tribal land rights over the 19.6 Acre Parcel
belonged to the Nation, or to the Orchard Party,
the purportedly separate tribe that Phillips
claimed to represent.
On November 15, 2018, the District Court
granted the Nation’s motion to dismiss Phillips’s
counterclaim pursuant to Rule 12(b)(6).26 In so
25

See Appellee’s Br. at 15; App’x 23.
See generally Phillips, 360 F. Supp. 3d at 132-34. In
setting forth the legal grounds and reasoning upon which it
based its decisions granting both of the Nation’s two motions
here on appeal, the District Court stated that it granted the
motions “for each of the numerous alternative reasons stated in
[the Nation’s] memoranda of law,” accompanied by the District
Court’s own “analysis, which is intended to supplement but not
supplant [the Nation’s] arguments.” Id. at 132; see also Phillips,
397 F. Supp. 3d at 230 (granting judgment on the pleadings “for
each of the alternative reasons stated in [the Nation’s]
memoranda of law.”). We have previously counseled (in other
contexts) that district courts should articulate their own
independent analysis and reasoning that support their rulings.
26

86780 • CARROLL • APPENDIX B

Al 5/10/21

14a
ruling, the District Court rejected Phillips’s
argument that the 19.6 Acre Parcel belonged to the
Orchard Party.27 The District Court noted in its
decision that: (1) Phillips had conceded that the
19.6 Acre Parcel belonged to the Nation as of 1794;
(2) Phillips did not allege a cession of the 19.6 Acre
Parcel; and (3) the United States had “treated the
Oneidas as a unified nation” in New York State,
thereby foreclosing any “argument that the Court
should consider [the] Orchard Party Oneida as a
separate tribe from [the Oneida Nation], with
independent tribal rights to the 19.6 acres.”28 The
District Court also determined that Phillips’s
counterclaim was barred by the Nation’s tribal
sovereign immunity.29
The Nation subsequently filed a motion for
judgment on the pleadings pursuant to Rule 12(c),
which the District Court granted on July 31,
2019.30 In granting judgment for the Nation, the
District Court concluded that there were no
See, e.g., Jackson v. Fed. Exp., 766 F.3d 189, 198 (2d Cir.
2014) (“In all cases in which summary judgment is granted,
the district court must provide an explanation sufficient to
allow appellate review.”); Rudenko v. Costello, 286 F.3d 51,
65 (2d Cir. 2002) (remarking, in the context of habeas corpus,
that “[w]hether the district court’s ultimate decision turns on
factual determinations or on a choice between competing
legal principles or on the manner in which the legal
principles are applied to the facts, the district court must
provide an indication of its rationale that is sufficient to
permit meaningful appellate review.”).
27
See Phillips, 360 F. Supp. 3d at 132-34.
28
Id. at 133.
29
See id.; see also Note 36, post.
30
See Phillips, 397 F. Supp. 3d at 225, 229-34.

86780 • CARROLL • APPENDIX B

Al 5/10/21

15a
disputed issues of material fact because Phillips
conceded that the 19.6 Acre Parcel was located
within the Nation’s reservation as recognized by
the 1794 Treaty of Canandaigua, and the parties’
rights could be determined based solely upon the
relevant statutes and treaties. The District Court
rejected Phillips’s contention that the 1838 Treaty
of Buffalo Creek between the Nation and the
United States extinguished the Nation’s land in
New York State, and held that the 1838 Treaty “by
its plain language…does not cede [the Nation’s]
right to the [19.6 Acre Parcel]” and does not
“recognize any proprietary interest of the Orchard
Party” in the 19.6 Acre Parcel.31 The District Court
also reiterated its conclusions in its earlier
decision that the United States recognizes “the
Oneidas as a single unified Nation,” and that the
Orchard Party is not “a separate tribe from [the
Nation].”32 The judgment entered by the District
Court declared: (1) that the 19.6 Acre Parcel
belongs to neither Phillips nor the trust; (2) that
the quitclaim deed and trust are void as to the 19.6
Acre Parcel; and (3) that Phillips and the trust
were enjoined from thereafter claiming to own the
19.6 Acre Parcel.33
This timely appeal followed.
II. DISCUSSION
We review de novo a district court’s grant of
judgment on the pleadings pursuant to Rule 12(c),
31
32
33

See id. at 231-32.
Id. at 231.
See id. at 234.

86780 • CARROLL • APPENDIX B

Al 5/10/21

16a
accepting the complaint’s factual allegations as
true and drawing all reasonable inferences in favor
of the non-moving party.34 “To survive a Rule 12(c)
motion, the complaint must contain sufficient factual
matter to state a claim to relief that is plausible on
its face.”35 Applying this same standard, we review
de novo a district court’s order granting a motion
to dismiss counterclaims under Rule 12(b)(6).36
A. Judgment on the Pleadings
1.

The
District
Court’s
Order
Granting the Nation’s Motion

On appeal Phillips contends that he owns the
19.6 Acre Parcel individually, rather than as a
representative of the Orchard Party. This position
flatly contradicts his prior assertions in the
Orchard Party Trust, the quitclaim deed, and the
answer and counterclaim before the District Court,
in which he stated that he was merely a “steward”
or “trustee” of the 19.6 Acre Parcel, which
“belong[ed] to the Oneida Nation/Orchard Hill
34
See Kirkendall v. Halliburton, Inc., 707 F.3d 173, 178
(2d Cir. 2013). Rule 12(c) provides that “[a]fter the pleadings
are closed—but early enough not to delay trial—a party may
move for judgment on the pleadings.”
35
Kirkendall, 707 F.3d at 178-79 (internal citation and
quotation marks omitted).
36

See Menaker v. Hofstra Univ., 935 F.3d 20, 29-30 (2d
Cir. 2019). The District Court also construed the Nation’s
motion to dismiss on grounds of tribal sovereign immunity as
made pursuant to Federal Rule of Civil Procedure 12(b)(1). “On
appeal from such a judgment, we review factual findings for
clear error and legal conclusions de novo.” Makarova v. United
States, 201 F.3d 110, 113 (2d Cir. 2000) (internal quotation
marks omitted).

86780 • CARROLL • APPENDIX B

Al 5/10/21

17a
Party.”37 Whether Phillips asserts individual
ownership or ownership on behalf of the Orchard
Party, however, we agree with the District Court
that the dispute here can be resolved through
analysis of the relevant treaties.
The parties agree that the Nation’s reservation
recognized in the 1794 Treaty of Canandaigua
includes the entirety of the 19.6 Acre Parcel. We
have repeatedly stated that the Nation’s
reservation has never been disestablished and,
more specifically, that the 1838 Treaty of Buffalo
Creek neither disestablished nor diminished it.38
Phillips offers no valid reason for us to abandon or
modify those conclusions. Phillips argues that
Article 13 of the 1838 Treaty of Buffalo Creek
reflects the transfer of the 19.6 Acre Parcel to his
predecessors in interest (the Orchard Party
Oneidas), but this argument is unavailing. By its
plain terms, Article 13 does not effect any transfer
37

See, e.g., App’x 64, 72 (attachment to deed), 103 (trust
declaration), 119 (Answer, ¶ 24).
38

See, e.g., Upstate Citizens for Equality v. Jewell, 841
F.3d 556, 563 (2d Cir. 2016) (“[T]he Oneidas’ original reservation [following the 1794 Treaty of Canandaigua] was never
officially ‘disestablished.’”); Oneida Indian Nation, 665 F.3d at
443 (noting that the Oneida’s reservation was not disestablished
by the 1838 Treaty of Buffalo Creek); Oneida Indian Nation of
N.Y. v. Madison Cnty., Oneida Cnty., N.Y., 605 F.3d 149, 157
n.6 (2d Cir. 2010) (“Our prior holding on this question—that the
Oneidas’ reservation was not disestablished, therefore remains
the controlling law of this circuit.” (internal citation and
quotation marks omitted)); Oneida Indian Nation of N.Y. v. City
of Sherrill, 337 F.3d 139, 161 (2d Cir. 2003) (“Nothing in [the
Treaty of Buffalo Creek] provides ‘substantial and compelling’
evidence of Congress’s intention to diminish or disestablish the
Oneidas’ New York reservation.”).

86780 • CARROLL • APPENDIX B

Al 5/10/21

18a
of land—much less a transfer of the 19.6 Acre
Parcel to the Orchard Party or to Phillips’s
ancestors. Article 13 provides as follows:
SPECIAL PROVISIONS FOR
THE ONEIDAS RESIDING IN
THE STATE OF NEW YORK
ARTICLE 13. The United States will pay the
sum of four thousand dollars, to be paid to
Baptista Powlis, and the chiefs of the first
Christian party residing at Oneida, and the
sum of two thousand dollars shall be paid to
William Day, and the chiefs of the Orchard
party residing there, for expenses incurred
and services rendered in securing the Green
Bay country, and the settlement of a portion
thereof; and they hereby agree to remove to
their new homes in the Indian territory, as
soon as they can make satisfactory arrangements with the Governor of the State of New
York for the purchase of their lands at
Oneida.39
This language clearly does not purport to cede
any reservation land. Article 13 does contemplate
future sales of land by members of the Nation who
left New York. But Article 13 does not further
recognize or bestow on members of the Nation
(whether as individuals or subgroups) any right to
sell land or exercise any other prerogatives of
ownership.40 Furthermore, Article 13 is entirely
39

397 F. Supp. at 231 (quoting the 1838 Treaty of
Buffalo Creek).
40
Indeed, it is unclear whether Article 13 would authorize
individual members of the Nation who left New York to
complete land sales to New York State without the consent of

86780 • CARROLL • APPENDIX B

Al 5/10/21

19a
silent regarding any proprietary rights of members
of the Nation—like Phillips’s predecessors in
interest—who did not leave New York. Therefore
the District Court correctly held “as a matter of
law, that the 1838 Treaty of Buffalo Creek did not
recognize any proprietary interest of the Orchard
Party Oneidas in the Property—as a ‘faction’ of
[the Nation] or otherwise—to arrange for the
purchase of the Property with the Governor of the
State of New York.”41
Nor does the later 1842 Treaty with New York
State support Phillips’s claim to the 19.6 Acre
Parcel; indeed, that treaty tends to undermine
Phillips’s arguments. The 1842 Treaty does not
purport to change the ownership status of the
the Nation and the United States. See Wilson v. Omaha
Indian Tribe, 442 U.S. 653, 665 (1979) (“Whatever title the
Indians have is in the tribe, and not in the individuals,
although held by the tribe for the common use and equal
benefit of all the members.”); see also Solem v. Bartlett, 465
U.S. 463, 470, reh’g denied 466 U.S. 948 (1984) (“[O]nly
Congress can divest a reservation of its land and diminish its
boundaries. Once a block of land is set aside for an Indian
reservation and no matter what happens to the title of
individual plots within the area, the entire plot retains its
reservation status until Congress explicitly indicates otherwise.”) (citing United States v. Celestine, 215 U.S. 278
(1909)).
41
Id. at 232. Moreover, the 1838 Treaty demonstrates that
the United States treated the Oneidas as one nation. See App’x
132 (Article 2 of the treaty lists the following Tribes residing in
New York State: “Senecas, Onondagas, Cayugas, Tuscaroras,
Oneidas, St. Regis, Stockbridges, Munsees, and Brothertowns”);
see also Oneida Indian Nation of N.Y. v. New York, 194 F. Supp.
2d 104, 119 n.8 (N.D.N.Y. 2002) (observing the “United States’
post–1805 treatment of the Oneidas as a unified nation” as
depicted in the 1838 Treaty of Buffalo Creek).

86780 • CARROLL • APPENDIX B

Al 5/10/21

20a
tribal land not ceded to New York State. Since, as
is undisputed, the unceded land—the Nation’s
reservation—includes the entire 19.6 Acre Parcel,
the 1842 Treaty could not have transferred the
19.6 Acre Parcel to Phillips’s ancestors. Moreover,
the 1842 Treaty with New York State expressly
provides that the unceded land, including the 19.6
Acre Parcel, was “to be had, held, enjoyed and
occupied by [members of the Nation] collectively in
the same manner and with the same right, title
and interest therein as appertained to them.”42
This language suggests that until at least 1842,
the 19.6 Acre Parcel was owned collectively, and
not by Phillips’s ancestors as private individuals,
capable of transferring the land to Phillips by a
chain of inheritance or bequest.43 The District
Court therefore also correctly concluded that title
in the 19.6 Acre Parcel was not transferred to
Phillips or his ancestors under the 1842 Treaty
with New York State.44
42

See App’x 23 (1842 Treaty with New York State)
(emphasis added).
43

See Note 40, ante.
Phillips initially maintained in the District Court that
the 19.6 Acre Parcel belonged to an Orchard Party tribe of the
Oneidas separate from the Nation. This position contradicts the
language of the treaties and historical events. The 1838 Treaty,
for example, demonstrates that the United States treated the
Oneidas as one nation. See Note 41, ante. Phillips ultimately
disclaimed the “separate-tribe” theory in the proceedings below
and has now abandoned it on appeal. See Phillips, 397 F. Supp.
3d at 233 (“[Phillips] now agree[s] the Orchard Party is not a
separate faction.”); Appellants’ Br. at 26 (“[This appeal] is not
about Phillips’ tribal membership or identity, or any claim by
Phillips to possess tribal sovereignty or identity separate from
[the Nation].”).
44

86780 • CARROLL • APPENDIX B

Al 5/10/21

21a
2.

The District Court’s Rejection of
Phillips’s Affirmative Defenses

Phillips contends that even if the 1838 Buffalo
Creek Treaty and the 1842 Treaty with New York
State did not transfer title in the 19.6 Acre Parcel
to his ancestors, he is still entitled to relief pursuant to City of Sherrill v. Oneida Indian Nation.45
In Sherrill, the Supreme Court applied a federal
common law equitable defense to a claim of tribal
ownership for lands that the Nation had reacquired
200 years after an allegedly unauthorized sale to
New York State, and over which long chains of
private landowners had held putative title.46
Phillips’s invocation of Sherrill is unavailing
because he cannot satisfy “the Sherrill equitable
defense” factors.47 First, the undisputed facts
demonstrate that there is no “longstanding,
distinctly non-Indian character of the [disputed
land] and its inhabitants,”48 given that the 19.6
Acre Parcel has been occupied or used by members
of the Nation, including Phillips, for over 200
years. Second, there has been no “regulatory
authority constantly exercised by New York State
45

544 U.S. 197 (2005).
Id.; see also Stockbridge-Munsee Cmty. v. New York, 756
F.3d 163, 165-66 (2d Cir. 2014) (recognizing “the Sherrill
equitable defense” and enumerating relevant factors, including
whether the relief sought by the tribe would be “disruptive,”
whether there had been a “long lapse of time, during which the
[tribe] did not seek to revive [its] sovereign control through
equitable relief in court,” and whether there would be “dramatic
changes in the character of the properties”).
47
Stockbridge-Munsee, 756 F.3d at 166 (referring to “the
Sherrill equitable defense”).
48
Sherrill, 544 U.S. at 202.
46

86780 • CARROLL • APPENDIX B

Al 5/10/21

22a
and its counties and towns” over the 19.6 Acre
Parcel,49 as it has not been subject to State or local
taxation. Third, there has been no “long delay in
seeking judicial relief against” Phillips or his
ancestors.50 Indeed, none publicly claimed title
until 2015, when Phillips filed his quitclaim deed,
and the Nation filed this suit just two years later.
Phillips raises several other equitable defenses
that he claims would defeat the Nation’s title to
the 19.6 Acre Parcel, none of which succeed. He
argues that the Nation’s claims are barred by
release51 and by accord and satisfaction.52 But even
assuming equitable defenses beyond those described
in Sherrill were available here, neither Phillips’s
counterclaim nor his answer to the Nation’s
complaint plausibly alleges that either release or
accord and satisfaction exist.
Phillips also claims as a defense that the Nation
abandoned any rights it may have the 19.6 Acre
Parcel. It seems Phillips’s theory is that the 1838
Buffalo Creek Treaty constituted the abandonment
or discharge of the Nation’s claim to the 19.6 Acre
49

Id.
Id.
51
“A release is a provision that intends to present
abandonment of a known right or claim.” McMahan & Co. v.
Bass, 250 A.D.2d 460, 461 (1st Dep’t 1998).
52
“Under New York law, an accord and satisfaction is the
resolution of a disputed, unliquidated claim through a new
contract ‘discharging all or part of [the parties’] obligations
under the original contract,’ and constitutes a complete defense
to a claim for breach of contract.” Carnrite v. Granada Hosp.
Grp., Inc., 175 F.R.D. 439, 449 (W.D.N.Y. 1997) (quoting
Conboy, McKay, Bachman & Kendall v. Armstrong, 110 A.D.2d
1042, 1042 (4th Dep’t 1985)).
50

86780 • CARROLL • APPENDIX B

Al 5/10/21

23a
Parcel,53 but that interpretation of the 1838 Treaty
is incorrect, as explained above. Further, Phillips’s
abandonment defense is inconsistent with his own
allegations, for Phillips alleges that the members
of the Orchard Party have continuously occupied
the land and, as Phillips now apparently concedes,
the Orchard Party is part of the Nation. Finally,
Phillips’s position also runs counter to the law of
this Circuit, according to which treaty-based or
“recognized” Indian title are not lost simply
because a tribe ceases to occupy a particular tract
of land.54 For the same reasons, Phillips’s defense
of acquiescence or estoppel fails.
Phillips contends that the Nation failed to join
“necessary individuals” by not adding the federal,
state, and county governments to the suit, who he
maintains are all “indispensable parties[.]”55
53

See Appellants’ Br. at 39-40.
See, e.g., Cayuga Indian Nation of N.Y. v. Pataki, 413
F.3d 266, 270 (2d Cir. 2005) (noting with approval the district
court’s conclusion that the “1794 Treaty of Canandaigua
conferred recognized title to the Cayugas concerning the land at
issue” and that “proof of the plaintiffs’ physical abandonment of
the property at issue is irrelevant in a claim for land based upon
reserved title to Indian land, for such title can only be
extinguished by an act of Congress.”(quoting Cayuga Indian
Nation of New York v. Cuomo, 758 F. Supp. 107, 118 (N.D.N.Y.
1991)).
55
Under Rule 19(a), a party is required to be joined if:
(A) in that person’s absence, the court cannot accord complete
relief among existing parties; or (B) that person claims an
interest relating to the subject of the action and is so situated
that disposing of the action in the person’s absence may: (i) as
a practical matter impair or impede the person’s ability to
protect the interest; or (ii) leave an existing party subject to a
substantial risk of incurring double, multiple, or otherwise
inconsistent obligations because of the interest
Fed. R. Civ. P. 19(a)(1).
54

86780 • CARROLL • APPENDIX B

Al 5/10/21

24a
Phillips, however, does not offer any plausible
reason for why any one of these governmental
parties is required to be joined, or plausibly
suggest an arguable interest in their participation
as parties in this litigation.
In sum: the District Court correctly concluded
that Phillips does not raise any viable affirmative
defenses that would preclude judgment on the
pleadings in favor of the Nation. And because the
question of title is resolved by the interpretation of
the relevant treaties, as discussed above, we
likewise reject Phillips’s meritless assertions that
the Nation’s complaint fails to state a claim upon
which relief can be granted and that there are
material facts in dispute that would preclude
judgment for the Nation as a matter of law.
B. Dismissal of Phillips’s Counterclaim
The District Court granted the Nation’s motion
to dismiss Phillips’s counterclaim on several alternative grounds, noting the “settled” precedent in
this Circuit concerning tribal sovereign immunity.56
On appeal Phillips argues that the District
Court erred in concluding that the Nation had
sovereign immunity from suit. It is well settled
that “courts must dismiss[] any suit against a tribe
absent congressional authorization (or waiver) . . .
and the Supreme Court (like this Court) has
thought it improper suddenly to start carving out
exceptions to that immunity, opting instead to
defer to the plenary power of Congress to define
and otherwise abrogate tribal sovereign immunity
56

See Note 36, ante.

86780 • CARROLL • APPENDIX B

Al 5/10/21

25a
from suit.”57 In arguing that the District Court
erred, Phillips relies on Upper Skagit Indian Tribe
v. Lundgren, in which the Supreme Court
described an immovable property exception to
sovereign immunity.58 But Upper Skagit does not
suggest, much less compel, a different result here.
As we recently explained, in that case the Supreme
Court expressly declined to decide whether the
immovable property exception applied to tribal
sovereign immunity, instead leaving that question
for the Washington State Supreme Court to
consider “in the first instance.”59 Moreover, even if
the exception applied to tribal sovereign immunity
generally, it would not apply here, where it is
undisputed that the Nation did not purchase the
19.6 Acre Parcel in “the character of a private
individual” buying lands in another sovereign’s
territory.60 Therefore, to the extent that the
District Court rested its decision to dismiss
57

Cayuga Indian Nation of N.Y. v. Seneca Cnty., N.Y.,
761 F.3d 218, 220 (2d Cir. 2014) (citation and quotation
marks omitted) (quoting Michigan v. Bay Mills Indian
Cmty., 572 U.S. 782, 788 (2014)).
58
See 138 S. Ct. 1649, 1653-54 (2018) (involving a dispute
over land that an Indian tribe had purchased on the open
market, which had previously been (but was no longer) part of
that tribe’s reservation).
59
Cayuga Indian Nation of New York v. Seneca Cnty.,
N.Y., F.3d , 2020 WL 6253332, at *4 (2d Cir. 2020); see also
Upper Skagit, 138 S. Ct. at 1654 (“Although we have discretion
to affirm on any ground supported by the law and the record
that will not expand the relief granted below, . . . in this case we
think restraint is the best use of discretion. Determining the
limits on the sovereign immunity held by Indian tribes is a
grave question ” (internal citation omitted)).
60
Upper Skagit, 138 S. Ct. at 1654.

86780 • CARROLL • APPENDIX B

Al 5/10/21

26a
Phillips’s counterclaim on the basis of tribal
sovereign immunity, we cannot conclude the District
Court erred by not applying the immovable
property exception.61
On appeal Phillips does not challenge the
grounds upon which the District Court granted the
Nation’s motion to dismiss Phillips’s counterclaim
pursuant to Rule 12(b)(6) for failure to plausibly
state a claim for which relief can be granted. But,
we note as a matter of logic that Phillips cannot
prevail on his counterclaim, which purports to
seek relief mirroring the relief sought by the
Nation, where we conclude that the Nation was
correctly entitled to judgment on the pleadings.62
61

Insofar as the parties make further arguments on
appeal regarding tribal sovereign immunity, we do not
further address, nor express any view about, them.
62
See Part II.A, ante. We further note that Phillips’s
counterclaim, to which the Nation raised, inter alia, tribal
sovereign immunity as a basis for dismissal, falls within
supplemental jurisdiction. A federal court has authority to
exercise supplemental jurisdiction under 28 U.S.C. § 1367 over
claims not within federal jurisdiction only if there is a related
claim that properly invokes the court’s subject matter
jurisdiction. City of Chicago v. Int’l Coll. of Surgeons, 522 U.S.
156, 164–65 (1997); Da Silva v. Kinsho Int’l Corp., 229 F.3d 358,
362 (2d Cir. 2000); see also Cushing v. Moore, 970 F.2d 1103,
1106 (2d Cir. 1992) (explaining that “[s]upplemental jurisdiction
could be exercised only if some other, related claim provides a
proper basis for federal jurisdiction”). Here, it is undisputed
that the Nation’s claim against Phillips, which asserts a tribal
right to possession of the 19.6 Acre Parcel and which is wholly
independent of state law, arises under federal law. See Oneida
I, 414 U.S. at 666. Phillips’s counterclaim, which seeks relief
mirroring that sought by the Nation, thus arises out of a
common nucleus of operative fact, falling squarely within our
supplemental jurisdiction. Int’l Coll. of Surgeons, 522 U.S. at
164–65.

86780 • CARROLL • APPENDIX B

Al 5/10/21

27a
As a final matter: our concurring colleague
argues that we improperly affirm the District
Court’s dismissal of Phillips’s counterclaim. In so
doing, our concurring colleague appears to equate
tribal sovereign immunity and subject matter
jurisdiction.
As we have emphasized here, tribes possess the
common-law immunity traditionally enjoyed by
sovereign powers.63 The Supreme Court has held
that sovereign immunity is jurisdictional in nature.64
We think that tribal sovereign immunity, however,
is not synonymous with subject matter jurisdiction
for several reasons. Tribal sovereign immunity may
be waived in certain circumstances and is subject
to the plenary power of Congress.65 Lack of subject
matter jurisdiction, on the other hand, may not be
waived or forfeited.66 Second, tribal sovereign
immunity operates essentially as a party’s possible
defense to a cause of action.67 In contrast, subject
63

See Note 57, ante; see also Bay Mills Indian Cmty.,
572 U.S. at 788; Turner v. United States, 248 U.S. 354, 357–
58 (1919).
64
Fed. Deposit Ins. Corp. v. Meyer, 510 U.S. 471, 475
(1994).
65
See Bay Mills Indian Cmty., 572 U.S. at 788–89; see also
Santa Clara Pueblo v. Martinez, 436 U.S. 49, 58–59 (1978).
66
See Gonzalez v. Thaler, 565 U.S. 134, 141 (2012); New
York v. Shinnecock Indian Nation, 686 F.3d 133, 138 (2d Cir.
2012) (“Jurisdiction cannot be created by the consent of the
parties.”).
67
See Okla. Tax Comm’n v. Graham, 489 U.S. 838, 841
(1989) (noting that although “[t]ribal immunity may provide a
federal defense to [the plaintiff’s] claims[,] . . . it has long been
settled that the existence of a federal immunity to the claims
asserted does not convert a suit otherwise arising under state law
into one which, in the statutory sense, arises under federal law”).

86780 • CARROLL • APPENDIX B

Al 5/10/21

28a
matter jurisdiction is “fundamentally preliminary”
and an “absolute stricture[]” on the court.68
Finally, a waiver of sovereign immunity cannot, on
its own, extend a court’s subject matter
jurisdiction.69 We observe that there appears to be
a divergence of opinion as to the precise nature of
tribal sovereign immunity, but that there is no
need to address, much less resolve, it here.70
68

Leroy v. Great W. United Corp., 443 U.S. 173, 180
(1979); see also, e.g., Wachovia Bank v. Schmidt, 546 U.S.
303, 316 (2006).
69
See, e.g., Treasurer of N.J. v. U.S. Dep’t of Treasury, 684
F.3d 382, 401–02 (3d Cir. 2012) (“To confer subject matter
jurisdiction in an action against a sovereign, in addition to a
waiver of sovereign immunity, there must be statutory
authority vesting a district court with subject matter
jurisdiction.” (quoting Alvarado v. Table Mountain Rancheria,
509 F.3d 1008, 1016 (9th Cir. 2007)); Arford v. United States,
934 F.2d 229, 231 (9th Cir. 1991) (explaining that in order to
maintain an action against the United States, there must be
both “statutory authority granting subject matter jurisdiction”
and “a waiver of sovereign immunity”); Weeks Constr., Inc. v.
Oglala Sioux Hous. Auth., 797 F.2d 668, 671 (8th Cir. 1986).
70
Compare Patsy v. Bd. of Regents of State of Fla., 457
U.S. 496, 515 n. 19 (1982) (explaining sovereign immunity is not
“jurisdictional in the sense that it must be raised and decided by
this Court on its own motion”); Pistor v. Garcia, 791 F.3d 1104,
1110–11 (9th Cir. 2015) (stating “[t]he issue of tribal sovereign
immunity is [quasi-]jurisdictional,” and explaining “[s]overeign
immunity’s ‘quasi-jurisdictional . . . nature,’ by contrast, means
that ‘[i]t may be forfeited where the [sovereign] fails to assert it
and therefore may be viewed as an affirmative defense’”
(internal citations omitted)); Oglala Sioux Tribe v. C & W
Enterprises, Inc., 487 F.3d 1129, 1131 n.4 (8th Cir. 2007)
(explaining that, “insofar as Hagen adverts to the topic of
subject matter jurisdiction at all, it observes that we had
previously stated that sovereign immunity is jurisdictional in
nature but is not of the same character as subject matter
jurisdiction” (citing Hagen v. Sisseton-Wahpeton Cmty. Coll.,

86780 • CARROLL • APPENDIX B

Al 5/10/21

29a
We thus affirm the District Court’s order dated
November 15, 2018 granting the Nation’s motion
to dismiss Phillips’s counterclaim.
III. CONCLUSION
To summarize, we hold as follows:
(1) The District Court correctly granted the
Nation’s motion for judgment on the pleadings because title was not properly transferred
to Phillips, and Phillips’s defenses do not
raise any disputes of material fact that
would preclude the requested declaratory
and injunctive relief sought by the Nation;

205 F.3d 1043 (8th Cir. 2000) and In re Prairie Island Dakota
Sioux, 21 F.3d 302 (8th Cir. 1994)); Ninigret Dev. Corp. v.
Narragansett Indian Wetuomuck Hous. Auth., 207 F.3d 21,
28 (1st Cir. 2000) (“[A]lthough tribal sovereign immunity is
jurisdictional in nature, consideration of that issue always
must await resolution of the antecedent issue of federal
subject-matter jurisdiction.”), with Edelman v. Jordan, 415
U.S. 651, 677–78 (1974) (noting that “the Eleventh
Amendment defense sufficiently partakes of the nature of a
jurisdictional bar so that it need not be raised in the trial
court”); Amerind Risk Mgmt. Corp. v. Malaterre, 633 F.3d
680, 685 (8th Cir. 2011) (“We have held that tribal sovereign
immunity is a threshold jurisdictional question.” (citing
Hagen, 205 F.3d at 1044)); Alabama v. PCI Gaming Auth.,
801 F.3d 1278, 1287 (11th Cir. 2015) (“We have an obligation
to make sure we have jurisdiction to hear this action, which
requires us to first consider whether the defendants enjoy
tribal sovereign immunity from Alabama’s claims.” (citing
Taylor v. Ala. Intertribal Council Title IV J.T.P.A., 261 F.3d
1032, 1034 (11th Cir. 2001)).

86780 • CARROLL • APPENDIX B

Al 5/10/21

30a
(2) The District Court correctly granted the
Nation’s motion to dismiss Phillips’s counterclaim.
For the foregoing reasons, we AFFIRM the
November 15, 2018 decision and order and the
July 31, 2019 final judgment of the District Court.

86780 • CARROLL • APPENDIX B

Al 5/10/21

31a
CONCURRENCE OF JUDGE MENASHI
MENASHI , Circuit Judge, concurring in part and
concurring in the judgment:
I concur in Part II.A.1. of the court’s opinion, in
which the court holds that neither the Treaty of
Buffalo Creek nor the 1842 Treaty with New York
State transferred title to the 19.6 Acre Parcel from
the Oneida Indian Nation to the Orchard Party or
to Melvin Phillips’s ancestors. I write separately
because the court makes three errors in the
remainder of its opinion.
First, the court concludes that the district court
did not err in dismissing Phillips’s counterclaim on
the ground of tribal sovereign immunity. Ante at
22-24. I agree that no “immovable property
exception” to tribal sovereign immunity applies in
this case. Id. at 23. The district court nevertheless
erred, however, because the Nation waived its
tribal sovereign immunity for Phillips’s counterclaim seeking the same relief as the Nation sought
in its suit.
Second, the court includes extensive dicta questioning our precedents that hold tribal sovereign
immunity to be a limit on our subject-matter
jurisdiction. Id. at 24-26. The court speculates that
tribal sovereign immunity should perhaps be
reconceptualized as belonging to some category of
jurisdiction that limits a court’s power to act but is
“not synonymous with subject matter jurisdiction.”
Id. at 25. I believe these dicta are misguided.
Third, the court correctly concludes that Phillips
cannot establish a Sherrill equitable defense but
then “assum[es],” while leaving the question open,

86780 • CARROLL • APPENDIX B

Al 5/10/21

32a
that “equitable defenses beyond those described in
Sherrill [a]re available.” Id. at 20. I would
conclude that such defenses are not available.
Despite these disagreements, I concur in the
court’s judgment because Phillips’s counterclaim
fails on the merits, because the court’s dicta about
sovereign immunity are unrelated to its judgment,
and because Phillips does not establish a Sherrill
equitable defense.
I
The court’s opinion concludes that the district
court did not err in dismissing Phillips’s counterclaim as barred by tribal sovereign immunity. Id.
at 22-23. Although I agree with the court that the
district court did not err in declining to apply an
immovable property exception to tribal sovereign
immunity in this case, I would hold that the Nation
waived its sovereign immunity for Phillips’s
limited counterclaim, which seeks the same relief
in his favor that the Nation seeks for the 19.6 Acre
Parcel.
The Supreme Court held in Oklahoma Tax
Commission v. Citizen Band Potawatomi Indian
Tribe of Oklahoma, 498 U.S. 505 (1991), that a
tribe does not waive its sovereign immunity from
counterclaims simply by bringing suit. Thus, the
mere fact that a tribe has brought suit does not
waive its immunity for all counterclaims.
Many courts have
tribe does waive its
that arise out of the
defeat or reduce the

86780 • CARROLL • APPENDIX B

recognized, however, that a
immunity for counterclaims
same transaction and would
tribe’s requested relief. This

Al 5/10/21

33a
“recoupment” principle is well established in the
context of both tribal sovereign immunity and
federal sovereign immunity. The Tenth Circuit has
explained the scope of the rule, which applies to
the United States and “equally applies to Indian
tribes”:
[W]hen the sovereign sues it waives
immunity as to claims of the defendant
which assert matters in recoupment—
arising out of the same transaction or
occurrence which is the subject matter of
the government’s suit, and to the extent of
defeating the government’s claim but not
to the extent of a judgment against the
government which is affirmative in the
sense of involving relief different in kind
or nature to that sought by the government or in the sense of exceeding the
amount of the government’s claims; but
the sovereign does not waive immunity as
to claims which do not meet the “same
transaction or occurrence test” nor to
claims of a different form or nature than
that sought by it as plaintiff nor to claims
exceeding in amount that sought by it as
plaintiff.
Jicarilla Apache Tribe v. Andrus, 687 F.2d 1324,
1344 (10th Cir. 1982) (quoting Frederick v. United
States, 386 F.2d 481, 488 (5th Cir. 1967)).
Phillips’s request for title in this case is the same
type of relief and in the same degree as what the
Nation sought for the same parcel of land, and
therefore the counterclaim sounds in recoupment.
The Tenth Circuit later confirmed that the
recoupment doctrine survived Oklahoma Tax

86780 • CARROLL • APPENDIX B

Al 5/10/21

34a
because the counterclaims there “were not
recoupment claims,” and thus Oklahoma Tax “says
nothing about the applicability of the recoupment
doctrine as a waiver of tribal sovereign immunity
when the defendant’s counterclaims do sound in
recoupment.” Berrey v. Asarco Inc., 439 F.3d 636,
644 n.5 (10th Cir. 2006); see also id. at 646
(explaining that “[b]ecause Defendants’ counterclaims arise from the same transaction or occurrence
as the Tribe’s claims and seek relief of the same
kind or nature, but not in excess of the amount
sought by the Tribe, they are claims in recoupment,” and therefore the tribe had waived
immunity as to those claims).
After Oklahoma Tax, other circuits have
recognized similar waivers of tribal sovereign
immunity to adjudicate claims that arise out of the
same transaction and seek relief that is a mirror
image of, or would defeat or undercut, the tribe’s
requested relief. For example, in a case that cites
Oklahoma Tax, the Eighth Circuit held that tribal
sovereign immunity did not bar the defendants’
counterclaims regarding the same disputed piece
of land because “[w]hen the Tribe filed this suit, it
consented to and assumed the risk of the court
determining that the Tribe did not have title to the
disputed tracts[,]” and “[b]y requesting equitable
relief, the Tribe consented to the district court
exercising its equitable discretion to resolve the
status of the disputed lands.” Rupp v. Omaha
Indian Tribe, 45 F.3d 1241, 1245 (8th Cir. 1995);
see also Rosebud Sioux Tribe v. Val-U Const. Co. of
S.D., 50 F.3d 560, 562 (8th Cir. 1995) (“When a
tribe brings a lawsuit, it does not waive immunity
for counterclaims, except for matters asserted in

86780 • CARROLL • APPENDIX B

Al 5/10/21

35a
recoupment.”) (emphasis added) (internal citation
omitted) (citing Oklahoma Tax, 498 U.S. at 509).
In Quinault Indian Nation v. Pearson for Estate
of Comenout, the Ninth Circuit held that
“counterclaims to recoup damages arising from the
same transaction or occurrence as a tribe’s claims
do not violate the tribe’s sovereign immunity,” 868
F.3d 1093, 1099 (9th Cir. 2017), even though—
based on the authority of Oklahoma Tax—it also
recognized that tribal sovereign immunity
generally extends to counterclaims and “even
extends to compulsory counterclaims in excess of
the original claims—despite the fact that
compulsory counterclaims by definition arise out of
the same transaction or occurrence,” id. at 1097
(emphasis added).
Although this court has not addressed this issue
in the specific context of tribal sovereign
immunity, our precedent dictates that the same
rule applies here. This court has held that when
the United States sues, it necessarily “waives
immunity as to claims of the defendant which
assert matters in recoupment”—meaning the
defendant
may
counterclaim
against
the
sovereign, but the counterclaim must arise out of
the same underlying dispute as the sovereign’s
claim, must be limited to the same type of relief
sought by the sovereign, and cannot exceed the
potential recovery by the sovereign. United States
v. Forma, 42 F.3d 759, 765 (2d Cir. 1994) (quoting
Frederick, 386 F.2d at 488). The recognition of this
rule for the sovereign immunity of the United
States is significant because “[t]ribal sovereign
immunity is deemed to be coextensive with the
sovereign immunity of the United States.” Miner

86780 • CARROLL • APPENDIX B

Al 5/10/21

36a
Elec., Inc. v. Muscogee (Creek) Nation, 505 F.3d
1007, 1011 (10th Cir. 2007); Chayoon v. Chao, 355
F.3d 141, 143 (2d Cir. 2004) (“Indian tribes enjoy
the same immunity from suit enjoyed by sovereign
powers and are ‘subject to suit only where
Congress has authorized the suit or the tribe has
waived its immunity.’”).1 Our precedent therefore
provides that the recoupment rule applies in the
context of tribal sovereign immunity.2

1

See also United States v. U.S. Fid. & Guar. Co., 309
U.S. 506, 514 (1940) (“[T]he suability of the United States
and the Indian Nations, whether directly or by cross-action,
depends upon affirmative statutory authority. Consent alone
gives jurisdiction to adjudge against a sovereign.”); Spurr v.
Pope, 936 F.3d 478, 484 (6th Cir. 2019) (“[T]ribal sovereign
immunity is deemed to be coextensive with the sovereign
immunity of the United States.”) (quoting Miner, 505 F.3d at
1011); Quinault, 868 F.3d at 1100 (“[A] tribe’s sovereign
immunity is generally coextensive with that of the United
States.”); Evans v. McKay, 869 F.2d 1341, 1345 (9th Cir.
1989) (“The common law immunity afforded Indian tribes is
coextensive with that of the United States and is similarly
subject to the plenary control of Congress.”); Wichita &
Affiliated Tribes of Okla. v. Hodel, 788 F.2d 765, 773 (D.C.
Cir. 1986) (“An Indian tribe’s immunity is co-extensive with
the United States’ immunity.”); Namekagon Dev. Co. v. Bois
Forte Rsrv. Hous. Auth., 517 F.2d 508, 510 (8th Cir. 1975)
(“Indian tribes have always been considered to have an
immunity from suit similar to that enjoyed by the federal
government.”).
2

Moreover, at least one district court in our circuit has
applied the recoupment rule to a tribe. Cayuga Indian Nation of
N.Y. v. Seneca Cnty., 260 F. Supp. 3d 290, 299 (W.D.N.Y. 2017)
(“[W]here an Indian tribe seeks a declaration that a particular
fact is true, e.g., that its reservation still exists, it necessarily
waives its sovereign immunity as to a counterclaim seeking the
exact opposite declaration.”).

86780 • CARROLL • APPENDIX B

Al 5/10/21

37a
Absent the recoupment rule, tribes could never
truly lose a case because courts would lack jurisdiction to enter a decision in favor of the defendant
on a counterclaim arising from the same transaction
underlying the tribe’s claim. The court could say at
most that the tribe did not prevail on its own
claim, but the court could not say the defendant
prevailed on its counterclaim for the same relief.
See Rupp, 45 F.3d at 1245 (“We will not transmogrify the doctrine of tribal immunity into one
which dictates that the tribe never loses a lawsuit.
When the Tribe filed this suit, it consented to and
assumed the risk of the court determining that the
Tribe did not have title to the disputed tracts.”)
(internal citation omitted).
Applying the recoupment rule here, the Nation’s
action in bringing this suit effected a limited
waiver of its sovereign immunity for Phillips’s
counterclaim, which—as the court acknowledges—
“seek[s] relief mirroring the relief sought by the
Nation” for the same piece of land. Ante at 24.3
3

Comparing the Nation’s requests for relief with
Phillips’s requests demonstrates that both parties sought the
same relief for the same parcel:
(a) The Nation: “Declar[e] that neither the trust nor
Phillips, as an individual or otherwise, owns or has any
property interest in the 19.6 acres.” App’x 19. Phillips:
“Declar[e] that [the Nation] does not own nor has any
property interest in the 19.6 acres.” App’x 128.
(b) The Nation: “Declar[e] that the trust document, the
quitclaim deed and all related documents filed by Phillips in
the Oneida County land records are invalid and void so far as
they concern the 19.6 acres.” App’x 19. Phillips: “Declar[e]
that the trust document, the quitclaim deed and all related
documents filed by Melvin L. Phillips, Sr. on behalf of the
Orchard Party Oneida in the Oneida County land records are
valid so far as they concern the 19.6 acres.” App’x 128.

86780 • CARROLL • APPENDIX B

Al 5/10/21

38a
Because the court has jurisdiction over Phillips’s
counterclaim pursuant to the recoupment rule, the
district court should not have dismissed it for lack
of jurisdiction. I nevertheless would affirm the
dismissal because, as the court correctly explains
in Part II.A.1. of its opinion, the Nation is entitled
to judgment on its claim regarding ownership of
the 19.6 Acre Parcel and therefore Phillips cannot
state a claim for relief.
II
After deciding that tribal sovereign immunity
bars jurisdiction over Phillips’s counterclaim—and
affirming the district court’s dismissal of that
claim under Rule 12(b)(1)—the court engages in an
extended disquisition on “the precise nature of
tribal sovereign immunity.” Ante at 26. The court
(c) The Nation: “Enjoin[] Phillips and the trust (i) not to
claim the 19.6 acres for themselves, any beneficiary of the
trust or any other person or entity, (ii) not to assert that
Phillips, the trust, or any trust beneficiary owns or has a
property interest in the 19.6 acres, and (iii) not to create or
cause to be created, or filed or cause to be filed, in land
records any document asserting that Phillips, the trust, any
trust beneficiary or any other person or entity owns or has a
property interest in the 19.6 acres.” App’x 19. Phillips:
“Enjoin[] [the Nation] (i) not to claim the 19.6 acres for itself,
(ii) not to assert that [the Nation] owns or has a property
interest in the 19.6 acres, and (iii) not to create or cause to be
created, or file or cause to be filed, in land records any
document asserting that [the Nation] owns or has a property
interest in the 19.6 acres.” App’x 128-29.
(d) The Nation: “Grant[] such other relief as the Nation
may be entitled to at law or in equity.” App’x 19. Phillips:
“Grant[] such other relief as the Orchard Party Trust may be
entitled to at law or in equity.” App’x 129.

86780 • CARROLL • APPENDIX B

Al 5/10/21

39a
ruminates inconclusively about the extent to
which tribal sovereign immunity should be
considered jurisdictional, suggesting that it falls
into a jurisdictional category that is “not synonymous with subject matter jurisdiction.” Id. at 25.
The court acknowledges that “there is no need to
address” this issue, and the court admittedly does
not “resolve” it, so the discussion is plainly dicta.
Id. at 26; see also United States v. U.S. Gypsum
Co., 333 U.S. 364, 411 (1948) (Frankfurter, J.,
concurring) (“[T]he Court confessedly deals with
an issue that ‘need not be decided to dispose of this
case.’ Deliberate dicta, I had supposed, should be
deliberately avoided.”).
Nevertheless, the discussion conflicts with our
precedent and is erroneous, as far as it goes. As we
have said on numerous occasions, tribal sovereign
immunity deprives a court of subject-matter jurisdiction over a lawsuit, and we routinely affirm
decisions of district courts to dismiss for lack of
subject-matter jurisdiction on the ground of tribal
sovereign immunity. See Chayoon, 355 F.3d at
142-43 (“We affirm the district court’s dismissal
for lack of subject matter jurisdiction because [the
defendant tribal officials] are immune from this
suit … Indian tribes enjoy the same immunity
from suit enjoyed by sovereign powers ... and
neither abrogation nor waiver has occurred in this
case.”); Garcia v. Akwesasne Hous. Auth., 268 F.3d
76, 84-85, 88 (2d Cir. 2001) (affirming the district
court’s dismissal of claims against a tribal agency
“for lack of subject matter jurisdiction” because
“an Indian tribe enjoys sovereign immunity from
suit” absent congressional abrogation or waiver);
Laake v. Turning Stone Resort Casino, 740 F.

86780 • CARROLL • APPENDIX B

Al 5/10/21

40a
App’x 744, 745 (2d Cir. 2018) (holding that “the
district court properly concluded that it lacked
subject matter jurisdiction over the complaint
against Turning Stone [because] Indian tribes
have sovereign immunity from suit” absent
congressional abrogation or waiver); Tassone v.
Foxwoods Resort Casino, 519 F. App’x 27, 28 (2d
Cir. 2013) (“Tribal immunity also applies to
entities, such as [defendant] Foxwoods Resort
Casino, that are arms, agencies or subdivisions of
the tribe. ... [T]he district court properly held that
it lacked subject matter jurisdiction due to
Defendants’ sovereign immunity.”); see also Poodry
v. Tonawanda Band of Seneca Indians, 85 F.3d
874, 885 (2d Cir. 1996) (Cabranes, J.) (noting that
“[t]he exercise of subject matter jurisdiction”
depends in part on “whether [a federal statute] constitutes a waiver of tribal sovereign immunity”).
We have even affirmed a district court’s
dismissal for lack of subject-matter jurisdiction on
the ground of tribal sovereign immunity while
taking care to note that an alternative ground on
which the district court relied—abstention under
the tribal exhaustion rule—was not a matter of
subject-matter jurisdiction. See Garcia, 268 F.3d
at 80 (“[T]he district court erred by treating
abstention on this ground as a matter of subject
matter jurisdiction.”); id. at 84-85, 88 (proceeding
to affirm the district court’s dismissal “for lack of
subject matter jurisdiction” on tribal sovereign
immunity grounds).
In support of its view, the court relies on one
Supreme Court case from a period, 40 years ago, in
which the Supreme Court doubted that state
sovereign immunity was a jurisdictional issue. See

86780 • CARROLL • APPENDIX B

Al 5/10/21

41a
Patsy v. Bd. of Regents of State of Fla., 457 U.S.
496, 515 n. 19 (1982) (“[W]e have never held that
[state sovereign immunity] is jurisdictional in the
sense that it must be raised and decided by this
Court on its own motion.”); id. at 519 (Powell, J.,
dissenting) (“The Court holds that the limitations
on federal judicial power embodied in the Eleventh
Amendment and in the doctrine of sovereign
immunity are not jurisdictional.”). The Court has
since rejected those doubts in favor of the view
that state sovereign immunity is jurisdictional. See
Alden v. Maine, 527 U.S. 706, 730 (1999) (“[T]he
constitutional principle of sovereign immunity
does pose a bar to federal jurisdiction over suits
against nonconsenting States.”); see also Allen v.
Cooper, 140 S. Ct. 994, 1002 (2020) (noting “the
limits sovereign immunity places upon federal jurisdiction”) (internal quotation marks and alteration
omitted); Franchise Tax Bd. of Cal. v. Hyatt, 139 S.
Ct. 1485, 1496 (2019) (noting that, “[c]onsistent
with [its] understanding of state sovereign
immunity, [the Supreme] Court has held that the
Constitution bars suits against nonconsenting
States in a wide range of cases”); Virginia Office
for Prot. & Advocacy v. Stewart, 563 U.S. 247, 25354 (2011) (noting that “we have understood the
Eleventh Amendment to confirm the structural
understanding that States entered the Union with
their sovereign immunity intact, unlimited by
Article III’s jurisdictional grant,” and therefore
“absent waiver or valid abrogation, federal courts
may not entertain a private person’s suit against a
State”); Fed. Mar. Comm’n v. S.C. State Ports
Auth., 535 U.S. 743, 766, 769 (2002) (noting that
“[s]overeign immunity does not merely constitute a
defense to monetary liability or even to all types of

86780 • CARROLL • APPENDIX B

Al 5/10/21

42a
liability” but “provides an immunity from suit” the
intrusion on which is “contrary to the[] constitutional design”); Seminole Tribe of Fla. v. Florida,
517 U.S. 44, 64 (1996) (noting that it had been
“well established” by 1989 “that the Eleventh
Amendment stood for the constitutional principle
that state sovereign immunity limited the federal
courts’ jurisdiction under Article III” and that the
Court’s decisions were “clear that the Eleventh
Amendment reflects ‘the fundamental principle of
sovereign immunity that limits the grant of
judicial authority in Art. III’”) (alteration omitted)
(quoting Pennhurst State Sch. and Hosp. v.
Halderman, 465 U.S. 89, 97-98 (1984)).
The “sovereign immunity” of “the Federal Government” also “is jurisdictional in nature.” FDIC v.
Meyer, 510 U.S. 471, 475 (1994); see also United
States v. White Mountain Apache Tribe, 537 U.S.
465, 472 (2003) (“Jurisdiction over any suit against
the Government requires a clear statement from
the United States waiving sovereign immunity.”).
Our court has repeatedly recognized that state
sovereign immunity limits our subject-matter
jurisdiction. See McGinty v. New York, 251 F.3d
84, 90 (2d Cir. 2001) (“Whether a federal court has
subject matter jurisdiction is a question that may
be raised at any time by the court sua sponte.
Thus, the district court properly considered
whether ... defendants had sovereign immunity
that deprived it of subject matter jurisdiction.”)
(internal quotation marks, alteration, and citation
omitted); Close v. New York, 125 F.3d 31, 38-39 (2d
Cir. 1997) (“[U]nless New York waived its
immunity, the district court lacked subject matter
jurisdiction because [of] ... New York’s sovereign

86780 • CARROLL • APPENDIX B

Al 5/10/21

43a
immunity.”); Atl. Healthcare Benefits Tr. v.
Googins, 2 F.3d 1, 4 (2d Cir. 1993) (“Although the
parties do not address the Eleventh Amendment in
their briefs, we raise it sua sponte because it
affects our subject matter jurisdiction.”); All. of
Am. Insurers v. Cuomo, 854 F.2d 591, 605 (2d Cir.
1988) (“[T]he Eleventh Amendment precludes the
District Court from asserting subject matter
jurisdiction over plaintiffs’ state law claim.”); see
also Bleichert v. N.Y. State Educ. Dep’t, 793 F.
App’x 32, 34 (2d Cir. 2019) (“[T[he Eleventh
Amendment precludes an individual from bringing
a claim against a state or state agency under the
ADEA, and federal courts do not have subject
matter jurisdiction over such claims.”); Madden v.
Vt. Sup. Ct., 236 F. App’x 717, 718 (2d Cir. 2007)
(“The Eleventh Amendment precludes Madden
from bringing suit against the state or state
agencies, because it deprives the federal courts of
subject matter jurisdiction over any action
asserted by an individual against a state regardless of the nature of the relief sought.”).4
4

The Supreme Court in 1998 said that it had “not
decided” but would “mak[e] the assumption that Eleventh
Amendment immunity is a matter of subject-matter
jurisdiction.” Wisconsin Dep’t of Corr. v. Schacht, 524 U.S.
381, 391 (1998). Based on this comment, some panels have
suggested that the jurisdictional status of state sovereign
immunity is an open question. See, e.g., Carver v. Nassau
Cty. Interim Fin. Auth., 730 F.3d 150, 156 (2d Cir. 2013). But
our court—along with other circuits—has decided this issue,
and only the en banc court may revise those precedents.
“While the Supreme Court has left this question open, our
court has repeatedly referred to the Eleventh Amendment’s
restriction in terms of subject matter jurisdiction [O]ur
earlier circuit precedent continues to bind us.” United States
v. Texas Tech Univ., 171 F.3d 279, 285 n.9 (5th Cir. 1999);

86780 • CARROLL • APPENDIX B

Al 5/10/21

44a
Our court has also said that the federal
government’s sovereign immunity limits our
subject-matter jurisdiction. See United States v.
Bond, 762 F.3d 255, 263 (2d Cir. 2014) (“[W]hen it
comes to sovereign immunity ... express abrogation
is a prerequisite to subject-matter jurisdiction.”);
Dotson v. Griesa, 398 F.3d 156, 177 (2d Cir. 2005)
(“Because a finding of sovereign immunity would
deprive this court of subject matter jurisdiction,
we address that question first.”); Adeleke v. United
States, 355 F.3d 144, 147 (2d Cir. 2004) (holding
that the plaintiff’s “equitable claim for money
damages should have been dismissed for lack of
subject matter jurisdiction because sovereign
immunity bars a federal court from ordering the
United States” to provide that remedy.); Forma, 42
F.3d at 763 (noting that the “failure to satisfy the[]
prerequisites” of the statute providing the federal
government’s consent to “a refund suit would
normally deprive a district court of subject matter
jurisdiction over any such refund action”).5
see also Williams v. Utah Dep’t of Corr., 928 F.3d 1209, 1212
(10th Cir. 2019) (“Once effectively asserted, Eleventh
Amendment immunity constitutes a bar to the exercise of
federal subject matter jurisdiction.”) (alterations omitted);
Seaborn v. Florida Dep’t of Corrs., 143 F.3d 1405, 1407 (11th
Cir. 1998) (“An assertion of Eleventh Amendment immunity
essentially challenges a court’s subject matter jurisdiction.”).
5
Other circuits agree. See e.g., Walker v. Beaumont
Indep. Sch. Dist., 938 F.3d 724, 734 (5th Cir. 2019) (“Sovereign
immunity deprives the court of subject matter jurisdiction.”);
Pueblo of Jemez v. United States, 790 F.3d 1143, 1151 (10th Cir.
2015) (“The defense of sovereign immunity is jurisdictional in
nature, depriving courts of subject-matter jurisdiction where
applicable.”); Treasurer of N.J. v. U.S. Dep’t of Treasury, 684
F.3d 382, 395 (3d Cir. 2012) (“Without a waiver of sovereign
immunity, a court is without subject matter jurisdiction over

86780 • CARROLL • APPENDIX B

Al 5/10/21

45a
As noted above, tribal sovereign immunity is
coextensive with federal sovereign immunity.6
Like our court, other circuits have recognized that
tribal sovereign immunity—like other forms of
sovereign immunity—deprives a court of subjectmatter jurisdiction. See Miner Elec., Inc. v.
Muscogee (Creek) Nation, 505 F.3d 1007, 1009
(10th Cir. 2007) (“Tribal sovereign immunity is a
matter of subject matter jurisdiction.”); Victor v.
Grand Casino–Coushatta, 359 F.3d 782, 783 n.3
(5th Cir. 2004) (noting that “the question of tribal
immunity” is a “matter[] of subject matter jurisdiction”); Sanderlin v. Seminole Tribe of Fla., 243
F.3d 1282, 1292 (11th Cir. 2001) (“[T]he Tribe’s
sovereign immunity deprives the district court of
subject matter jurisdiction over [the] complaint.”).
In its opinion today, the court observes that
tribal sovereign immunity functionally serves as a
defense to a cause of action and that a tribe may
waive its sovereign immunity. But these aspects of
tribal sovereign immunity do not suggest that
tribal sovereign immunity is something other than
a limit on a court’s subject-matter jurisdiction.
Whenever a defendant challenges a court’s subjectmatter jurisdiction, the defendant’s invocation of
the jurisdictional limitation functionally serves as
a defense to the plaintiff’s cause of action. If a
plaintiff were to bring a state-law claim in federal
court against a non-diverse party, the defendant
would likely invoke jurisdiction as a defense. But
claims against federal agencies or officials in their official
capacities.”); United States v. Land, Shelby Cty., 45 F.3d 397,
398 n.2 (11th Cir. 1995) (“Sovereign immunity of the United
States is an issue of subject matter jurisdiction.”).
6
See supra note 1 and accompanying text.

86780 • CARROLL • APPENDIX B

Al 5/10/21

46a
that does not mean that federal-question and
diversity jurisdiction are “not synonymous with
subject matter jurisdiction.” Ante at 25.
That a tribe may waive its immunity and
thereby consent to be sued does not mean that its
immunity does not limit the court’s subject-matter
jurisdiction. “It is inherent in the nature of
sovereignty not to be amenable to the suit of an
individual without its consent.” The Federalist No.
81, at 487-88 (Alexander Hamilton) (Clinton
Rossiter ed., 1961)) (emphasis added); see also
Alden, 527 U.S. at 712 (“[T]he powers delegated to
Congress under Article I of the United States
Constitution do not include the power to subject
nonconsenting States to private suits.”) (emphasis
added). A waiver of sovereign immunity—that is,
the sovereign’s consent—has long been understood
to be a precondition to the exercise of subjectmatter jurisdiction. See Poodry, 85 F.3d at 885; see
also Meyer, 510 U.S. at 475 (“Absent a waiver,
sovereign immunity shields the Federal Government and its agencies from suit.”); United States v.
Lee, 106 U.S. 196, 204 (1882) (“[T]he United States
cannot be lawfully sued without its consent in any
case.”); United States v. Clarke, 33 U.S. (8. Pet.)
436, 443 (1834) (“As the United States are not
suable of common right, the party who institutes a
suit against them must bring his case within the
authority of some act of congress, or the court
cannot exercise jurisdiction.”). This feature of
sovereign immunity does not warrant reconsideration of its jurisdictional status.
Nothing inherent in the nature of subject-matter
jurisdiction precludes it from depending on a
defendant’s choice. The Foreign Sovereign

86780 • CARROLL • APPENDIX B

Al 5/10/21

47a
Immunities Act expressly provides that a foreign
state may waive its sovereign immunity and
thereby allow a court to exercise subject-matter
jurisdiction over the suit against it. See 28 U.S.C.
§ 1605(a)(1) (“A foreign state shall not be immune
from the jurisdiction of courts of the United States
or of the States in any case ... in which the foreign
state has waived its immunity either explicitly or
by implication.”); see also id. § 1330(a) (conditioning
a court’s “original jurisdiction” over “any nonjury
civil action against a foreign state” on “the foreign
state ... not [being] entitled to immunity either
under sections 1605-1607 of this title or under any
applicable international agreement”); Verlinden
B.V. v. Cent. Bank of Nigeria, 461 U.S. 480, 489
(1983) (confirming that § 1330(a) governs a court’s
“exercise [of] subject matter jurisdiction”). Jurisdictional limitations do not generally depend on a
party’s consent, but there is no principled reason
why such rules cannot.7
The cases the court cites for a contrary argument
stand for the unremarkable proposition that the
absence of a claim of tribal immunity, like the
presence of such a claim, does not in and of itself
7

In a similar way, Congress has conditioned a federal
court’s exercise of removal jurisdiction on the unanimous
consent of all defendants. See 28 U.S.C. § 1441(a) (allowing
defendants to remove “any civil action brought in a State
court of which the district courts of the United States have
original jurisdiction ... to [a] district court of the United
States”); id. § 1446(b)(2)(A) (“When a civil action is removed
solely under section 1441(a), all defendants who have been
properly joined and served must join in or consent to the
removal of the action.”). Thus, whether a federal court may
exercise removal jurisdiction depends on the consent of each
defendant.

86780 • CARROLL • APPENDIX B

Al 5/10/21

48a
create subject-matter jurisdiction. See Oklahoma
Tax Comm’n v. Graham, 489 U.S. 838, 841 (1989)
(“The possible existence of a tribal immunity
defense, then, did not convert Oklahoma tax
claims into federal questions, and there was no
independent basis for original federal jurisdiction
to support removal.”). But that does not mean a
tribe’s proper assertion of its immunity does not
deprive a court of subject-matter jurisdiction. The
defendant’s lack of immunity to suit is a necessary
but not sufficient condition for the exercise of
subject-matter jurisdiction. Because the court’s
discussion of this point is dicta and is erroneous, I
do not join it.
III
The court’s opinion “assum[es]” that “equitable
defenses beyond those described in Sherrill [a]re
available.” Ante at 20. I would hold that the
Sherrill equitable defense is the only equitable
defense available against a tribal claim to land
that was allegedly transferred or abandoned long
ago. Phillips’s other equitable defenses are
therefore barred as a matter of law.
In City of Sherrill v. Oneida Indian Nation of
N.Y., the Supreme Court devised a federal
common-law equitable defense to a tribe’s claim of
ownership to lands that it had allegedly sold
without authorization two centuries earlier. 544
U.S. 197 (2005). The Court said this equitable
defense considers whether there is a “longstanding,
distinctly non-Indian character of the [disputed
land] and its inhabitants,” whether there has been
“regulatory authority constantly exercised by [the

86780 • CARROLL • APPENDIX B

Al 5/10/21

49a
state] and its counties and towns,” and whether
there was a “long delay in seeking judicial relief
against” the current holder or prior holders. Id. at
202.
This court has subsequently labeled this defense
“the Sherrill equitable defense,” StockbridgeMunsee Cmty. v. New York, 756 F.3d 163, 166 (2d
Cir. 2014), and has held that in such cases we
should “consider[] only factors equivalent to those
addressed in Sherrill,” which itself “did not involve
the application of a traditional laches defense so
much as an equitable defense that drew upon
laches and other equitable doctrines but that
derived from general principles of ‘federal Indian
law and federal equity practice,’” Oneida Indian
Nation of N.Y. v. County of Oneida, 617 F.3d 114,
128 (2d Cir. 2010) (quoting Sherrill, 544 U.S. at
213). Our analysis indicates that “the Sherrill
equitable defense” is a sui generis defense that displaces traditional equitable defenses, StockbridgeMunsee, 756 F.3d at 166, including those defenses
based on state law, see Oneida Indian Nation, 617
F.3d at 128 (noting that the Sherrill equitable
defense is not satisfied simply because “the elements
of a traditional laches defense [are] met”).
Moreover, recognition of additional equitable
defenses in the context of tribal claims to ancient
lands would contravene the Nonintercourse Act,
which provides that any conveyance of tribal land
is of no “validity in law or equity” unless made
pursuant to a “treaty or convention” with the
United States. 25 U.S.C. § 177; see also Oneida
Indian Nation of N.Y. State v. Oneida County, 414
U.S. 661, 670 (1974) (“The rudimentary propositions that Indian title is a matter of federal law

86780 • CARROLL • APPENDIX B

Al 5/10/21

50a
and can be extinguished only with federal consent
apply in all of the States, including the original
13.”).
The court’s opinion correctly concludes that
Phillips cannot satisfy the Sherrill equitable
defense factors here. Rather than reach the merits
of his other equitable defenses, I would hold that
Sherrill bars those other defenses as a matter of
law.
***
The court errs in holding that tribal sovereign
immunity bars Phillips’s counterclaim, in suggesting
that tribal sovereign immunity does not affect a
court’s subject-matter jurisdiction, and in considering affirmative defenses beyond the Sherrill
equitable defense. But Phillips’s counterclaim fails
on the merits, the court’s dicta about the nature of
sovereign immunity are irrelevant to the disposition
of this case, and Phillips cannot establish the
Sherrill equitable defense. Accordingly, I concur in
the court’s judgment.

86780 • CARROLL • APPENDIX B

Al 5/10/21

51a
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE S ECOND C IRCUIT
SECOND CIRCUIT ORDER
DENYING REHEARING
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40
Foley Square, in the City of New York, on the 30th
day of December, two thousand twenty.

__________
Docket No: 19-2737

__________
O NEIDA I NDIAN N ATION ,
Plaintiff-Counter Defendant-Appellee,
—v.—
M ELVIN L. P HILLIPS , S R ., INDIVIDUALLY AND
TRUSTEE , M ELVIN L. P HILLIPS , S R ./
O RCHARD P ARTY T RUST ,

AS

Defendants-Counter Claimants-Appellants.

__________

86780 • CARROLL • APPENDIX C

AL 5/10/21

52a
ORDER
Appellants, Melvin L. Phillips, Sr., individually
and as trustee, and Melvin L. Phillips, Sr./Orchard
Party Trust, filed a petition for panel rehearing,
or, in the alternative, for rehearing en banc. The
panel that determined the appeal has considered
the request for panel rehearing, and the active
members of the Court have considered the request
for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
For the Court:
/s/ Catherine O’Hagan Wolfe
Catherine O’Hagan Wolfe
Clerk of Court
[STAMP]

86780 • CARROLL • APPENDIX C

AL 5/10/21

53a
Appendix D
UNITED STATES DISTRICT COURT
FOR THE N ORTHERN D ISTRICT OF N EW Y ORK

__________
DECISION OF THE NORTHERN
DISTRICT OF NEW YORK

__________
5:17-CV-1035
(GTS/ATB)

__________
O NEIDA I NDIAN N ATION ,
Plaintiff,
—v.—
M ELVIN L. P HILLIPS , S R ., individually and as
trustee, M ELVIN L. P HILLIPS , S R ./
O RCHARD P ARTY T RUST ,
Defendants.

__________

86780 • CARROLL • APPENDIX D

Al 5/11/21

54a
APPEARANCES:

OF COUNSEL:

ONEIDA INDIAN NATION MEGHAN MURPHY
BEAKMAN, ESQ.
Co-Counsel for Plaintiff
5218 Patrick Road
Verona, New York 13478
ZUCKERMAN SPAEDER
LLP
Co-Counsel for Plaintiff
1800 M Street, N.W.,
Suite 1000
Washington, DC 200365802

MICHAEL R. SMITH, ESQ.

ERIC NEVINS WHITNEY,
ARNOLD & PORTER
ESQ.
KAYE SCHOLER LLP
GLENN J. POGUST, ESQ.
Counsel for Defendants
250 West 55th Street
New York, New York 10019

GLENN T. SUDDABY, Chief United States
District Judge
DECISION and ORDER
Currently before the Court, in this real property
action filed by the Oneida Indian Nation (“Plaintiff”)
against Melvin L. Phillips, Sr., individually and as
Trustee (“Defendant Phillips”), and Melvin L.
Phillips, Sr./Orchard Party Trust (“Defendant Trust”)
(collectively “Defendants”), is Plaintiff’s motion for
judgment on the pleadings pursuant to Fed. R. Civ.
P. 12(c). (Dkt. No. 32.) For the reasons set forth
below, Plaintiff’s motion is granted.

86780 • CARROLL • APPENDIX D

Al 5/11/21

55a
I.

RELEVANT BACKGROUND
A. Procedural History

On November 15, 2018, the Court issued a Decision
and Order that summarized Plaintiff’s claims and
dismissed Defendants’ counterclaim. (Dkt. No. 30.)
Familiarity with Plaintiff’s Complaint, Defendants’
Answer, and the Court’s Decision and Order of
November 15, 2018, is assumed in this Decision and
Order, which is intended primarily for the review of
the parties.
On June 11, 2019, the Court issued a Text Order
denying Defendants’ motion (Dkt. No. 39) to strike
section “C” of Plaintiff’s reply memorandum of law
(Dkt. No. 38), but granting Defendants’ alternative
request for leave to file a sur-reply, which they have
done. (Dkt. Nos. 41, 42.)
B. Parties’ Briefing on Plaintiff’s Motion
for Judgment on the Pleadings
1.

Plaintiff’s Memorandum of Lawin-Chief

Generally, in support of its motion for judgment on
the pleadings, Plaintiff argues that, for the same
reason that the Court dismissed Defendants’
counterclaim, Plaintiff is entitled to judgment as a
matter of law in the form of declaratory and
injunctive relief to quiet title to the 19.6 acre tract
(the “Property”), which has a cloud on its title caused
by Defendant Phillips’ recordation of a quitclaim
deed that he manufactured. (Dkt. No. 32, Attach. 1
[Pl.’s Mem. of Law].) More specifically, Plaintiff
argues that, in its Decision and Order of November
15, 2018, the Court accepted Plaintiff’s argument
that the Property is part of the Oneida Nation’s

86780 • CARROLL • APPENDIX D

Al 5/11/21

56a
reservation based on unextinguished Indian title,
and rejected Defendants’ claim to the Property. (Id.)
Plaintiff further argues that its right to the Property
was acknowledged in the 1794 Treaty of
Canandaigua, its right is federally protected, it has
never alienated the Property with federal approval or
otherwise, and therefore, Defendants have no claim
to the Property on behalf of Orchard Party, who, in
any event, are members of the Oneida Nation and
thus lack independent tribal rights to the Property.
(Id.)
2.

Defendants’ Opposition Memorandum of Law

Generally, in opposition to Plaintiff’s motion,
Defendants assert the following three arguments.
(Dkt. No. 37 [Defs.’ Opp’n Mem. of Law].)1
First, Defendants argue that the standard for
dismissing a counterclaim for failure to state a claim
is significantly different than the standard for
granting a motion for judgment on the pleadings.
(Id.) More specifically, Defendants argue that
granting the motion to dismiss the counterclaim for
failure to state a claim required Plaintiff to
demonstrate only that Defendants had not alleged
facts plausibly suggesting a claim for relief–pursuant
to Iqbal and Twombly–whereas, granting Plaintiff’s
motion for judgment on the pleadings requires a
showing that (a) there exists no issue of material
fact, (b) the Answer fails to meet the minimal
1

The Court notes that, on the cover page of their
motion, Defendants state “ORAL ARGUMENT REQUESTED.”
(Dkt. No. 37, at 1 [emphasis removed].) However, Defendants’
request was not supported by a showing of cause for such
oral argument.

86780 • CARROLL • APPENDIX D

Al 5/11/21

57a
requirements of notice pleadings pursuant to Fed. R.
Civ. P. 8(b), or (c) the disputed factual issues raised
in the Answer are immaterial or too implausible to
ever be supported by discovery. (Id.) Defendants
argue that their counterclaim alleged that they were
affirmatively entitled to relief, whereas their denials
and affirmative defenses contained in the Answer
dispute that Plaintiff is entitled to relief and raise
issues of material fact, which bar Plaintiff’s motion
for judgment on the pleadings. (Id.) Moreover,
Defendants argue that they assert arguments
“sounding in real property law regarding successorsin-interest, possession, and abandonment” that have
not been addressed by Plaintiff. (Id.) Finally,
Defendants argue that, if there is even a chance that
they will be able to offer facts supporting their
defenses and undermining Plaintiff’s claims at trial,
they are entitled to seek discovery; and therefore
Plaintiff’s motion for judgment on the pleadings must
be denied. (Id.)
Second, Defendants argue that the Court’s
Decision and Order of November 15, 2018,
determined that Defendants’ counterclaim failed to
allege facts plausibly suggesting entitlement to relief
but it did not make any findings of fact or conclusions
of law in the case. (Id.) More specifically, Defendants
argue that the Court’s Decision and Order of
November 15, 2018, did not find that Plaintiff had
affirmatively proven any facts or imply that
Defendants will never be able to offer evidence
supporting their defense. (Id.) Defendants argue that
disputed issues of fact remain to be resolved at trial
including the validity and interpretation of the deed
documents that Defendant Phillips executed. (Id.) As
a result, Defendants argue that this case should

86780 • CARROLL • APPENDIX D

Al 5/11/21

58a
proceed on the normal path to trial, where Plaintiff
can attempt to carry the burden to prove its claims.
(Id.)
Third, Defendants argue that numerous disputes of
fact preclude judgment on the pleadings. (Id.) More
specifically, Defendants argue as follows: (a) Plaintiff
fails to frame its arguments in the context of the
higher burden required for a motion for judgment on
the pleadings, which makes it difficult for
Defendants to meaningfully respond; (b) disputed
issues of fact exist regarding whether the Property (i)
was ceded or abandoned by Plaintiff, (ii) was ever
possessed by Plaintiff, and (iii) was possessed by
Plaintiff within ten years before commencement of
this action; and (c) disputed issues of fact exist
regarding Defendants’ rights to the land at issue
pursuant to real property law which does not require
tribal sovereignty. (Id.)
3.

Plaintiff’s Reply Memorandum of
Law

Generally, in reply to Defendants’ opposition,
Plaintiff asserts the following three arguments. (Dkt.
No. 38 [Pl.’s Reply Mem. of Law].)
First, Plaintiff asserts that it agrees with Defendants that the standard for granting judgment on the
pleadings pursuant to Fed. R. Civ. P. 12(c) is that
“the disputed factual issues raised by the Answer are
either immaterial or too implausible to ever be
supported by discovery” or that there remain no
material issues of fact. (Id.)
Second, Plaintiff argues that Defendants’ admissions
and the controlling law entitle Plaintiff to judgment
as a matter of law because there are no factual disputes
that could alter the outcome. (Id.) More specifically,

86780 • CARROLL • APPENDIX D

Al 5/11/21

59a
Plaintiff argues that Defendants admit the following
facts: (a) the Property was part of the original Oneida
reservation acknowledged at the 1794 Treaty of
Canandaigua; (b) the Property was never conveyed to
New York State, with or without federal approval, (c)
Indian title can be extinguished only with federal
consent; and (d) the Orchard Party Oneidas could not
acquire Indian title to Plaintiff’s land because there
was no federal consent to do so and tribal members
do not acquire rights in tribal land by living on it.
(Id.) In addition, Plaintiff argues that (a) the Court
has already dismissed, as a matter of law, Defendants’
claim to the Property, which is the defense that their
Answer attempts to establish, and (b) based on the
Answer, it is not plausible that there are facts which,
if proven, could establish Defendant’s ownership
defense. (Id.) Furthermore, Plaintiff argues that the
discovery Defendants seek does not concern any
material fact for the following reasons: (a) the 1794
Treaty of Canandaigua clearly states that the Property
is reserved to the Oneida and is Oneida property; (b)
no transfer of the Property is alleged; (c) Defendants’
concession that they are members of the Oneida
Nation establishes that Oneida Nation members
have continuously lived on the Property, and thus the
Oneida Nation has not abandoned it, and tribal
members do not acquire tribal land by living on it;
and (d) the 1838 Treaty of Buffalo Creek was made
with the Oneidas, not the Orchard Party Oneidas.
(Id.)
Third, Plaintiff argues that Defendants’ affirmative
defenses fail as a matter of law, and therefore discovery
is not necessary. (Id.) More specifically, Plaintiff
argues as follows: (a) the Eleventh Amendment limits
federal jurisdiction over states and is irrelevant here;

86780 • CARROLL • APPENDIX D

Al 5/11/21

60a
(b) Defendants did not join any other party to their
counterclaim, which mirrored Plaintiff’s claim, and
there is nothing to indicate that any other party
claims ownership of the Property; (c) there is no
applicable federal statute of limitations for tribal
enforcement of federally protected land rights; (d) the
doctrines of collateral estoppel and res judicata
depend on a particular judgment and the Answer and
Defendants’ opposition memorandum of law fail to
identify any; (e) release and accord and satisfaction
are inapplicable here because only a federal statute
or treaty can affect tribal land rights; (f) Defendants
fail to identify an act of Congress that could affect
Plaintiff’s right to judgment and discovery is not
needed to exchange public statutes or treaties; (g)
with respect to the defense of laches, (i) Defendants
do not assert prejudice from the timing of this
lawsuit, which was filed two years after they filed the
trust and deed papers, and (ii) Defendants cannot
invoke “laches” as the term was used in Cayuga
Indian Nation v. Pataki, 413 F.3d 266 (2d Cir. 2005),
which referred to the disruptive effect of disturbing
title to land occupied for generations by non-Indians
in reliance on the validity of 200-year-old state land
transactions because (1) Defendants assert rights
based only on occupancy by members of the Oneida
Nation on tribal land, and (2) Defendant Phillips had
to manufacture and file a quitclaim deed in the
county records because no prior title or chain of titles
to the Property existed; (h) Defendants do not provide
any reason that it would be impossible for the Court
to quiet title to the Property, and Plaintiff does not seek
to evict anyone; (i) tribal claims to preserve federal protection of tribal lands are justiciable; (j) Defendants
answered Plaintiff’s Complaint, rather than moving

86780 • CARROLL • APPENDIX D

Al 5/11/21

61a
to dismiss Plaintiff’s Complaint pursuant to Fed. R.
Civ. P. 12(b)(6), and in their Answer, Defendants
admitted that the Property was within the Oneida
Nation’s reservation pursuant to the 1794 Treaty of
Canandaigua and was not thereafter conveyed to
New York State; (k) as a matter of law, Plaintiff
cannot be said to have acquiesced in Defendants’
filing of the deed and trust because (i) Defendants
conceded that there is no claim that Orchard Party is
a separate tribe from the Oneida Nation, (ii) tribal
members do not acquire rights to tribal land by living
on it, (iii) Plaintiff brought this lawsuit two years
after Defendants filed the challenged deed and trust,
and (iv) Plaintiff’s interest in land protected by a
federal treaty cannot be extinguished without federal
approval; and (l) abandonment is not applicable here
where Defendants admit that generations of Orchard
Party Oneida descendants have continuously
occupied the Property, and the Orchard Party
Oneidas are part of, and not broken away from, the
Oneida Nation. (Id.)
4.

Defendants’ Sur-Reply Memorandum
of Law

Generally, in their sur-reply, Defendants assert the
following two arguments. (Dkt. No. 42 [Defs.’ SurReply Mem. of Law].)
First, Defendants argue that Plaintiff has failed to
carry its burden to show that Defendants’ affirmative
defenses fail as a matter of law. (Id.) More specifically,
Defendants argue that Plaintiff has improperly
attempted to shift the burden of persuasion to
Defendants by arguing that Defendants have failed
to “explain” or “sustain” their affirmative defenses,
although the burden is on the moving party to

86780 • CARROLL • APPENDIX D

Al 5/11/21

62a
establish its entitlement to judgment as a matter of
law. (Id.) In addition, Defendants argue that their
affirmative defenses bar Plaintiff’s motion for the
following reasons: (a) they properly and timely raised
the defense of failure to join an indispensable party
identifying the United States, State of New York,
Oneida County, and Town of Vernon as indispensable
parties; (b) as a basis for the defenses of release and
accord and satisfaction, Defendants identified the
1838 Treaty of Buffalo Creek, which extinguished
Plaintiff’s rights to the Property and recognized
Defendants’ proprietary interest in the land; (c) they
appropriately raised as an affirmative defense in
their Answer, failure to state a claim and Plaintiff
carries the burden–but failed to rebut–this invulnerable
defense; (d) they raised the defense of acquiescence
and estoppel, which is not dependent on any claim of
independent sovereignty by the Orchard Party but
instead relates to the Property rights that were
conveyed by Plaintiff to the Orchard Party in the
1838 Treaty of Buffalo Creek; and (e) they raised the
defense of abandonment and (i) the Court’s dismissal
of Defendant’s counterclaim did not imply a determination that Defendants can prove no set of facts to
support of this defense, and (ii) Plaintiff’s theory that
Defendants’ occupation of the Property supports
Plaintiff’s continuity of occupation fails to consider
discontinuities between the historical Oneida tribe
and the modern Oneida Indian Nation. (Id.)
Second, Defendants argue that material facts are
in dispute that require the development of the factual
record and an examination of the historical context of
treaties prior to resolution. (Id.) More specifically,
Defendants argue that issues of material fact exist in
the following regards: (a) Plaintiff abandoned the

86780 • CARROLL • APPENDIX D

Al 5/11/21

63a
Property, which is evinced by discontinuities between
the historical Oneida tribe and the modern day
Oneida Indian Nation; and (b) Defendants obtained
the Property through the 1838 Treaty of Buffalo
Creek Treaty (in which the United States recognized
that the Orchard Party had a proprietary interest in
the Property and authorized Orchard Party chiefs to
make arrangements with New York for the purchase
of their lands) and through the 1842 Treaty with
New York State (in which the Orchard Party chiefs
sold several parcels of land surrounding the Property
but made arrangements to remain on the Property).
(Id.)
II. GOVERNING LEGAL STANDARDS
A. Legal Standard Governing Motion for
Judgment on the Pleadings
Rule 12(c) of the Federal Rules of Civil Procedure
“permits the entry of judgment as a matter of law on
the basis of the pleadings alone.” Barber v. RLI Ins.
Co., 06-CV-0630, 2008 WL 5423106, at *2 (N.D.N.Y.
Dec. 24, 2008) (Scullin, J.) (citing Jackson v.
Immediate Credit Recovery, Inc., 05-CV-5697, 2006
WL 343180, at *4 [E.D.N.Y. Nov. 28, 2006]).
“The standard for granting a Rule 12(c) motion for
judgment on the pleadings is identical to that of a
Rule 12(b)(6) motion for failure to state a claim.”
Patel v. Contemporary Classics of Beverly Hills, 259
F.3d 123, 126 (2d Cir. 2001) (collecting cases).
“However, when it is a plaintiff who files such a
motion, the Court accepts as true only the allegations
in the complaint that the defendant has not denied.”
Edwards v. Jenkins, 12-CV-10312, 2013 WL
8366052, at *1 (E.D. Mich. Nov. 21, 2013) (citing

86780 • CARROLL • APPENDIX D

Al 5/11/21

64a
Kule-Rubin v. Bahari Grp. Ltd., 11-CV-2424, 2012
WL 691324, at *3 [S.D.N.Y. Mar. 5, 2012] [explaining
that “plaintiff is entitled to judgment on the
pleadings where the defendant’s answer fails to deny
the elements constituting a cause of action”]); see also
Gen. Conference Corp. of the Seventh-Day Adventists
v. Seventh-Day Adventist Congregational Church,
887 F.2d 228, 230 (9th Cir. 1989) (“A plaintiff is not
entitled to judgment on the pleadings when the
answer raises issues of fact that, if proved, would
defeat recovery. Similarly, if the defendant raises an
affirmative defense in his answer it will usually bar
judgment on the pleadings.”); Hamilton v. Yates, 10CV-1925, 2014 WL 4660814, at *1 (E.D. Cal. Sept.
17, 2014) (“A plaintiff may bring the motion if the
answer fails to controvert material facts alleged in
the complaint.”).
In considering “plaintiff’s Rule 12(c) motion for a
judgment on the pleadings, the Court must draw all
reasonable inferences in favor of the non-moving
party. Therefore, the plaintiff is entitled to judgment
on the pleadings only if it has established that there
remains no material issue of fact to be resolved and
that it is entitled to judgment as a matter of law.”
United States v. Lankford, 98-CV-0407, 1998 WL
641350, at *1 (N.D.N.Y. Sept. 10, 1998) (McAvoy,
C.J.) (citing Shechter v. Comptroller of the City of
New York, 79 F.3d 265, 270 [2d Cir. 1996]; Juster
Assocs. v. City of Rutland, 901 F.2d 266, 269 [2d Cir.
1990]); see also Kertesz v. General Video Corp., 09CV-1648, 2010 WL 11506390, at *2 (S.D.N.Y. Mar.
31, 2010) (citing Rivera v. Schweiker, 717 F.2d 719,
722 [2d Cir. 1983]) (“A motion for judgment on the
pleadings under Fed. R. Civ. P. 12[c] is designed to
provide a means of disposing cases when the material

86780 • CARROLL • APPENDIX D

Al 5/11/21

65a
facts are not in dispute. A Rule 12[c] motion will not
be granted unless the movant clearly establishes that
no material issue of fact remains to be resolved and
that it is entitled to judgment as a matter of law.”);
Barber, 2008 WL 5423106, at *2 (holding that the
court must draw all inferences in favor of the nonmoving party and only grant a motion for judgment
on the pleadings if the movant establishes that “no
material issue of fact remains to be resolved and that
it is entitled to judgment as a matter of law”).
Much like a motion to dismiss for failure to state a
claim pursuant to Fed. R. Civ. P. 12(b)(6), the Court
may consider any document annexed to it as an
exhibit. Lankford, 1998 WL 641350, at *1 (citing Fed.
R. Civ. P. 10[c]; De Jesus v. Sears, Roebuck & Co., 87
F.3d 65, 69 [2d Cir. 1996], cert. denied 519 U.S. 1007
[1996]); see also Barber, 2008 WL 5423106, at *2
(“Pleadings include attached exhibits and documents
incorporated by reference.”).
B. Legal Standards Governing Plaintiff’s
Claims
Because the parties to this action have demon strated, in their memoranda of law, an accurate
understanding of the relevant points of law contained
in the legal standards governing Plaintiff’s claims
and Defendants’ affirmative defenses in this action,
the Court will not recite, in their entirety, those legal
standards in this Decision and Order, which (again)
is intended primarily for the review of the parties.
(See generally Dkt. No. 32, Attach. 1 [Pl.’s Mem. of
Law]; Dkt. No. 37 [Defs.’ Opp’n Mem. of Law]; Dkt.
No. 38 [Pl.’s Reply Mem. of Law]; Dkt. No. 42 [Defs.’
Sur-Reply Mem. of Law].)

86780 • CARROLL • APPENDIX D

Al 5/11/21

66a
III. ANALYSIS
After carefully considering the matter, the Court
grants Plaintiff’s motion to for judgment on the
pleadings for each of the alternative reasons stated in
Plaintiff’s memoranda of law. (Dkt. No. 32, Attach. 1
[Pl.’s Mem. of Law]; Dkt. No. 38 [Pl.’s Reply Mem. of
Law].) To those reasons, the Court adds the following
analysis, which is intended to supplement but not
supplant Plaintiff’s reasons.
This is a rare case that does not involve issues of
material fact between the parties, but rather the
inter pretation of statutes and post-1794 treaties.
(See, e.g., Dkt. No. 17, at ¶ 60 [Defs.’ Answer, admitting that “[t]he property at issue in this case was part
of the original Oneida reservation” pursuant to the
1794 Treaty of Canandaigua].) Based on those
statutes and treaties, the Court finds that there is no
issue of material fact that the Property is still part of
the Oneida Indian reservation. See, e.g., Upstate
Citizens for Equality v. Jewell, 841 F.3d 556, 562 (2d
Cir. 2016) (“[T]he Oneidas’ original reservation
[following the 1794 Treaty of Canandaigua] was
never officially ‘disestablished.’”); Oneida Indian
Nation v. Madison Cty., 665 F.3d 408, 443 (2d Cir.
2011) (“It remains the law of this Circuit that “the
Oneidas’ reservation was not disestablished”).
In support of their argument that the 1838 Treaty
of Buffalo Creek “reserved” for them the Property,
Defendants rely on a provision that provides as
follows:
ARTICLE 4. Perpetual peace and friendship shall exist between the United States
and the New York Indians; and the United
States hereby guaranty to protect and defend

86780 • CARROLL • APPENDIX D

Al 5/11/21

67a
them in the peaceable possession and enjoyment of their new homes, and hereby secure
to them, in said country, the right to establish
their own form of government, appoint their
own officers, and administer their own laws;
subject, however, to the legislation of the
Congress of the United States, regulating
trade and intercourse with the Indians. The
lands secured them by patent under this
treaty shall never be included in any State
or Territory of this Union. The said Indians
shall also be entitled, in all respects, to the
same political and civil rights and privileges,
that are granted and secured by the United
States to any of the several tribes of emigrant
Indians settled in the Indian Territory.
(Dkt. No. 17, at ¶¶ 16, 17, 64 [Defs.’ Answer, citing
Article 4]; Dkt. No. 17, Attach. 1, at 3 [Ex. to Defs.’
Answer, attaching Article 4].) However, this Court
has specifically held that after 1805–and, in
particular, in the 1838 Treaty of Buffalo Creek–the
United States treated the Oneidas as a single unified
nation. See Oneida Indian Nation of New York v.
New York, 194 F. Supp. 2d 104, 119 & n.8 (N.D.N.Y.
2002) (Kahn, J.) (“[T]he United States government, in
. . . [the 1838 Treaty of Buffalo Creek] with the Oneidas,
treated the Oneidas as one nation.”) (citing Treaty of
Buffalo Creek, Jan. 15, 1838, U.S.-New York Indians,
art. 2, 7 Stat. 550). This fact fatally undermines
Defendants’ allegation that the Court should consider
Orchard Party Oneida as a separate tribe from Plaintiff,
with independent tribal rights to the Property.
The other provision of the 1838 Treaty of Buffalo
Creek that Defendants rely on (to support their argu-

86780 • CARROLL • APPENDIX D

Al 5/11/21

68a
ment that the Property was granted to them) provides
as follows:
SPECIAL PROVISIONS FOR
THE ONEIDAS RESIDING IN
THE STATE OF NEW YORK
ARTICLE 13. The United States will pay
the sum of four thousand dollars, to be paid
to Baptista Powlis, and the chiefs of the first
Christian party residing at Oneida, and the
sum of two thousand dollars shall be paid to
William Day, and the chiefs of the Orchard
party residing there, for expenses incurred
and services rendered in securing the Green
Bay country, and the settlement of a portion
thereof; and they hereby agree to remove to
their new homes in the Indian territory, as
soon as they can make satisfactory arrangements with the Governor of the State of New
York for the purchase of their lands at
Oneida.
(Dkt. No. 17, at ¶¶ 1, 8, 24, 25, 61 [Defs.’ Answer,
citing Article 13]; Dkt. No. 17, Attach. 1, at 5 [Ex. to
Defs.’ Answer, attaching Article 13].) However, by its
plain language, this provision does not cede Plaintiff’s
right to the Property. As a result, the federal government did not, and could not, give its consent to such a
transaction, as is required for the transfer of Indian
land. (Id.) See also 1 Stat. 330, § 8; Cherokee Nation
v. Georgia, 30 U.S. 1, 32 (1831) (“[T]he Indians are
acknowledged to have an unquestionable, and heretofore unquestioned, right to the lands they occupy,
until that right shall be extinguished by a voluntary
cession to our government.”); Oneida Cty., N.Y. v.
Oneida Indian Nation of New York State, 470 U.S.

86780 • CARROLL • APPENDIX D

Al 5/11/21

69a
226, 231-32 (1985) (noting that the Nonintercourse
Act provided that “‘no purchase or grant of lands, or
of any title or claim thereto, from any Indians or
nation or tribe of Indians, within the bounds of the
United States, shall be of any validity in law or equity,
unless the same be made by a treaty or convention
entered into pursuant to the constitution . . . [and] in
the presence, and with the approbation of the commis sioner or commissioners of the United States’
appointed to supervise such transactions”); Oneida
Indian Nation of N.Y. State v. Oneida Cty., New
York, 414 U.S. 661, 678 (1974) (holding that the
Nonintercourse Act “put in statutory form what was
or came to be the accepted rule–that the extinguishment of Indian title required the consent of the
United States”). As a result, the Court must find, as
a matter of law, that the 1838 Treaty of Buffalo
Creek did not recognize any proprietary interest of
the Orchard Party Oneidas in the Property–as a
“faction” of Plaintiff or otherwise–to arrange for the
purchase of the Property with the Governor of the
State of New York.
In sum, because the 1838 Treaty of Buffalo Creek
did not grant Orchard Party Oneidas any rights in
the Property, the 1842 Treaty with New York State
could not, and did not, reflect a proper agreement
between the Governor of New York State and the
Orchard Party Oneidas for the purchase of the
Property.
Furthermore, while affirmative defenses usually
bar judgment on the pleadings, Defendants’ defenses
do not raise any issues of material fact that, if true,
would bar the recovery sought by Plaintiff in its
motion. Gen. Conference Corp. of Seventh-Day
Adventists v. Seventh-Day Adventists Congregational

86780 • CARROLL • APPENDIX D

Al 5/11/21

70a
Church, 887 F.2d 228, 230 (9th Cir. 1989) (citing 5 C.
Wright & A. Miller, Federal Practice and Procedure §
1368 [1969]).
More specifically, Defendant assert the following
fourteen affirmative defenses in their Answer: (1) the
Eleventh Amendment of the U.S. Constitution; (2)
the failure to join all indispensable parties including
the United States, the State of New York, Oneida
County and the Town of Vernon; (3) the statute of
limitations; (4) the doctrine of collateral estoppel; (5)
the doctrine of res judicata; (6) release; (7) accord and
satisfaction; (8) Congressional act; (9) the doctrine of
laches; (10) impossibility; (11) the failure to present a
justiciable dispute; (12) the abandonment by Plaintiff
of any rights it may have to Orchard Party Trust
lands; (13) the failure to state a claim upon which
relief can be granted; and (14) the doctrine of acquiescence and estoppel. (Dk. No. 17, at ¶¶ 40-53 [Defs.’
Answer].)
In their motion papers, Defendants do not
specifically address, and thus abandon (for purposes
of this motion), their reliance on their First, Third,
Fourth, Fifth, Eighth, Ninth, Tenth, and Eleventh
Affirmative Defenses. (See generally Dkt. No. 37, at
14-16, 23-25 [attaching pages “8” through “10,” and
pages “17” through “19,” of Defs.’ Opp’n Mem. of Law,
mentioning only “abandon[ment]”]; Dkt. No. 42, at 612 [attaching pages “2” through “8” of Defs’ SurReply Mem. of Law].)2 In any event, for the reasons
2

Cf. Plahutnik v. Daikin Am., Inc., 10-CV-1071, 2012
WL 6108236, at *5 (S.D.N.Y. Dec. 6, 2012) (“Arguments not
made in opposition to a motion for summary judgment are
deemed abandoned.”); Jain v. McGraw-Hill Cos., Inc., 827 F.
Supp. 2d 272, 280 (S.D.N.Y. 2011) (holding that the plaintiff
abandoned six claims when her brief failed to respond to the

86780 • CARROLL • APPENDIX D

Al 5/11/21

71a
set forth in Plaintiff’s reply memorandum of law, the
Court finds that these eight affirmative defenses do
not bar the relief requested in Plaintiff’s motion.
(Dkt. No. 38, at 8-12 [attaching pages “6” through
“10” of Pl.’s Reply Mem. of Law].)
The Court reaches the same conclusion with regard
to the six affirmative defenses on which Defendants
do specifically rely in their memoranda of law: their
Second, Sixth, Seventh, Twelfth, Thirteenth and
Fourteenth Affirmative Defenses. (Dkt. No. 37, at 24
[attaching page “18” of Defs.’ Opp’n Mem. of Law,
mentioning “abandon[ment]”]; Dkt. No. 38, at 8-12
[attaching pages “6” through “10” of Pl.’s Reply Mem.
of Law]; Dkt. No. 42, at 6-12 [attaching pages “2”
through “8” of Defs.’ Sur-Reply Mem. of Law].)
With regard to Defendants’ Second Affirmative
Defense (failure to join all indispensable parties),
neither the Complaint nor Answer has alleged–even
conclusorily–that the United States, State of New
York, County of Oneida, Town of Vernon, or any other
individual or entity has any claim to, or interest in,
the Property, or is necessary for the Court to accord
complete relief. See Fed. R. Civ. P. 19(a)(1) (explaining that, for a person to be joined as a required party,
either the person must “claim[] an interest related to
the subject of the action” or the person must be
necessary for the court to “accord complete relief”).
Indeed, in their Answer, Defendants admit that “the
State never obtained the 19.6 acres at issue in this
case.” (Dkt. No. 17, at ¶ 12 [Defs.’ Answer].) For all of
defendants’ arguments on those claims); Lipton v. Cty. of
Orange, N.Y., 315 F.Supp.2d 434, 446 (S.D.N.Y. 2004) (“[A
court] may, and generally will, deem a claim abandoned
when a plaintiff fails to respond to a defendant’s arguments
that the claim should be dismissed.”).

86780 • CARROLL • APPENDIX D

Al 5/11/21

72a
these reasons, the Court finds that this affirmative
defense cannot bar the relief requested in Plaintiff’s
motion.
With regard to Defendants’ Sixth and Seventh
Affirmative Defenses (release and accord and
satisfaction), “[u]nder New York law, an accord and
satisfaction is the resolution of a disputed, unliquidated
claim through a new contract ‘discharging all of part
of [the parties’] obligations under the original contract,’
and constitutes a complete defense to a claim for
breach of contract.” Carnrite v. Granada Hosp. Grp.,
Inc., 175 F.R.D. 439, 449 (W.D.N.Y. 1997) (quoting
Conboy, McKay, Bachman & Kendall v. Armstrong,
110 A.D.2d 1042, 1042 [N.Y. App. Div. 4th Dep’t 1985]).
Moreover, “[a] release is a provision that intends to
present abandonment of a known right or claim.”
McMahan & Co. v. Bass, 250 A.D.2d 460, 461 (N.Y.
App. Div. 1st Dep’t 1998). Here, neither the Complaint
nor Answer has (even when viewed in context)
plausibly alleged that such release or accord and
satisfaction exist. Moreover, only a federal statute or
treaty can affect tribal land rights. See 25 U.S.C. §
177 (“No purchase, grant, lease, or other conveyance
of lands, or of any title or claim thereto, from any
Indian nation or tribe of Indians, shall be of any
validity in law or equity, unless the same be made by
treaty or convention entered into pursuant to the
Constitution.”); Oneida Indian Nation v. Cty. of
Oneida, 414 U.S. 661, 670 (1974) (“The rudimentary
propositions that Indian title is a matter of federal
law and can be extinguished only with federal
consent apply in all of the States, including the
original 13.”). For all of these reasons, the Court
finds that this affirmative defense cannot bar the
relief requested in Plaintiff’s motion.

86780 • CARROLL • APPENDIX D

Al 5/11/21

73a
With regard to Defendants’ Twelfth Affirmative
Defense (abandonment), “an individual tribal member
has no alienable or inheritable interest in the communal holding,” and “no tribal member can claim a
federal right against the tribe to any specific part of
the tribal property.” 1 Cohen’s Handbook of Federal
Indian Law § 15.02 (2019). Defendants agree that
members of the Oneida Indian Nation have resided
on and possessed the Property since time immemorial.
(Dkt. No. 17, at ¶ 55 [Defs.’ Answer].) Moreover,
Defendants now agree the Orchard Party is not a
separate faction. (Dkt. No. 37, at 25 [attaching page
“19” of Defs.’ Opp’n Mem. of Law].) Finally, as stated
in the preceding paragraph, only a federal statute or
treaty can affect tribal land rights. For all of these
reasons, the Court finds that this affirmative defense
cannot bar the relief requested in Plaintiff’s motion.
With regard to Defendants’ Thirteenth Affirmative
Defense (of failure to state a claim), the Court finds
that Plaintiff’s Complaint states a claim upon which
relief can be granted for all of the reasons stated in
the Court’s Decision and Order of November 15,
2018, and in this Decision and Order. For this reason,
the Court finds that this affirmative defense cannot
bar the relief requested in Plaintiff’s motion.
Finally, with regard to Plaintiff’s Fourteenth
Affirmative Defense (acquiescence and estoppel),
neither the Complaint nor Answer has (even when
viewed in context) plausibly alleged that such
acquiescence or estoppel occurred. Tribal members
cannot acquire a proprietary interest in tribal land
merely by living on it. 1 Cohen’s Handbook of Federal
Indian Law § 15.02 (2019). Moreover, as stated
earlier, only a federal statute or treaty can affect
tribal land rights.

86780 • CARROLL • APPENDIX D

Al 5/11/21

74a
For all of these reasons, the Court finds that this
affirmative defense cannot bar the relief requested in
Plaintiff’s motion.
ACCORDINGLY, it is
ORDERED that Plaintiff’s motion for judgment on
the pleadings (Dkt. No. 32) is GRANTED; and it is
further
DECLARED that neither Defendant Trust nor
Defendant Phillips, as an individual or otherwise,
does not own, or have any property interest in, the
Property; and it is further
DECLARED that the trust document, quitclaim
deed and all related documents filed by Defendant
Phillips in the Oneida County land records are
invalid and void to the extent they concern the
Property; and it is further
ORDERED that Defendants are PERMA NENTLY ENJOINED from doing the following:
(a) claiming the Property for themselves, any
beneficiary of Defendant Trust, or any other
person or entity;
(b) asserting that they or any beneficiary of
Defendant Trust owns or has a property
interest in the Property; and
(c) creating or causing to be created, or filing or
causing to be filed, in land records any document asserting that they, any beneficiary of
Defendant Trust, or any other person or entity
owns or has a property interest in the Property.
Dated: July 31, 2019
Syracuse, NY

86780 • CARROLL • APPENDIX D

Al 5/11/21

75a
/s/ Glenn T. Suddaby
Hon. Glenn T. Suddaby
Chief U.S. District Judge

86780 • CARROLL • APPENDIX D

Al 5/11/21

76a
Appendix E
IN THE UNITED STATES DISTRICT COURT
FOR THE N ORTHERN D ISTRICT OF N EW Y ORK
JUDGMENT IN A CIVIL CASE

__________
Case No.: 5:17-CV-1035 (GTS/ATB)

__________
O NEIDA I NDIAN N ATION
—v.—
M ELVIN L. P HILLIPS , S R ., individually and as
Trustee; and M ELVIN L. P HILLIPS , S R ./
O RCHARD P ARTY T RUST

__________
Decision by Court. This action came to trial or
hearing before the Court. The issues have been
tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED, that Plaintiff’s
motion for judgment on the pleadings (Dkt. No. 32)
is GRANTED; and it is further DECLARED that
neither Defendant Trust nor Defendant Phillips,
as an individual or otherwise, does not own, or
have any property interest in, the Property; and it
is further DECLARED that the trust document,
quitclaim deed and all related documents filed by

86780 • CARROLL • APPENDIX E

AL 5/11/21

77a
Defendant Phillips in the Oneida County land
records are invalid and void to the extent they
concern the Property; and it is further ORDERED
that Defendants are PERMANENTLY ENJOINED
from doing the following: (a) claiming the Property
for themselves, any beneficiary of Defendant Trust,
or any other person or entity; (b) asserting that they
or any beneficiary of Defendant Trust owns or has
a property interest in the Property; and (c) creating
or causing to be created, or filing or causing to be
filed, in land records any document asserting that
they, any beneficiary of Defendant Trust, or any
other person or entity owns or has a property
interest in the Property. This action is CLOSED
pursuant to the Decision and Order issued by the
Honorable Glenn T. Suddaby on July 31, 2019. See
Dkt. No. 43.
DATED: July 31, 2019
/s/ John Domurad
Clerk of Court
[SEAL]
/s/ Shelly Muller
Courtroom Deputy Clerk

86780 • CARROLL • APPENDIX E

AL 5/11/21

78a
Appendix F
UNITED STATES DISTRICT COURT
N ORTHERN D ISTRICT OF N EW Y ORK
NOTICE OF APPEAL

__________
Case No.: 5:17-CV-1035 (GTS/ATB)

__________
O NEIDA I NDIAN N ATION ,
Plaintiff,
—v.—
M ELVIN L. P HILLIPS , S R ., individually and as
trustee, and M ELVIN L. P HILLIPS , S R ./
O RCHARD P ARTY T RUST ,
Defendants.

__________
NOTICE IS HEREBY GIVEN that MELVIN L.
PHILLIPS, SR., and MELVIN L. PHILLIPS,
SR. / ORCHARD PARTY TRUST, Defendants in
the above-named case, hereby appeal to the United
States Court of Appeals for the Second Circuit
from the Final Judgment (Dkt. 44) entered in this
action on July 31, 2019, and all prior orders
adverse to Defendant, including but not limited to
the Order granting Plaintiff’s Motion to Dismiss

86780 • CARROLL • APPENDIX F

AL 5/11/21

79a
Defendants’ Counterclaim (Dkt. 30) dated November
15, 2018, the Order Denying in Part Defendants’
Motion to Strike (insofar as it denied relief sought
by Defendants) (Dkt. 41) dated June 11, 2019, and
the Order granting Plaintiff’s Motion for Judgment
on the Pleadings (Dkt. 43) dated July 31, 2019.
Dated: August 29, 2019
/s/ Claudia L. Tenney
Claudia L. Tenney
(Bar Roll 602210)
28 Robinson Road
Clinton, New York 13323
(315) 794-7788
Attorney for Defendants

86780 • CARROLL • APPENDIX F

AL 5/11/21

80a
CERTIFICATE OF SERVICE
I hereby certify that on August 28, 2019, I
electronically filed the Notice of Appearance with
the United States Court District Court for the
Northern District of New York by using the
CM/ECF system. I certify that the following parties
or their counsel of record are registered as ECF
Filers and that they will be served by the CM/ECF
system:
Oneida Indian Nation
/s/ Claudia L. Tenney
Claudia L. Tenney

86780 • CARROLL • APPENDIX F

AL 5/11/21

81a
Appendix G
UNITED STATES DISTRICT COURT
N ORTHERN D ISTRICT OF N EW Y ORK

__________
Civil Action No.: 5:17-CV-1035 (GTS/ATB)

__________
O NEIDA I NDIAN N ATION
1 Territory Road
Oneida, NY 13421,
Plaintiff,
—v.—
M ELVIN L. P HILLIPS , S R .,
individually and as trustee,
4675 Marble Road
Oneida, NY 13421
and
M ELVIN L. P HILLIPS , S R ./
O RCHARD P ARTY T RUST
c/o Trustee Melvin L. Phillips
4675 Marble Road
Oneida, NY 13421,
Defendants.

__________

86780 • CARROLL • APPENDIX G

AL 5/11/21

82a
COMPLAINT
1. Plaintiff Oneida Indian Nation (“the Nation”)
sues to quiet title to 19.6 acres of Oneida reservation
land that Defendant Melvin L. Phillips, Sr., a Nation
member, has unlawfully claimed for a trust he
created for his and his family’s benefit.
2. The Nation never alienated the 19.6 acres,
which it is entitled to possess by virtue of aboriginal
possession, confirmed by federal treaty. Neither
Phillips nor any other person has ever had a deed to
or ownership of the land. Consequently, Oneida
County property records have never contained a
recorded deed or other ownership document with
respect to the land.
3. Phillips set out to manufacture a deed to
falsely evidence ownership that he did not have. He
created and filed a quitclaim deed purporting to
quitclaim his “rights” in the 19.6 acres (a) from
himself (b) to himself as trustee of the trust he had
created. This “conveyance” was a sham and a fraud.
4. Phillips has tried to defend his conduct by
falsely claiming that the 19.6 acres belongs to a
breakaway Oneida tribe (Marble Hill Oneida or
Orchard Party) and that he is the tribal head holding
the land for his tribe. The United States and this
Court have rejected Phillips’ false claims that there
is a separate Oneida tribe that he leads. Moreover,
under the trust Phillips created, Phillips actually
holds the 19.6 acres for his and his family’s personal
benefit.

86780 • CARROLL • APPENDIX G

AL 5/11/21

83a
Jurisdiction and Venue
5. 28 U.S.C. §§ 1331 & 1362 establish subject
matter jurisdiction. The Nation is an Indian tribe
with a governing body duly recognized by the
Secretary of the Interior. This action and the matter
in controversy arise under the Constitution (Indian
Commerce Clause and Supremacy Clause), a statute
(Nonintercourse Act), the treaties (Treaty of
Canandaigua) and the common law of the United
States – which protect the Nation’s right to possess
the 19.6 acres.
6. This district is an appropriate venue pursuant
to 28 U.S.C. § 1391(b)(1)-(2). All defendants reside in
it and are New York residents. The events giving rise
to the Nation’s claim occurred in this district. The
property that is the subject of this action is situated
in this district.
Parties
7. The Nation is a federally recognized tribe. 82
Fed. Reg. 4915 (Jan. 17, 2017) (recognizing the
Oneida Nation of New York, now known as the
Oneida Indian Nation).
8. Phillips is a Nation member and is sued
individually and as the self-appointed trustee of the
Melvin L. Phillips, Sr./Orchard Party Trust, which
also is a defendant.
Facts
A. The 19.6 Acres of Land the Nation Seeks
to Protect
9. Prior to European contact, the Oneida Nation
possessed vast aboriginal lands to which it held

86780 • CARROLL • APPENDIX G

AL 5/11/21

84a
Indian title (also called aboriginal title), which is a
tribal right of possession. The nature of that title is
described in Oneida Indian Nation v. County of
Oneida, 414 U.S. 661, 667 & 670 (1974), and in
County of Oneida v. Oneida Indian Nation, 470 U.S.
226, 233-36 (1985).
10. Under the Constitution, Indian relations,
including with respect to tribal lands, became the
province of federal law. County of Oneida v. Oneida
Indian Nation, 470 U.S. at 234. Beginning in 1790,
the United States adopted versions of the Nonintercourse Act, codified today at 25 U.S.C. § 177, which
requires federal approval of transfers of tribal land.
Id. at 231-32.
11. In 1794, the United States recognized about
300,000 acres of Oneida Nation aboriginal lands as
the Oneida reservation. Treaty of Canandaigua, 7
Stat. 44 (Nov. 11, 1794); County of Oneida v. Oneida
Indian Nation, 470 U.S. at 231. The 19.6 acres of
land at issue in this action are part of that Oneida
reservation. The land is located on Marble Road,
somewhat south of Indiantown Road, within the
Town of Vernon in Oneida County. The land, with an
incorrect acreage designation, is reflected on the
Town’s tax rolls as parcel 332.000-1-16.
12. After 1794, the State of New York attempted
to obtain most of the Oneida reservation, but the
State never attempted to obtain the 19.6 acres. The
Nation never conveyed the land, and so the Oneida
County property records contain no deed for this
land.
13. The United States has not extinguished the
Indian title to or interrupted the Nation’s possession
of the 19.6 acres. Nor has the United States withdrawn

86780 • CARROLL • APPENDIX G

AL 5/11/21

85a
the land from the Oneida reservation. See Oneida
Indian Nation v. Madison County, 665 F.3d 408, 443-44
(2d Cir. 2011) (Oneida reservation not disestablished).
B. June 25, 1842 Treaty with the State of
New York
14. By a June 25, 1842 treaty, the State of New
York obtained a part of the Oneida reservation,
paying certain Oneida members described as “the
Orchard Party of the Oneida Indians residing in the
town of Vernon county of Oneida.” The treaty is
attached to this complaint as Exhibit A. (The validity
of the 1842 treaty under federal law is disputed but
is of no relevance in this action, which concerns land
that was not sold in that treaty.)
15. Before making the treaty, the State of New
York surveyed a part of the reservation. The survey
map, attached to this complaint as Exhibit B, depicts
lots numbered as 1, 2, 3, and 4, and also depicts some
surrounding land.
16. The 19.6 acres that are the subject of this
action are wholly within Lot 3. The treaty did not
attempt to convey away Lot 3, instead listing the
names of Oneida who intended to continue to live on
Lot 3.
17. The United States recognizes the 19.6 acres as
a part of the reservation that was not conveyed in the
June 25, 1842 treaty. Attached as Exhibit C to this
complaint is a Bureau of Land Management map,
filed by the United States in Oneida land claim
litigation, depicting the land within the reservation
that the State sought to obtain. The June 25, 1842
treaty transaction is depicted as number 27. The
white rectangle within number 27 represents Lot 3,

86780 • CARROLL • APPENDIX G

AL 5/11/21

86a
depicting it as not sold under the treaty’s terms. The
19.6 acres are within the white space that represents
Lot 3.
18. A comprehensive 2013 settlement agreement
made by the State of New York, Madison County,
Oneida County, and the Nation provides that Lot 3 –
referred to in the agreement as the “Marble Hill
tract” – was reserved from the 1842 sale, is “Nation
Land” located within the Oneida reservation, is
subject to Nation governance, and is not subject to
state or local taxation or regulation. See Settlement
Agreement (attached to this complaint as Exhibit D),
at §§ II.G, II.L, V.E.2 & VI.C.1. New York law
provides that the settlement agreement’s terms
prevail over any inconsistent state law or regulation.
N.Y. Indian Law § 16. This Court approved the
settlement, incorporated it into a judgment, and
retained enforcement jurisdiction. New York v.
Jewell, 2014 U.S. Dist. Lexis 27042 (N.D.N.Y. 2014).
C. T h e N a t i o n ’ s M e m b e r s L i v i n g i n t h e
Vicinity of the 19.6 Acres on Marble Hill
19. The land in the vicinity of the 19.6 acres
became known as the Orchard or as Marble Hill.
Nation members always have lived in the Marble Hill
area.
20. Nearby Nation land also remained in Nation
possession and came to be known as the Windfall or
the thirty-two acres. It was protected from fore closure by the United States in United States v.
Boylan, 256 F. 468 (N.D.N.Y. 1919), aff’d, 265 F. 165
(2d Cir. 1920).
21. Historically, state and federal documents have
described the two Nation settlements, one in the

86780 • CARROLL • APPENDIX G

AL 5/11/21

87a
vicinity of Marble Hill and another in the vicinity of
the thirty-two acres.
22. The Nation’s Marble Hill members in good
standing receive Nation services and benefits
(including health benefits and quarterly payments)
and participate in Nation government. Phillips’
nephew is in the Nation’s government – a member of
the Nation’s Council. The Nation has used its own
governmental funds, as well as funds obtained by it
through a federal grant, to provide water lines to its
Marble Hill members.
23. The United States recognizes one Oneida
Indian Nation in New York, which includes members
who reside in the vicinity of Marble Hill.
a. In 1936, the Secretary of the Interior conducted a vote of Nation members to
determine whether the Nation wished to
reorganize under the federal Indian
Reorganization Act, including in that vote
the Nation’s members residing in the
vicinity of Marble Hill.
b. In a February 25, 1976 letter from William
Seneca, the Acting Eastern Area Director of
the Bureau of Indian Affairs, noted that the
Nation has two clerks, one located at Marble
Hill and another at the thirty-two acres.
c. In making decisions in the 1980s and 1990s
concerning federal recognition of Nation
leadership, the Department of the Interior
took votes of and received statements of
support from all Nation members, including
those residing in the vicinity of Marble Hill.

86780 • CARROLL • APPENDIX G

AL 5/11/21

88a
d. The Department of the Interior publishes a
list of federally recognized tribes, and no
Marble Hill/Orchard Party tribe is on the
list. 82 Fed. Reg. 4915 (Jan. 17, 2017).
24. Phillips has admitted membership in the
Oneida Indian Nation. In 1993, he signed a statement
asking the Department of the Interior to recognize
Ray Halbritter as Nation Representative, asserting:
“I am an enrolled member of the Oneida Indian
Nation of New York.” Phillips also filed suit claiming
to represent the Nation and to have been deprived of
his rights as a member of the Nation. Shenandoah v.
Dep’t of the Interior, 159 F.3d 708 (2d Cir. 1998).
D. Prior Rejections of Phillips’ Erroneous
Claim to Head a Separate Marble Hill
Oneida Tribe
25. When it has suited him, Phillips also has
asserted (a) that the Marble Hill Oneidas are a
separate tribe and (b) that he represents it. Both
assertions are untrue.
26. The Department of the Interior has rejected
Phillips’ assertions:
a. Assistant Secretary of the Interior for
Indian Affairs Ada Deer wrote in an August
22, 1994 letter to Keith M. J. Reitz: “The
Department does not recognize subgroups
of these tribes, such as the Oneida living at
Marble Hill . . . as separate tribal entities.
The United States considers these groups to
be part of one Oneida Nation.”
b. In 2013, the Department of the Interior
rejected the argument that Marble Hill

86780 • CARROLL • APPENDIX G

AL 5/11/21

89a
Oneidas are a separate tribe and reaffirmed
that the Oneida Indian Nation is “a single
tribe” that includes its Marble Hill members.
Amendment to the May 20, 2008 Record of
Decision, at 25-26 n.171 (Dec. 23, 2013)
(regard ing grant of Nation trust land
request).
27. The Department of Justice has rejected
Phillips’ assertions:
a. “[T]he members of the Marble Hill are all
members of the New York Oneida Nation.
. . .” U.S. Memorandum of Law in
Opposition to Marble Hill Oneida Indians’
Motion to Intervene, Doc. 343, No. 5:74-cv00187 (N.D.N.Y. Feb. 15, 2002).
b. “Mr. Phillips alleges that he is the leader of
an independent tribe of Oneida Indians
called the Marble Hill Oneidas. . . . However,
the Marble Hill Oneidas are not a federallyrecognized tribe. . . .” U.S. Reply in Support
of Motion for Partial Dism., Doc. 52, No.
6:08-cv-00660 (N.D.N.Y. 2009).
28. This Court has rejected Phillips’ assertions:
a. Oneida Indian Nation v. County of Oneida,
5:70-cv-00035, June 17, 1979 Order at 4
(N.D.N.Y) (denying Marble Hill Oneida
intervention in Oneida land claim litigation
because they complained of “internal problems of governance” and were not separate
tribe); see Oneida Indian Nation v. Clark,
593 F. Supp. 257, 259 (N.D.N.Y. 1984)
(noting that a Marble Hill Oneida leader
signed sworn statement declaring that the

86780 • CARROLL • APPENDIX G

AL 5/11/21

90a
Marble Hill Oneidas “have always been a
part of the Oneida Nation”).
b. Oneida Indian Nation v. New York, 194 F.
Supp.2d 104, 115 (N.D.N.Y. 2002) (ruling
that Marble Hill Oneidas were not an
indispensable party in Oneida land claim
litigation because “[t]he Marble Hill Oneidas
are official members of the Oneida Indian
Nation of New York” and “are fully represented by the tribe of which they are a
member”).
c. Oneida Indian Nation v. State of New York,
5:74-cv-00187 (LEK/DRH), Doc. 388, May
22, 2002 Order at 2-3 (N.D.N.Y) (denying
intervention in land claim case because,
“[w]hile Marble Hill Oneidas claim to be a
tribal community separate from the New
York Oneida, it is clear from their affidavits
that they are in fact part of the New York
Oneida Nation,” and concluding “that the
Marble Hill Oneida’s claim to a tribal status
independent of the New York Oneida is
simply not reliable”), aff’d, Marble Hill
Oneida Indians v. Oneida Indian Nation,
No. 02-6171, 2003 U.S. App. Lexis 6841
(April 8, 2003) (ruling that Marble Hill
Oneidas were represented by the Nation
held not to be an abuse of discretion).
E. Phillips’ Trust and Recorded Quitclaim
Deed
29. Phillips signed a September 1, 2015 trust
instrument, titled “Melvin L. Phillips, Sr./Orchard
Party Trust Declaration.” In the trust declaration,

86780 • CARROLL • APPENDIX G

AL 5/11/21

91a
attached to this complaint as Exhibit E, Phillips
named himself as grantor of the 19.6 acres and as
sole trustee of the trust.
30. The trust declaration recites that Phillips
“hereby conveys to the Trustee [meaning Phillips
himself] (by deed recorded in the Oneida County
Clerk’s Office) certain real property as more particularly and specifically described on the attached
Schedule A . . .” (Bracketed text added; parenthetical
text original). The deed and all exhibits to the deed,
which include Schedule A and Phillips’ trust
declaration, are attached to this complaint as Exhibit
E.
31. Schedule A describes the four parcels. The
parcel listed in Schedule A as “Parcel IV” is the 19.6
acres and the access road/driveway that leads to it
from Marble Road (hereafter collectively “the 19.6
acres”). That land is highlighted in yellow on a map
attached by Phillips to his deed and labeled as
Exhibit 9 by Phillips (included within Exhibit E to
this complaint). On the map, the 19.6 acre-parcel is
labeled as Lot 3 and is shown to contain 19.6 acres.
32. Although Phillips’ quitclaim deed purports to
be a conveyance of interests in the 19.6 acres from
“Melvin L. Phillips, Sr.” to the trust, Phillips does not
claim ownership of the land. Instead, Phillips falsely
asserts in the papers filed with the deed that the 19.6
acres are “tribal lands belonging to the Oneida
Nation/Orchard Hill Party,” that he is the leader of
that tribe, and that the lands were “under the
stewardship of Melvin L. Phillips, Sr.”
33. The “dispositive provisions” in paragraph 4 of
the trust declaration conflict, however, with Phillips’
false assertions. The “dispositive provisions” effectively

86780 • CARROLL • APPENDIX G

AL 5/11/21

92a
give the 19.6 acres to Phillips and his children and
take the land away from the Nation and its members,
including those residing near Marble Hill, providing:
a. “For so long as Melvin L. Phillips, Sr. is living, he shall have the absolute and unfettered
right to live upon[,] occupy, possess and use
the lands. . . .”
b. When Phillips dies, the 19.6 acres is then
for the benefit of “his lineal descendants who
live thereon or who use the lands” for a listed
purpose – with Phillips’ son Daniel Mark
Phillips as the successor trustee, followed
by “any other direct lineal descendant of
Melvin L. Phillips, Sr.”
c. Betraying an awareness that the trust could
be declared invalid, Phillips also provided in
paragraph 4 that he and one of his children
or grandchildren may terminate the trust if
“government action threatens . . . to impair”
the trust. In that event, Phillips may “distribute the corpus as he in his sole and absolute
discretion deems proper and appropriate” –
presumably permitting Phillips as trustee
to deed the land to himself or his children.
Claim
34. The Nation has a right to possess the 19.6 acres,
a right arising from and protected against infringement by federal treaty, statutory and common law,
and by the Constitution.
35. The Nation never alienated the 19.6 acres to
any person or entity.

86780 • CARROLL • APPENDIX G

AL 5/11/21

93a
36. Phillips has never possessed a beneficial or
legal interest in the 19.6 acres.
37. Phillips did not have a right to convey the 19.6
acres to a trust, and the United States never approved
that transaction as required by 25 U.S.C. § 177 and
federal common law.
38. Phillips’ execution and recording of the trust
declaration, quitclaim deed and other documents in
county land records was an unlawful attempt to
obtain possess and control the 19.6 acres for his and
his family’s benefit.
39. Phillips’ conduct has been and is in violation of
federal law and of the Nation’s federally protected
possessory and other rights in the 19.6 acres and
thus – like the trust, the quitclaim deed and the
other documents filed in the county land records –
that conduct has been and is unlawful and thus
invalid and void.
Prayer for Relief
WHEREFORE, the Oneida Indian Nation prays for
entry of judgment in its favor and against Melvin L.
Phillips, individually and in his capacity as trustee,
and against the Melvin L. Phillips, Sr./Orchard Party
Trust:
a. Declaring that neither the trust nor Phillips, as
an individual or otherwise, owns or has any
property interest in the 19.6 acres;
b. Declaring that the trust document, the quitclaim deed and all related documents filed by
Phillips in the Oneida County land records are
invalid and void so far as they concern the 19.6
acres;

86780 • CARROLL • APPENDIX G

AL 5/11/21

94a
c. Enjoining Phillips and the trust (i) not to claim
the 19.6 acres for themselves, any beneficiary of
the trust or any other person or entity, (ii) not to
assert that Phillips, the trust, or any trust
beneficiary owns or has a property interest in
the 19.6 acres, and (iii) not to create or cause to
be created, or filed or cause to be filed, in land
records any document asserting that Phillips,
the trust, any trust beneficiary or any other
person or entity owns or has a property interest
in the 19.6 acres; and
d. Granting such other relief as the Nation may be
entitled to at law or in equity.
Respectfully submitted,
/s/ Michael R. Smith
Michael R. Smith
ZUCKERMAN SPAEDER LLP
1800 M Street NW
Washington DC 20036
(202) 778-1800
msmith@zuckerman.com
and
/s/ Meghan Murphy Beakman
Meghan Murphy Beakman
ONEIDA INDIAN NATION
5218 Patrick Road
Verona, NY 13478
(315) 361-8687
mmbeakman@oneida-nation.org
Attorneys for Plaintiff Oneida Indian Nation
Dated: September 18, 2017

86780 • CARROLL • APPENDIX G

AL 5/11/21

95a
Appendix H
1842 TREATY OF ORCHARD PARTY
WITH NEW YORK STATE
A Treaty made June 25, 1842 with the
Orchard Party of the Oneida Indians. Not in
Whipple Report. Typewritten copy prepared
by Cravath. (ICC# 36).
A Treaty Between the Orchard Party of the
Oneida Indians residing in the town of Vernon
county of Oneida and State of New York
constituting party of this first part and the people
of the State of New York by their lawful agents the
Commissioners of the Land Office being party of
the second part Witnesseth as follows to wit:
Article 1. The above named party of the first
part for and in consideration of the agreement
hereinafter contained on the part of the party of
the second part and the receipt of the sum of
money hereinafter mentioned to be paid Do hereby
grant, bargain, sell, cede and surrender to the
people of the State of New York all the right, title,
estate and interest in and to all that part of their
reservation known and distinguished as Lots
Number One, Two and Four containing in the
aggregate one hundred fourteen 24/100 acres in
Nathan Burchards Survey and located in the town
of Vernon county of Oneida and State aforesaid,
and the return of said survey, a map of the Lots so
surveyed and a field book copies of which are
hereafter to be filed in the offices of the Surveyor
general and the Secretary shall be deemed the
description of metes and bounds of the lands so
ceded and surrendered to the people.

86780 • CARROLL • APPENDIX H [FOLLOWED BY IMAGES]

AL 5/11/21

96a
Article 2. The commissioners of the Land Office
will cause the lands hereby ceded and subdivided
to be sold as rapidly as will secure the best price
for the same; and will cause a regular account of
the expenses of such survey and of the expenses
incurred in the negotiation, conclusion and
execution of this treaty to be kept, and it is hereby
stipulated and agreed the people of the said State
will hold and retain the avails of all such sales in
trust to be applied to the following purposes.
First. To the repayment of all advances made by
the said people on account of the cession of said
lands with interest thereon at the rate of six
percent per annum.
Second. To the repayment of all expenses in the
survey, description and partition of the lands
which are the subject of this Treaty, and of all the
expenses in the negotiation.
Third. To pay the residue of the said avails with
all the interest thereon to the Chiefs, Headmen
and Individuals of the said emigrating party
whenever the people of the State shall receive such
avails from the purchasers thereof.
Article 3. The said party of the first part do
bargain and agree with the said party of the
second part to leave and surrender the lands ceded
by said Treaty immediately after the date thereof
and those enrolled on the attested list annexed to
the Treaty and marked B shall emigrate and leave
the State of New York immediately on the receipt
of the first payment.
Article 4. It is hereby stipulated and agreed that
such of the Orchard Party as are enrolled on the

86780 • CARROLL • APPENDIX H [FOLLOWED BY IMAGES]

AL 5/11/21

97a
attested list marked B do hereby release quit claim
and forever release to the said Indians who are
enrolled on the attested list marked A and to those
who may succeed them in their right all right,
title, claim and demand whatsoever in and to the
remainder of said reserved lands known and
distinguished on the map field book of Nathan
Burchard as Lot Number three, containing
Seventy six 16/100 acres of land which lands so
reserved for such of the Orchard Party as intending to remain in the State is to be had, held,
enjoyed and occupied by them collectively in the
same manner and with the same right, title and
interest therein as appertained to them, the party
so remaining before the execution of this treaty.
Article 5. The improvements upon all parts of
the lands ceded by this treaty having been
appraised and the value thereof estimated by
Nathan Burchard in which appraisement the
parties of the first part do all concur. And the said
Nathan Burchard shall deliver such appraisement,
together with the returns of said survey and the
maps of the lots so surveyed and a field book
thereof sworn and subscribed by him copies thereof
to the Surveyor General and the Secretary of State
which appraised value shall be paid to each and
every individual respectively to which the appraised
value of said improvements belong when they shall
finally migrate out of this State, and the value of
said improvements shall not be estimated in the
amounts herein before agreed to be paid to any
party or parties of the said Oneida Indians as their
portion of the avails of the said ceded lands.
Article 6. It is hereby further stipulated and
agreed by and between the respective parties to

86780 • CARROLL • APPENDIX H [FOLLOWED BY IMAGES]

AL 5/11/21

98a
this treaty that the whole number of souls enrolled
on the attested list annexed hereto included in
document marked B shall not be affected by any
further variations by reason of births, deaths, or
otherwise from what they now appear on the said
attested list.
Article 7. It is hereby further stipulated and
agreed that Nathan Burchard, Attorney for the
Oneida Indians or Jacob Cornelius, one of the
chiefs of the Orchard Party residing at Green Bay
in the Territory of Wisconsin be and both or either
of them are hereby authorized and empowered to
alter or modify any article in this treaty provided
the same be suggested by the Commissioners of
the law office on the execution of this State and
each alteration or modification shall forever be
binding and obligating on the respective parties to
this treaty.
Article 8. This treaty shall be executed in
duplicate or a certificate copy thereof shall be
made by the Secretary of the State if negotiated by
the party of the first part with the advise and
assistance of Nathan Burchard, Attorney as
aforesaid and Jacob Cornelius, Chief of the
Orchard Party as aforesaid, who will certifythat
the same has been carefully explained and understood by them, the said Indians, such execution to
take effect when the same shall also be executed
by the Commissioners of the Land office of the
State of New York, or a majority of them and when
the same shall be approved by the governor of the
said State to be signified by his approbation
endorsed thereon.
In Testimony whereof the said Chiefs and
Headmen and warriors of the party of the first

86780 • CARROLL • APPENDIX H [FOLLOWED BY IMAGES]

AL 5/11/21

99a
part have hereunto set their hands and seals in
token of their consent to this treaty and the
approbation of the whole tribe.
And the Commissioners of the Land office have
also hereto subscribed their names and on behalf
of the People of said State and by direction of the
governor, they have caused the great seal of the
State of New York to be hereto affixed. This done
and executed in the year of our Lord one thousand
eight hundred and forty two on the twenty fifth
day of June in that year.
William Cornelius Chief
his mark

Henry Christian
his mark

Moses Cornelius
his mark

James Christian
his mark

William Johnson
his mark

Mary Christian
her mark

Susannah Cornelius
her mark

Moses Day
his mark

David Johnson
his mark

Dolly Cornelius
her mark

Baptiste Cornelius
his mark

Abram Antone
his mark

Henry Antone
his mark
Signed, Sealed by the Chiefs and Warriors of the
Orchard Party of the Oneida Indians whose names
are subscribed in our presence and we certify that
the contents of this treaty were carefully explained
to them and the other members of the said party in
full council and where, [sic] fully understood by

86780 • CARROLL • APPENDIX H [FOLLOWED BY IMAGES]

AL 5/11/21

100a
them June 25, 1842, Nathan Burchard, Norton
Gellemill, Emmon Dorenz.
S. Young Secretary of State
Geo. T. Barker Atty. Genl.
Nathaniel Jones Survey. Gen.
A.C. Flagg, Comptroller

}

Comissioners
of the
Land Office

Signed by the commissioners of the Land Office
in the presence of Arch. Campbell.
The foregoing Treaty is approved of and ratified
this first day of July in the year of our Lord one
thousand eight hundred and forty two and the
great seal of the State is hereunto affixed.
William H. Seward (LS)
Examined and Compared with the Original by
Arch. Campbell
Dep. Sec. of State

86780 • CARROLL • APPENDIX H [FOLLOWED BY IMAGES]

AL 5/11/21

101a
Document A
Referred to in the foregoing treaty contains an
accurate list of all those of the Orchard Party who
intend to remain on Lot number three named in
said Treaty known as the Home party of the
Orchard Indians the names and members of the
home party.
William Johnson Chief
Elizabeth Johnson
Hannah Johnson
Jimmy Johnson
Caty Johnson
David Johnson

}

Margaret John
Dolly John
Thomas John
Caty John
Eve John

}
}

Moses Day
Susan Day
Margret Day
Sally Day
Baptist Day

6

5
11 souls

5
16 souls

Oneida County ss.
We hereby certify that documents A and B
contain an accurate list of all those of the
emigrating and home party of the Orchard Party of
the Oneida Indians and that the same were made
by us in full council with the consent and
approbation of the whole of the Orchard Party of
the Oneida Indians.

86780 • CARROLL • APPENDIX H [FOLLOWED BY IMAGES]

AL 5/11/21

102a
Moses Day
his mark

William Cornelius
his mark

Moses Cornelius
his mark

William Johnson
his mark

Henry Cornelius
his mark

David Johnson
his mark

In presence of Nathan Burchard
Jacob Cornelius
Joseph Cornelius

86780 • CARROLL • APPENDIX H [FOLLOWED BY IMAGES]

AL 5/11/21

103a
Document B
Referred to in the above treaty contains an
accurate list of all those Indians who are of the
Orchard Party who intend to emigrate pursuant to
the above treaty.
The names of the Emigrants,
William Cornelius
Electa Cornelius
Moses Cornelius
Elizabeth Cornelius
Mary Cornelius
Susannah Cornelius
Solomon Cornelius
Dolly Cornelius
Joanne Cornelius
Nelly Cornelius

}

10 souls

Mary Cornelius
Henry Cornelius
James Cornelius
Mary Ann Cornelius
Margaret Johnson
Hannah Johnson
Pete Johnson
Jacob Johnson

}

8 souls

Dolly Cornelius
Baptist Cornelius
Elizabeth Cornelius
Jenny Cornelius
Nicholas Cornelius
John Cornelius

}

6 souls
-24 souls

Examined and compared with the originals by
Arch. Campbell
Dep. Sec. of State

86780 • CARROLL • APPENDIX H [FOLLOWED BY IMAGES]

AL 5/11/21

104a

Copy of Original
1842 Treaty of Orchard Party
With New York State
on pages 104a to 110a
in 8.5 by 11 inch section

86780 • CARROLL • APPENDIX H

AL 5/18/21

111a
Appendix I

Copy of Original
1842 Map of Purchase from Orchard Party
on page 111a
in 8.5 by 11 inch section

86780 • CARROLL • APPENDIX I

AL 5/18/21

112a
Appendix J

Map of the Oneida Land Sales
on page 112a
in 8.5 by 11 inch section

86780 • CARROLL • APPENDIX J

AL 5/19/21

113a
Appendix K
SETTLEMENT AGREEMENT
BY
THE ONEIDA NATION
THE STATE OF NEW YORK
THE COUNTY OF MADISON
&
THE COUNTY OF ONEIDA
I.

PREAMBLE

WHEREAS the Oneida Nation, the State of New
York, Madison County and Oneida County are
committed to protecting and promoting the
environment, health, safety and welfare of all of
their people, to protecting and strengthening the
social fabric of Central New York, and to developing the entire regional economy;
WHEREAS long-standing disputes between the
Oneida Nation and the State of New York,
Madison County and Oneida County, have
generated litigation in state and federal courts
regarding property and other taxation, the status
of Nation lands and transfer of such lands to the
United States to be held in trust for the Oneida
Nation;
WHEREAS the Oneida Nation, the State of New
York, Madison County and Oneida County
recognize that existing disputes and litigation are
costly and disruptive and desire to foster intergovernmental cooperation and joint effort that will
permit them and their peoples to move forward in a
way that can improve lives in the whole of Central
New York;

86780 • CARROLL • APPENDIX K

AL 5/19/21

114a
NOW, THEREFORE, the Oneida Nation, the
State of New York, Madison County and Oneida
County for themselves, related parties and agencies,
and their successors in interest and assigns, do
hereby resolve all outstanding disputes by entering into this Agreement.
II. GENERAL DEFINITIONS
The following definitions apply to terms used in
this Agreement:
A. “Boylan tract” means the 32 acre (more or
less) of state tax-exempt land held to be
tribal land retained by the Oneida Nation in
Boylan v. United States, 256 F.165 (2d Cir.
1920).
B. “Casino Gaming” means the types of gaming activities referenced in the Indian Gaming
Regulatory Act, 25 U.S.C. § 2703(7), as Class
III gaming activity, except that Casino Gaming shall not include: (i) charitable gaming
conducted pursuant to N.Y. Const. art. I, §
9, cl. 2; (ii) pari-mutuel wagering on horse
racing conducted pursuant to N.Y. Const.
art. I, § 9, cl. 1; or (iii) the state lottery
conducted pursuant to N.Y. Const. art. 1,§
9, cl. 1. The foregoing exception for the state
lottery shall not include Video Lottery
Gaming Devices or Gaming Devices. For
the purposes of this Agreement, the use of
the term Class III gaming activities refers
to types of gaming activities, and it shall
not matter whether or not such gaming
activities are conducted by an Indian or an
Indian tribe, within or outside of Indian

86780 • CARROLL • APPENDIX K

AL 5/19/21

115a
country or under IGRA or on some other
basis.
C. “Counties” means Madison County and
Oneida County collectively, or Oneida County
or Madison County individually, as shall be
determined by the usage of such terms in
this agreement, and all officers and officials
of each County and their respective successors in interest and assigns, both individually
and collectively.
D. “Effective Date” means the date on which
the United States District Court for the
Northern District of New York enters an
order in State of New York, et al. v. Salazar,
et al., 6:08-cv-644 (LEK), approving this
Agreement and dismissing that litigation
as provided in Section VI(A)(1)(a) of this
Agreement.
E. “Gaming Device” means Slot Machines,
Video Lottery Gaming Devices and Instant
Multi-Games.
F. “Instant Multi-Game” means the game
and specifications referred to in the letter
and attachment from the N.Y.S. Racing &
Wagering Board Chairman to the Oneida
Nation Representative dated November 23,
1994.
G. “Marble Hill tract” means the 104 acres
(more or less) of state tax-exempt land
retained by the Oneida Nation as Lots 2 and
3 in the June 25, 1842 Orchard Party
treaty.

86780 • CARROLL • APPENDIX K

AL 5/19/21

116a
H. “Master Settlement Agreement” means
the settlement agreement (and related
documents) entered into November 23, 1998
by the State and leading United States
tobacco product manufacturers.
I. “Material Breach” means a violation by
the State, the Counties or the Nation of a
provision in Sections III(A), IV, V or VI(A),
(B) and (C)(1), (3), and (7), and VII(A).
J. “Nation” means the Oneida Nation of New
York, a federally-recognized, sovereign
Indian Nation, 77 Fed. Reg. 47,868, 47,870
(August 10, 2012), all officers of the Nation,
all instrumentalities of the Nation, and
their respective successors in interest and
assigns, both individually and collectively.
K. “Nation Compact” means the gaming
compact (including its appendices) entered
into by the State on April 16, 1993 and
approved by the United States Department
of the Interior on June 4, 1993, which
approval was published at 58 Fed. Reg.
33160 (June 15, 1993), as has been or may
be amended from time to time (“Oneida
compact,” “compact” and “gaming compact”).
L. “Nation Land” means land possessed by
the Nation within the exterior boundaries
of the Reservation and that (i) is the 32-acre
(more or less) Boylan tract, (ii) is the 104acre (more or less) Marble Hill tract, (iii)
that is held in trust by the United States or
any of its agencies for the benefit of the
Nation or (iv) Reacquired Land that is
within the Cap as defined in Section

86780 • CARROLL • APPENDIX K

AL 5/19/21

117a
VI(B)(4) of this Agreement. Reacquired Land
that exceeds the Cap defined in Section
VI(B)(4) of this Agreement is not Nation
Land as that term is defined herein.
M. “Nation Payment” means the quarterly
amount of money due under Section III(A)
of this Agreement.
N. “Net Win” means the amounts wagered on
Gaming Devices less the payout from
Gaming Devices, but before expenses, to be
calculated on a quarterly basis. As used in
this definition of Net Win, the term “free
play” refers to any dollar amounts that may
be used by a player to play a Gaming Device
without paying any other consideration.
Free play used by the Nation in an amount
not to exceed ten percent of the total
quarterly net win from gaming devices shall
be subtracted from the calculation of Net
Win. In the event that the free play allowance for video lottery gaming in Section
1617-a of the Tax Law is increased, the free
play allowance for the Nation shall be
similarly increased.
O. “Parties” means the State, the Nation, and
the Counties, as defined herein; each of
them individually is a “Party.”
P. “Reacquired Land” means all land
possessed by the Nation, except that
Reacquired Land does not include the 32acre (more or less) Boylan tract, the 104acre (more or less) Marble Hill tract, or
excess federal land that has been or will be
transferred to the Department of the

86780 • CARROLL • APPENDIX K

AL 5/19/21

118a
Interior pursuant to 40 U.S.C. § 523 to be
held in trust for the Nation.
Q. “Reservation”, as used in this Agreement,
means the land within Madison and Oneida
County acknowledged as the reservation of
the Oneida Nation in Article II of the Treaty
of Canandaigua, 7 Stat. 44 (1794), as
depicted on the map attached as Exhibit I.
R. “Slot Machine” shall mean a video facsimile or slot machine which means any
mechanical, electrical or other device, contrivance or machine, which upon insertion
of a coin, currency, token or similar object
therein, or upon payment of any consideration whatsoever, is available to play or
operate, the play or operation of which,
whether by reason of the skill of the operator
or application of the element of chance or
both, may deliver or entitle the person
playing or operating the machine to receive
cash or tokens to be exchanged for cash or
to receive any merchandise or thing of value,
whether the payoff is made automatically
from the machine or in any other manner
whatsoever, and where the outcome of each
iteration of play or operation of the machine
is determined at the time of play or operation, whether through the operation of an
on-board random number generator in the
machine itself or by a central determinant
system which employs a random number
generator. A video facsimile or slot machine
that meets this definition of Slot Machine
shall be considered a Slot Machine for purposes of this Compact, regardless of whether

86780 • CARROLL • APPENDIX K

AL 5/19/21

119a
it is connected to an on-line system, which
system performs monitoring, accounting or
other functions, or determines the outcome
of play or operation or transmits the
outcome of play or operation to the machine
from a central determinant system.
S. “State” means the State of New York, the
Governor of the State, all departments or
agencies of the State, all authorities established under the authority of the State, and
their respective successors in interest and
assigns, both individually and collectively.
T. “Video Lottery Gaming Devices” shall
mean individual player terminals, with
touch-screen, button-controlled video screen
or other electronic display devices, including but not limited to single or multi-stage
displays, secondary electronically-controlled
displays such as wheels, dice or other
displays, which are connected to a central
determinant system that delivers to each
individual player terminal an outcome,
determined in advance of each iteration of
game play, from a finite, randomly created
pool of outcomes and thereby allows multiple
players to compete for such outcomes. The
Video Lottery Gaming Devices shall not eject
nor otherwise dispense coins or currency
and may perform the following functions
related to the game:
a. Accepts currency, other representative of
value or a cashless activation card qualifying the player to participate in one or
more games;

86780 • CARROLL • APPENDIX K

AL 5/19/21

120a
b. Provides players with the ability to choose,
or have the video lottery gaming devices
automatically choose for them, combinations of numbers, colors and/or symbols;
c. Electronically displays, if applicable, the
game identifier and the player choices;
d. Prints and dispenses a redemption ticket,
or otherwise provides a representation of
the value of player winnings in a manner
consistent with the technical standards of
the Nation Compact, when the player
activates the cash- out function;
e. Displays game information such as credit
balance and other information as required
or permitted in the technical standards of
the Nation Compact;
f. Displays, for verification purposes only, the
outcome of the game, but does not determine
that outcome; and
g. Performs security functions necessary to
maintain the integrity of the operation of
the gaming device, as provided in the
technical standards of the Nation Compact.
III. NATION PAYMENT
A. Amount. In consideration of all the undertakings by the State and Counties herein, the
Nation agrees to pay to the State: (i) as the Nation
Payment, twenty-five percent (25%) of any Net Win
(as defined in Section II(N) of this Agreement) with
respect to Gaming Devices operated by or on behalf
of the Nation, and (ii) a one-time payment in the
amount of eleven million dollars ($11,000,000.00).

86780 • CARROLL • APPENDIX K

AL 5/19/21

121a
B. Distribution of Nation Payment. Annually,
the State shall make twenty-five percent (25%) of
the Nation Payment available to the County of
Oneida. Additionally, from the Nation Payment,
during the term of this agreement, the State shall
annually allocate (i) a sum of three and one-half
million dollars ($3,500,000.00) to the County of
Madison and (ii) for a period of nineteen and onequarter years, a sum of two and one-half million
dollars ($2,500,000.00) to the County of Oneida.
Additionally, the State shall distribute the onetime eleven million dollar ($11,000,000.00) payment
received by the State pursuant to Section III(A) to
the County of Madison. The Counties’ share of all
these payments is in full satisfaction of all existing
tax liens that they claim as against the Nation and
in full satisfaction of tax revenues of any kind that
the Counties will not receive from the Nation in the
future under the terms of this Agreement or
because of the trust status of Nation Land. The
Nation shall have no liability to the Counties with
respect to distribution of the Nation Payment to
them. All disputes concerning the Nation Payment
shall be matters to be resolved solely between the
Nation and the State pursuant to the dispute
resolution provisions of this Agreement. Notwithstanding any other provision of this Agreement,
the State shall have the sole and exclusive right to
enforce the Nation’s payment obligations under
Section III of this Agreement.
C. Timing. The Nation Payment shall be made
quarterly, within thirty (30) days after the close of
the quarter.
D. Commencement of payment. Within seven
(7) days after the Effective Date, the Nation shall
make the one-time payment of eleven million

86780 • CARROLL • APPENDIX K

AL 5/19/21

122a
dollars ($11,000,000.00) that is described in
Section III(A) of this Agreement. The Nation shall
commence payment of the Nation Payment as to
Net Win for the quarter that begins on January 1,
2014, or, if the Effective Date is later than January
1, 2014, then as to so much of the quarter that
remains after the Effective Date.
IV. GAMING EXCLUSIVITY
A. Geographic Scope of Exclusivity. Except
as provided in Section IV(B) of this Agreement, the
Nation shall have total exclusivity with respect to
the installation and operation of Casino Gaming
and Gaming Devices, by the State or any State
authorized entity or person, within the following
geographic area: Oneida County, Madison County,
Onondaga County, Oswego County, Cayuga County,
Cortland County, Chenango County, Otsego County,
Herkimer County and Lewis County.
B. Gaming Activities Permitted By Others
within Exclusivity Zone. The State shall not
legalize, authorize or consent to or engage in,
Casino Gaming or the installation or operation of
any Gaming Device within the zone of exclusivity
set forth in Section IV(A) of this Agreement, except
for the following, which are exceptions to the
exclusivity provided the Nation under this agreement: (a) charitable gaming conducted pursuant to
N.Y. Const. art. I, § 9, cl. 2; (b) pari-mutuel
wagering conducted pursuant to N.Y. Const., art. I,
§ 9, cl.1; (c) the lottery conducted pursuant to N.Y.
Const., art I, § 9, cl. 1 (such lottery not to include
Video Lottery Gaming Devices); and (d) at Vernon
Downs, the type, nature and character of Video
Lottery Gaming Devices, and pari-mutuel wagering

86780 • CARROLL • APPENDIX K

AL 5/19/21

123a
on horse racing, both live and simulcasting, that as
of May 15, 2013, have been authorized and now
exist at Vernon Downs. The Vernon Downs exception shall permit the holder of the of the video
lottery gaming license and its harness racetrack
license to be sold or transferred to another entity
as authorized by the New York State Gaming
Commission, but the Vernon Downs exception
shall cease to be applicable if a licensee at Vernon
Downs ends its corporate existence, relinquishes
its video lottery gaming license or its harness
racetrack license, has either license revoked, or
voluntarily ceases race meetings, pari-mutuel betting or betting on Video Lottery Gaming Devices,
other than for unavoidable reasons such as (but
not limited to) acts of God and strikes. Other gaming in the exclusivity zone that is not expressly
permitted in this paragraph but that that is unlawful and has not been authorized or consented to by
the State, although not a permitted gaming activity
under the terms of this Agreement, shall not
constitute a breach by the State or the Counties of
this Agreement or of its exclusivity terms in
Section IV of this Agreement.
C. Gaming Activities By the Nation. The
Nation shall continue to engage in Class III Gaming pursuant to the terms of the Nation Compact.
To remove any uncertainty regarding the Nation
compact, the previous amendments (including as
to Instant Multi-Game), or the Nation’s entitlement under the Nation compact to adopt games
and specifications contained and approved in other
tribal gaming compacts in New York (including
Gaming Devices), all of the foregoing shall be
deemed ratified and approved by the Legislature.

86780 • CARROLL • APPENDIX K

AL 5/19/21

124a
The gaming procedures and specifications that are
contained in Exhibit H to this Agreement are
approved. The Nation and the State shall in good
faith endeavor to promptly undertake the ministerial
changes necessary to conform the language of such
most favored nation amendments to the existing
gaming specifications, and also to reflect the gaming procedures and specifications referenced in the
preceding sentence in this paragraph. The Nation
Compact, its amendments and those amendments
specified in Exhibit H to this Agreement shall be
deemed ratified by the Legislature upon its approval
of this Agreement. Notwithstanding any contrary
term of this Agreement, this Agreement does not
modify or eliminate the rights and duties of the
Nation or the State under the Nation Compact,
modify or eliminate any substantive term of the
compact, or modify or eliminate the process for
dispute resolution as to matters addressed by the
Nation Compact.
V. RESOLUTION OF TAX DISPUTES
A. Imposition of Nation Tax on Sales of
Goods and Services. As of the Effective Date, the
Nation, pursuant to its governmental authority as
an Indian nation to impose taxes upon sales of
goods and services occurring on Nation Land, shall
adopt and implement an ordinance imposing each
of the following taxes and pricing standards, and
allowing for the following exemptions, with respect
to sales of goods and services on Nation Land.
Nation Land shall be a “qualified reservation” for
purposes of the Tax Law and Section V of this
Agreement, which is a “tax agreement” for purposes
of Tax Law §§ 284-e(5) and 471-e(5), as amended
from time to time.

86780 • CARROLL • APPENDIX K

AL 5/19/21

125a
1. Equal Cigarette and Tobacco Products
Taxes. To the extent that the State imposes or
otherwise charges taxes on cigarettes and tobacco
products possessed, transported, sold or conveyed
throughout the State, including but not limited to
taxes imposed pursuant to Article 20 of the State
Tax Law, the Nation shall impose a Nation tax
(“Nation Excise Tax”) on cigarettes and tobacco
products possessed, transported, sold or conveyed
by any Seller on Nation Land to non-Indian purchasers that shall be no less than the amount of
the State taxes on such cigarettes and tobacco
products. The State shall notify the Nation of any
change in the amount of State taxes on cigarettes
and/or tobacco products. If the change results in an
increase in the amount of State taxes on cigarettes
and/or tobacco products, the Nation Excise Tax
shall increase to an amount no less than the
corresponding State tax within seven (7) days of
such notice or the effective date of the change,
whichever is later. If the change results in a
decrease in, or elimination of, the State tax on
cigarettes and/or tobacco products, the Nation
Excise Tax may, at the Nation’s discretion, decrease
to an amount no less than the corresponding State
tax.
2. Equal Fuel Taxes. To the extent that
the State imposes or otherwise charges taxes on
motor fuel and highway diesel motor fuel imported,
possessed, transported, sold or conveyed throughout the State, including but not limited to taxes
imposed pursuant to Articles 12-a and 13-a of the
State Tax Law, the Nation shall impose a Nation
tax (“Nation Fuel Tax”) on motor fuel and highway
diesel motor fuel imported, possessed, transported,

86780 • CARROLL • APPENDIX K

AL 5/19/21

126a
sold or conveyed by any Seller on Nation Land to
non-Indian purchasers that shall be no less than
the amount of the State taxes on such fuels. The
State shall notify the Nation of any change in the
amount of State taxes on motor fuel and/or
highway diesel motor fuel. If the change results in
an increase in the amount of State taxes on motor
fuel and/or highway diesel motor fuel, the Nation
Fuel Tax shall increase to an amount no less than
the corresponding State tax within seven (7) days
of such notice or the effective date of the change,
whichever is later. If the change results in a decrease
in, or elimination of, the State tax on motor fuel
and/or highway diesel motor fuel, the Nation Fuel
Tax may, at the Nation’s discretion, decrease to an
amount no less than the corresponding State tax.
3. Equal Sales
Occupancy Tax.

Tax,

Use

Tax

and

a. To the extent that the State, the
Counties, or the cities or school districts located
within the Counties, impose, charge or otherwise
require collection and remittance of a sales tax, use
tax or occupancy tax, including but not limited to
any taxes authorized by Articles 28 and 29 of the
State Tax Law and any hotel or bed taxes, the
Nation shall impose a corresponding sales tax, use
tax or occupancy tax (“Nation Sales Tax,” “Nation
Use Tax” and “Nation Occupancy Tax”), on the
same terms and subject to the same definitions
and exemptions as such State and/or local tax, on
the sale of goods, services or occupancy by a seller
to non-Indians. The Nation Sales Tax rate, the
Nation Use Tax rate and the Nation Occupancy
Tax rate shall be no less than the combined State
and local sales tax rate, combined State and local

86780 • CARROLL • APPENDIX K

AL 5/19/21

127a
use tax rate or combined State and local occupancy
tax rate in effect for the jurisdiction in which the
Nation Lands where the sales or conveyances occur
is located.
b. Upon any future increase in the rate
of State sales tax, use tax or occupancy tax, or an
increase in the rate of local sales tax, use tax or
occupancy tax imposed by the Counties, or the
cities or school districts located within the
Counties, the Nation Sales Tax, Nation Use Tax or
Nation Occupancy Tax shall increase to an amount
no less than the new combined rates of sales tax,
use tax or occupancy tax imposed by State, the
Counties, or cities or school districts located within
the Counties. Upon any future decrease in such
rates, or elimination of the State or local sales tax,
use tax or occupancy tax, the Nation Sales Tax,
Nation Use Tax or Nation Occupancy Tax may, at
the Nation’s discretion, decrease to an amount no
less than the combined rates of sales tax, use tax or
occupancy tax imposed by State, the Counties, or
the cities or school districts located within the
Counties.
c. Upon any future change in the base of
the sales tax, use tax, or occupancy tax imposed by
the State, the Counties, or the cities or school
districts located within the Counties that results
in additional goods, services or occupancy
becoming subject to such taxes, the Nation Sales
Tax, Nation Use Tax, or Nation Occupancy Tax, as
applicable, shall be amended to conform to the base
of the sales tax, use tax, or occupancy tax imposed
by the State, the Counties, and the cities or school
districts located within the Counties. Upon a
future change in the base of the sales tax, use tax,

86780 • CARROLL • APPENDIX K

AL 5/19/21

128a
or occupancy tax imposed by the State, the
Counties, or the cities or school districts located
within the Counties that results in a decrease in
such base, whether by creating an exemption or
otherwise, the Nation Sales Tax, Nation Use Tax or
Nation Occupancy Tax may, at the Nation’s
discretion, be amended to conform to the base of the
sales tax, use tax, or occupancy tax imposed by the
State, the Counties, or the cities or school districts
located within the Counties.
d. The State shall notify the Nation of a
change in the rate or base of the sales taxes, use
taxes or occupancy taxes imposed by the State, the
Counties or the cities or school districts located
within the Counties, to the extent such taxes are
administered by the State. The Counties, the cities
or the school districts located within the counties,
respectively, shall notify the Nation of a change in
the rate or base of any sales tax, use tax or
occupancy tax, to the extent such taxes are
administered by the Counties or such cities and
school districts, respectively. If the change results
in an increase in rate or in additional goods,
services or occupancy becoming subject to such
taxes, the Nation Sales Tax, Nation Use Tax or
Nation Occupancy Tax shall be amended to
conform to such change as provided herein within
seven (7) days of such notice or the effective date of
the change, whichever is later.
4. Equal Minimum Pricing Standards
for Cigarettes. To the extent that the State
mandates minimum prices for the possession,
transportation, sale or conveyance of cigarettes
throughout the State, the Nation shall impose
minimum prices (“Nation Minimum Prices”) for

86780 • CARROLL • APPENDIX K

AL 5/19/21

129a
the possession, transportation, sale or conveyance
of those same cigarettes sold by any Seller on
Nation Lands to non-Indian purchasers. The Nation
Minimum Prices on these products shall be calculated in the same manner as the corresponding
State minimum prices are calculated. For the
purpose of establishing the basic cost of cigarettes
and the applicable minimum prices of Native
American manufactured cigarettes, the minimum
price of any cigarettes directly manufactured by
the Nation or by another Native American manufacturer shall be calculated in the same manner as
the corresponding State minimum prices are
calculated. The basic cost of cigarettes directly
manufactured by the Nation or by another Native
American nation, tribe or individual, for the purposes of establishing applicable minimum prices,
shall be 60% of the average manufacturers’ list
price, before trade or rebates, of the top three
brands by market share.
5. Nation Tax Stamp for Cigarettes. The
Nation shall affix a Nation cigarette tax stamp on
all cigarettes, including cigarettes that the Nation
may exclude from the Nation Excise Tax, Nation
Sales Tax, Nation Use Tax and Nation Minimum
Price requirements under Section V(A)(6) of this
Agreement, which shall constitute the Nation’s
certification that the cigarettes comply with the
requirements of this Agreement, including but not
limited to the requirements governing imposition
of Nation taxes and minimum pricing. The Nation
may receive unstamped cigarettes directly from
federally licensed manufacturers without going
through a New York State licensed cigarette
stamping agent.

86780 • CARROLL • APPENDIX K

AL 5/19/21

130a
6. Exemption for Sales to Native
Americans. Notwithstanding any other provision
of this Agreement, the Nation is authorized to
exclude from the Nation Excise Tax, Nation Fuel
Tax, Nation Sales Tax, Nation Use Tax, Nation
Occupancy Tax and Nation Minimum Price requirements any retail sale on Nation lands, other than
sales made via the internet, by the Nation, or by
any entity owned directly or indirectly by the
Nation, to any Native American or the immediate
family of any Native American member living in
the same household, provided, however, that any
sale of cigarettes bearing the Nation Tax Stamp
that occurs on other than Nation Lands shall be
subject to State excise taxes pursuant to Article 20
of the State Tax Law unless there is proof that
Nation Excise Taxes have been paid. This provision does not prevent a member of a New York
Indian nation or tribe from presenting his or her
membership card to vendors off-reservation for
purchase of goods and services, other than
cigarettes, tobacco products, motor fuel and highway diesel motor fuel, exempt from New York taxes
as long as the goods and services will be delivered
to his or her residence on the reservation.
7. Exemption for Nation-Manufactured
Products. The Nation may exclude from the Nation
Sales Tax and Nation Use Tax any possession, transportation, sale or conveyance of products, other
than cigarettes and tobacco products, manufactured on Nation Lands by the Nation or any entity
owned, chartered, incorporated or controlled,
directly or indirectly, by the Nation, including but
not limited to traditional Native American crafts.

86780 • CARROLL • APPENDIX K

AL 5/19/21

131a
8. Material Tax Law Changes. In the
event there is a change to the State Tax Law or any
article thereof that materially affects the terms or
operation of this Agreement, such as the enactment
of new, or the amendment of existing, transaction,
sales, excise or similar taxes, and other than a
modification of the rate or base of any tax as provided in Section V(A)(1)-(3) of this Agreement, the
State and the Nation shall modify this Agreement
accordingly.
9. Master Settlement Agreement. The
Nation shall report to the State, on forms
substantially similar to those contained in Exhibit
J, its purchases of all cigarettes for the express
and limited purpose of ensuring appropriate thirdparty compliance with the requirements of the
Master Settlement Agreement, as amended and
interpreted.
B. Use of Nation Excise, Sales, Use and
Occupancy Tax Revenues. The Nation shall use
revenues from the Nation Excise Tax, Nation Fuel
Tax, Nation Sales Tax, Nation Use Tax and Nation
Occupancy Tax exclusively for the provision of the
same types of governmental programs and services,
and to the discharge by the Nation of the same
types of governmental obligations, for which state
or local governments use revenues from their tax
collections. The Nation shall retain exclusive discretion in determining the specific types of governmental programs and services for which revenues
shall be expended. Nothing in this Agreement shall
affect any obligation of the State or any other government to provide programs and services required
under any treaty or law, or to discriminate or to

86780 • CARROLL • APPENDIX K

AL 5/19/21

132a
permit any discrimination against the Nation or
its members with respect to such obligations.
C. Assurances.
1. The State and the Counties shall undertake reasonable efforts to fulfill their obligations
and restrictions under this section.
2. The collection of the Nation Excise Tax,
Nation Fuel Tax, Nation Sales Tax or Nation Use
Tax pursuant to this Agreement shall be in full
satisfaction of any taxes on the sales or provision
of goods and services on Nation Land. The State
and the Counties shall not take any action to collect
unpaid sales or use taxes on the sale of goods or
services, other than motor fuel or highway diesel
motor fuel sold to a carrier subject to article 21-a of
the State Tax Law, that are subject to Nation Fuel
Tax, Nation Sales Tax or Nation Use Tax pursuant
to this Agreement. The State and the Counties
shall not take any action to collect unpaid state
excise taxes on the sale of cigarettes and tobacco
products for which Nation Excise Tax has been
paid.
3. The State and the Counties shall not take
any action to impose any direct or indirect tax,
assessment, charge or fee on any gaming facility or
gaming-related activity conducted by the Nation,
except as provided in this Agreement and in the
Nation Compact.
4. The Nation shall contract for an
independent third party acceptable to the State to
assess and report to the State regarding the
Nation’s compliance with the tax provisions of this
Agreement within six months of the effective date

86780 • CARROLL • APPENDIX K

AL 5/19/21

133a
of the Agreement and once per year thereafter. If
such a report indicates that the Nation, or any
entity owned directly or indirectly by the Nation,
has substantially failed to comply with the
provisions of Sections V(A)(1), V(A)(4), V(A)(5)
and/or V(A)(6) of this Agreement, then such
provisions shall be void and Articles 20 and 20-A of
the State Tax Law shall apply to all sales of
cigarettes on Nation lands that occur more than
seven (7) days after the State has notified the
Nation of such finding of substantial failure to
comply, provided, however, that where such report
indicates that such substantial failure to comply is
solely attributable to the conduct of one or more
individuals acting independently on Nation lands,
the Nation shall be afforded thirty (30) days to cure
such non-compliance after the State has notified
the Nation of such finding of substantial failure to
comply.
5. For purposes of the State Alcoholic
Beverage Control Law, the State shall deem the
Nation to be operating with a certificate of
authority, as provided in article 28 of the State Tax
Law, when it is collecting Nation Sales Tax and
Nation Use Tax as required by this Agreement.
D. Most Favored Nation. In the event the
State enters into an agreement with any other
Indian nation or tribe relating to any importation,
possession, transportation, purchase, sale or conveyance of any cigarettes, tobacco products, motor
fuel or highway diesel motor fuel among or between
any other Indian nation(s) (Other Relevant Agreement), the following provisions shall apply:

86780 • CARROLL • APPENDIX K

AL 5/19/21

134a
1. The State shall provide a copy of the
Other Relevant Agreement to the Nation within
five (5) days after its execution.
2. The Nation may, at its option and upon
notice to the State, adopt the provision of the Other
Relevant Agreement relating to any importation,
possession, transportation, purchase, sale or conveyance of any cigarettes, tobacco products, motor
fuel or highway diesel motor fuel among or between
any other Indian nation(s).
3. As of the date of notice from the Nation to
the State, the provision adopted pursuant to this
Section shall be incorporated into this Agreement,
and shall amend or replace any existing provision
of this Agreement relating to any importation,
possession, transportation, purchase, sale or conveyance of cigarettes, tobacco products, motor fuel
or highway diesel motor fuel among or between any
other Indian nation(s).
E. Nation Land Not Taxable.
1. Without regard to whether land has been
(or has not been) and is now (or is not now) exempt
from property taxation or otherwise non-taxable,
Nation Land shall be non-taxable, and the Nation
shall not be liable to the State or any municipal
subdivision of the State for any past, present or
future property tax payment with regard to Nation
Land, and no bill for such tax shall be issued, all of
the foregoing subject to the limitation (Cap) in
Section VI(B)(4) on the designation of Reacquired
Land to 25,370 acres. For the avoidance of any
doubt, Reacquired Land that is in excess of the
Cap defined in Section VI(B)(4) shall be subject to
State and local taxation.

86780 • CARROLL • APPENDIX K

AL 5/19/21

135a
2. The Nation shall not assert or seek any
other state property tax exemption for Reacquired
Land exceeding the Cap in Section VI(B)(4) on the
designation of Reacquired Land to 25,370 acres,
except with respect to Nation Land that is listed
on tax assessment rolls as exempt on the Effective
Date. The parcels of Nation Land so listed on tax
assessment rolls are in Madison County and are
identified as follows: tax parcel identification number 75.-1-4.15 (2.80 acres) (695-cemetery), and tax
parcel identification number 75.-1.4.16 (5.69 acres)
(695-cemetery). The Nation reserves and asserts
federal immunity to property taxation and all
other rights under federal law with regard to the
32 acre Boylan tract, the 104-acre Marble Hill
tract, and also to lands held in trust by the United
States for the Nation’s benefit under 40 U.S.C. §
523 or, as to Reacquired Land held in trust, within
the Cap provided in Section VI(B)(4) of this Agreement.
3. Any tax lien or tax sale based upon any
failure of the Nation to pay any property tax,
penalty, interest or assessment that has been
asserted against the Nation or Nation land shall
be withdrawn or terminated, and shall be deemed
void ab initio. The State and Counties hereby
release and waive all claims for payment of any
such property tax, penalty, interest or assessment.
4. As to any judicial or administrative
proceeding, the State and Counties hereby release
any claim that the Reservation was disestablished.
5. The State hereby stipulates that the
Reservation was not disestablished and that the

86780 • CARROLL • APPENDIX K

AL 5/19/21

136a
Reservation is reservation land for purposes of
state and federal statutes.
6. Notwithstanding Sections V(E)(1) and
V(E)(4) of this Agreement, the Nation shall make to
the Counties a payment in an amount equal to the
amount of property tax that would be due from any
non-Indian owner with respect to any parcel of
Reacquired Land within the Cap provided in
Section VI(B)(4) of this Agreement that is acquired
by the Nation after the Effective Date of this
Agreement and until such time as the particular
land is transferred to the United States in trust for
the Nation. With respect to Nation Land, the
Nation’s payment shall be based on the assessed
value of the parcel prior to the transaction in
which it was acquired by the Nation.
F. Compliance with Agreement Deemed
Compliance with Applicable State Law. The
Nation’s compliance with the terms of this
Agreement shall be deemed in compliance with
State law related to the payment and collection of
taxes. No state agency or licensing entity,
including but not limited to the State Liquor
Authority, shall deny a license or fail to give an
approval on the ground that gaming on Nation land
or under the Oneida Nation gaming compact may
be unlawful or on any ground related to the
payment or collection of taxes in conformity with
this Agreement.

86780 • CARROLL • APPENDIX K

AL 5/19/21

137a
VI. RESOLUTION OF LAND DISPUTES
A. Settlement of Existing Litigation.
1.

Trust Litigation.

a. The State, the New York Attorney
General, the Counties and the Nation, together
with all of the federal defendants (including but
not limited to the United States of America, the
United States Department of the Interior and its
Secretary Sally Jewell, the Bureau of Indian
Affairs of the Department of the Interior, and the
United States General Services Administration
and its Acting Administrator Dan Tangherlini)
shall enter into a stipulation incorporating the
terms of this Agreement and adopting the same in
furtherance of the objectives of this Agreement, in
substantially the form of Exhibit B, dismissing
State of New York v. Salazar, No. 08-cv-644-LEK
(N.D.N.Y.), with prejudice. This Agreement shall
be submitted to the United States District Court
for the Northern District of New York for the
issuance by that Court of an order incorporating
the terms of this Agreement, approving the same
and retaining jurisdiction to enforce any violations
hereof, or disputes hereunder, that are not subject
to arbitration under a provision of this Agreement.
b. The State and Counties will not
directly or indirectly fund any challenge to the
Secretary of the Interior’s May 20, 2008 decision to
accept Nation Land into trust pursuant to 25
U.S.C. § 465, to any supplemental decision on any
matter remanded by a court in connection with any
challenge to that decision, or to any challenge to a
transfer of excess land pursuant to 40 U.S.C. § 523.

86780 • CARROLL • APPENDIX K

AL 5/19/21

138a
2.

Federal Tax Foreclosure Litiga tion.

a. By no later than seven (7) days
after the Effective Date, the Counties shall withdraw the petition for a writ of certiorari that they
filed in the United States Supreme Court in
Madison and Oneida Counties v. Oneida Indian
Nation, No. 12-604. By that same date and in that
same case, the State shall withdraw the amicus
brief that it filed on behalf of the Counties.
b. The Counties shall stipulate to the
entry of final judgments in Oneida Indian Nation
v. Madison County, No. 00-cv-506 (N.D.N.Y), and
Oneida Indian Nation v. Oneida County, No. 05-cv945 (N.D.N.Y.) in substantially the form of
Exhibits C and D.
3.

State Tax Litigation.

a. Madison County shall file a stipulation of dismissal in the pending in rem action
seeking to foreclose on Nation Land, In the Matter
of Foreclosure of Tax Liens by Action In Rem
Pursuant to Article 11 of the Real Property Tax
Law by Madison County, Index No. 03-999
(Madison County Supreme Court).
b. Oneida County and Madison County
shall take all steps necessary to undo all acts taken
to foreclose on Nation Land or to enforce property
taxation with respect to such land.
c. Madison County and Oneida County
shall not file any further action to foreclose on
Nation Land or take any administrative or other
step or action to enforce property taxation with
respect to such land; provided, however, that

86780 • CARROLL • APPENDIX K

AL 5/19/21

139a
Madison County and Oneida County shall have the
right to file an action to foreclose upon those lands
covered in Section V(E)(6) of this Agreement for
which the Nation fails to make the payments in the
amounts permitted and required by that Section.
d. The Counties shall stipulate to the
dismissal of the hybrid tax grievance/declaratory
judgment actions regarding state statutory property
tax exemptions and other issues that were filed by
the Nation in Madison and Oneida Counties,
respectively, in substantially the form of Exhibits
E and F. The State and Counties will not assist or
fund, directly or indirectly, any further litigation
of the hybrid tax grievance/declaratory judgment
actions.
4.

Litigation against State Comp troller, Madison County Attorney
and Law Firms.

As of the Effective Date of this Agreement, the Nation shall discontinue directly or
indirectly funding any aspect of the litigation
entitled Mahler and Garrow v. Campanie, the Kiley
Law Firm PC, Campanie & Wayland Smith, PLLC
and Thomas P. DiNapoli, Comptroller of the State
of New York (Supreme Court, Albany County,
index number 2502-11, on appeal to the Appellate
Division, Third Department), and the Nation shall
use its best efforts to encourage the plaintiffs to
discontinue that action.
B. Future Trust Applications.
1. The Nation, at its option, may submit
an application to the United States Department of
the Interior requesting that the Department accept

86780 • CARROLL • APPENDIX K

AL 5/19/21

140a
the transfer into trust status of some or all of the
approximately 4,000 acres of existing Nation Land
that was not accepted in the May 20, 2008 Record
of Decision for a transfer to the United States to be
held in trust (see Exhibit A). The State and
Counties represent and warrant that they support
the Nation’s application for transfer of such land
to the United States to be held in trust and release
and waive any right they may have to administratively or judicially oppose or challenge the transfer
into trust of any such land on any grounds.
2. If the Nation acquires additional Nation
Land, subject to the Cap limitation in Section
VI(B)(4) of this Agreement, the State and Counties
shall not oppose, in any administrative or judicial
proceeding or otherwise, the Nation’s application to
place the land in trust pursuant to 25 U.S.C. § 465,
and they release and waive any right they may have
to administratively or judicially oppose or challenge
the transfer into trust of any such land on any
grounds. Further, the State and Counties shall not
oppose any transfer of excess federal land within
the Reservation to the Department of the Interior
to be held in trust for the Nation pursuant to 40
U.S.C. § 523.
3. The State and Counties shall not
assist or fund, directly or indirectly, any administrative or judicial opposition or challenge to the
Nation’s application to transfer Nation Land,
subject to the Cap limitation in Section VI(B)(4) of
this Agreement, into trust pursuant to 25 U.S.C. §
465, or to any transfer of excess federal land within
the Reservation to the Department of the Interior
to be held in trust pursuant to 40 U.S.C. § 523.

86780 • CARROLL • APPENDIX K

AL 5/19/21

141a
4. The Nation shall not designate more
than 25,370 acres of Reacquired Land as Nation
Land, of which: (i) 13,004 acres shall be the
existing land owned by the Nation that was
accepted to be held in trust by the United States
under the May 20, 2008 Record of Decision of the
U.S. Department of Interior, (ii) 4,366 acres shall
be the existing land owned by the Nation and for
which the Nation applied for trust status on April
4, 2005, but which was not accepted into trust
under the May 20, 2008 Record of Decision (see
Exhibit A), and (iii) up to 7,000 additional acres
shall be in Oneida County and up to 1,000
additional acres shall be in Madison County.
5. For the avoidance of any doubt, the
Nation shall not submit an application to have
Reacquired Lands taken into trust, above the
25,370 acres specified in Section VI(B)(4).
C. Governmental Coordination.
1. The Nation shall not assert sovereignty
with respect to any land other than Nation Land.
2. If any federal law provides for consultation with the Nation concerning any federallyassisted project in Madison County or Oneida
County, and if the Nation exercises its consultation right, then the Nation shall give notice to the
Secretary of State of New York, and the Secretary
of State or his or her designee, in such consultation, shall represent the County or Counties
involved in the consultation if so requested by the
involved County or County. If a County requests
such representation in a consultation by the
Secretary of State or his or her designee, the
Nation hereby consents to that representation.

86780 • CARROLL • APPENDIX K

AL 5/19/21

142a
3. To enhance public safety and to
improve the coordination of police services, Oneida
County shall enter into a deputization agreement
with the Oneida Nation Police in substantially the
form of Exhibit G.
4. As to all Reacquired Land that is
within the Cap defined in Section VI(B)(4) of this
Agreement and is not held in trust by the United
States for the benefit of the Nation, the Nation
shall adopt, in lieu of the laws and regulations
generally applicable to non-Nation properties, ordinances that meet or exceed standards that otherwise may govern land use, building codes, zoning,
health, safety and environmental matters, and
weights and measures. Any land uses and improvements existing on those lands as of the Effective
Date may continue and shall be deemed to be conforming uses under any zoning or other land use
statutes, regulations, codes or other administrative requirements. On reasonable notice, the
Counties may coordinate with the Nation site
visits and testing as reasonably needed to assure
that the Nation has fulfilled its meet-or-exceed
obligation under this paragraph of this Agreement.
For the avoidance of any doubt, Reacquired Land
that is in excess of the Cap defined in Section
VI(B)(4) shall be subject to State and local
regulation.
5. In the event of any dispute over
whether the Nation is meeting any relevant
standard, the County(s) shall notify the Nation in
writing, alleging with specificity the nature of the
alleged violation and proposed corrective action or
remedy. The Nation and the State or the County in
which the property is located will inspect the

86780 • CARROLL • APPENDIX K

AL 5/19/21

143a
disputed use or facility and consult, within
fourteen (14) days of notice receipt, to attempt to
resolve the concern and provide an opportunity to
implement any agreed upon corrective action.
Notwithstanding any other dispute resolution
process specified in this Agreement, but without
altering any right, duty or dispute resolution
process specified in the Nation Compact with
respect to matters addressed by the compact, any
and all disputes arising under this section that
remain after consultation shall be resolved by
binding arbitration as follows. If the Nation and
the State are able to select a full panel consisting of
three members, then the arbitration shall be by a
Standards Review Panel, with the State selecting
one member, the Nation selecting another member,
and those two members selecting a third member,
whose fees and expenses are to be shared equally
by the State and the Nation so long as they are
reasonable and proportionate to the size and complexity of the dispute presented. The Standards
Review Panel will arbitrate the dispute according
to a reasonable process and timetable to be
established by the panel and shall issue a decision
resolving the dispute, with costs and attorneys’
fees to the prevailing party. The decision or award
of the Standards Review Panel may be enforced by
the United States District Court for the Northern
District of New York, which retains jurisdiction to
enforce such decisions or awards. Notwithstanding
the foregoing, if there is an impasse in the
selection of third panel member because the two
members chosen by the State and the Nation are
unable to agree on a third member, then the
dispute shall be arbitrated under the Expedited

86780 • CARROLL • APPENDIX K

AL 5/19/21

144a
Procedures provision of the AAA Commercial
Arbitration Rules. In any AAA arbitration, the
Nation shall select one arbitrator, the State shall
select another arbitrator, and those two arbitrators
shall select the third arbitrator. The prevailing
party shall be entitled to an award of attorneys’
fees and costs. Arbitration awards under this
section shall be enforced in the United States
District Court of for the Northern District of New
York, which retains jurisdiction over this
agreement and over its enforcement.
6. Except as may be expressly provided in
Section IV(C) of this Agreement, nothing in this
section or in any other section of this Agreement
replaces, modifies or repeals any provision in the
Nation Compact or in any other agreement governing the Nation’s gaming facilities and related
enterprises and the regulations or standards that
govern the operation of those facilities or related
enterprises. Where there is any conflict or difference
between those other agreements and this Agreement, the other agreements control.
7. The Nation shall support any
referendum authorized by the State Legislature
following second passage of a concurrent
resolution to amend the State Constitution to
permit or authorize casino gaming. Additionally,
the Nation shall not directly or indirectly fund any
public education campaign or program opposing
any such referendum, or fund directly or indirectly
any litigation or administrative challenge in
connection with any such referendum.

86780 • CARROLL • APPENDIX K

AL 5/19/21

145a
VII. ENFORCEMENT
A. Limited Waivers of Sovereign Immunity. The Nation and State hereby irrevocably
waive all immunity from suit, including tribal
sovereignty immunity and eleventh amendment
immunity, for the limited purpose of, and consent
to, enforcement of the terms of this Agreement
according to its terms by arbitration or before the
Northern District of New York having jurisdiction
to enforce the settlement in State of New York v.
Salazar, No. 08-cv-644.
B. Notification of Disputes. If the State,
one of the Counties or the Nation believes a Party
has violated this Agreement by not fulfilling a
duty that is owed to it and that it has a right to
enforce, then it shall notify that party in writing.
The notice shall state the nature of the alleged
violation and any proposed corrective action or
remedy. The notifying party and the party receiving notice shall meet initially within fourteen (14)
calendar days of receipt of the notice, unless a
different date is agreed to by both parties, to attempt
to resolve between themselves the issues raised by
the notice of possible violation and to provide the
opportunity to implement any agreed upon corrective
action. Thereafter, the parties shall meet at least
two further times within the next twenty-one (21)
calendar days to continue good faith consultation.
If the parties are unable to reach agreement, they
shall within the next fourteen (14) calendar days
select a mutually agreeable mediator, the cost of
the mediator to be shared equally by each interested party, and shall participate in a mediation to
be concluded within thirty (30) days of the
selection of the mediator. If within the fourteen

86780 • CARROLL • APPENDIX K

AL 5/19/21

146a
(14) calendar days provided for selection of a
mediator the parties are unable to agree on the
selection of a mediator, then any party immediately
may pursue the other dispute resolution processes
as permitted by this Agreement. If a mediator is
chosen but mediation is unsuccessful as of the
thirtieth (30th) day, or if at any point the parties
agree in writing that mediation will not be successful, then the parties immediately may pursue
other dispute resolution processes as may be permitted by this Agreement. The foregoing notwithstanding, a party confronted with irreparable harm
may immediately pursue those other dispute
resolution processes.
C. Arbitration of Disputes. Subject to the
other provisions of this agreement, in particular
those providing only for judicial enforcement with
respect to a Material Breach, the Parties must
arbitrate any disputes concerning an alleged breach
of this agreement that, if proved, would not be a
Material Breach. Such binding arbitration shall be
pursuant to the AAA Commercial Arbitration
Rules. A three-person arbitration panel shall be
chosen as provided in Section VI(C)(5) of this
Agreement. A substantially prevailing party shall
be entitled to an award of attorneys’ fees and costs.
Any award produced by the arbitration may be
enforced in the United States District Court for the
Northern District of New York, which retains jurisdiction for the purposes of enforcing this Agreement and arbitration awards authorized by it.
D. Consequences of Material Breach.
Disputes concerning allegations of a Material
Breach shall be resolved exclusively by the United
States District Court for the Northern District of

86780 • CARROLL • APPENDIX K

AL 5/19/21

147a
New York, which shall retain jurisdiction for such
purpose but after a mediation according to the
provisions of Section VII(B) of this Agreement . A
prevailing party shall be entitled to an award of
attorneys’ fees and costs. In the event of an
allegation of Material Breach, the affected party
shall notify the allegedly breaching party in
writing of the material breach.
E. Judicial Enforcement. The United States
District Court for the Northern District of New
York will reserve and retain jurisdiction, exclusive
of any other court, to enforce this Agreement
according to its terms, to adjudicate any challenges
by a party or by third parties to the enforceability
of this Agreement, to compel arbitration of
disputes according to the terms of this Agreement,
or to confirm any arbitral award. The stipulation of
dismissal that is Exhibit B to this Agreement will
so provide and will provide that this Agreement is
to be incorporated into the judgment of dismissal
to be entered upon the stipulation. The parties
hereby agree and stipulate that a showing of a
material breach of this Agreement shall also be a
sufficient showing of irreparable harm to justify
injunctive or other equitable relief in any action to
enforce this Agreement. Each party to this
Agreement waives and releases any claim or
defense that any term of this Agreement is not
enforceable and, by seeking judicial approval of
this Agreement, acknowledges that it is estopped to
challenge the enforceability of any of its provisions.

86780 • CARROLL • APPENDIX K

AL 5/19/21

148a
VIII. IMPLEMENTATION
A. Authority. The officials executing this
Agreement on behalf of the State, the Counties
and the Nation, respectively, warrant that they
have been authorized to so execute and that they
have the lawful authority to do so, subject to the
approval of the State Legislature, the County Legislatures, the Oneida Nation Council and, where
applicable, the New York Attorney General and, if
applicable, the U.S. Department of Interior. Each
party is relying on said representation in entering
into this Agreement.
B. Legislation. The State will enact legislation approving this Agreement and its exhibits
and containing any terms necessary for the State
and Counties to carry out their undertakings in
this Agreement.
C. Sequence of Implementation. First,
the parties’ representatives will execute this
Agreement. Second, the Agreement shall be submitted to the Counties’ Legislatures for approval
and the Nation’s Council will approve this Agreement. Third, the Agreement shall be submitted to
the State Legislature for approval. Fourth, the
Parties, and the New York Attorney General and
the Federal Defendants in the federal trust litigation, State v. Salazar, No. 08-cv-644 (LEK), will
submit for approval the stipulation in substantially
the form of Exhibit B to this Agreement. As previously provided in this Agreement, the Effective
Date of this Agreement is the date of the federal
court’s entry of an order approving this Agreement.
Upon the Effective Date, the parties’ obligations to
make payments, file other stipulations, and take

86780 • CARROLL • APPENDIX K

AL 5/19/21

149a
other actions are triggered as previously provided
in this Agreement.
D. Cooperation. The parties shall work
together in good faith to fulfill their commitments
to each other under this Agreement, including
adoption of necessary laws and regulations, seeking any approval of the United States Department
of the Interior that may be required, and opposing
any efforts to change, undermine, or invalidate any
provision of this Agreement, including initiating or
intervening in litigation. Nothing in this Agreement limits the State, the Counties or the Nation
from engaging in intergovernmental cooperation
with respect to financial or other matters not
covered in this Agreement. Nothing is intended to
limit or preclude further voluntary or mutual
agreements regarding funding, grants or any other
matter involving money that might benefit and
promote the good of both the Nation and the State
and Counties. Without limiting the effect of any
substantive provision of this Agreement, nothing
herein is or shall be construed to be an admission
by any party with respect to any fact or legal issue
in litigation.
E. Notices and Communications. Notice
required by or related to this Agreement will be
made in writing and served by overnight courier or
certified mail, return receipt requested. If notice is
to be given by the Nation to the Counties, it shall be
to the County Executive and to the County Attorney
of the relevant County or Counties, and if to the
State it shall be to the Governor and the Attorney
General, both individually at State Capitol, Albany,
New York 12224. A copy shall also be filed
concurrently with the Counsel to the Governor,

86780 • CARROLL • APPENDIX K

AL 5/19/21

150a
State Capitol, Room 210, Albany, New York 12224.
If notice is to be given by the State or Counties, it
shall be to the Oneida Indian Nation Representative
and the Oneida Nation Legal Department, both
located at 5218 Patrick Road, Verona, New York
13478, or to such other address as may be designated by the Nation.
F. Inadmissibility. Any statements made
during the course of the settlement negotiations in
this matter will not be admissible in any action or
proceeding and are strictly confidential.
G. No Precedent. The parties agree that no
provision of this settlement shall be interpreted to
be an acknowledgment of the validity of any of the
allegations or claims that have been made in any
litigation covered by this agreement. This settlement does not constitute a determination of, or
admission by any party to any underlying allegations, facts or merits of their respective positions.
The settlement of the litigation covered by this
agreement is limited to the circumstances in those
actions alone and shall not be given effect beyond
the specific provisions stipulated to. This settlement does not form and shall not be claimed as any
precedent for, or an agreement by the parties to
any generally applicable policy or procedure in the
future.
H. Entire Agreement. This is a fully integrated agreement that supersedes all prior
discussions and negotiations concerning it. The
parties may modify this Agreement, but only by a
written agreement executed by the party to be
charged.

86780 • CARROLL • APPENDIX K

AL 5/19/21

151a
I. Non-Severability. If any material term,
provision, representation, or condition of this Agreement is held by a court of competent jurisdiction to
be invalid, void, or unenforceable or is otherwise
finally determined to beyond the authority of any
signatory hereto, then this Agreement shall be null
and void in its entirety, with each party being
returned to the position it held before the effective
date.
ENTERED INTO THIS 16 DAY OF MAY, 2013
THE STATE OF NEW YORK
/s/ Andrew M. Cuomo
Andrew M. Cuomo
Governor
ONEIDA COUNTY
/s/ Anthony J. Picente, Jr.
Anthony J. Picente, Jr.
County Executive
MADISON COUNTY
/s/ John M. Becker
John M. Becker
Chairman, Board of Supervisors
ONEIDA NATION OF NEW YORK
/s/ Ray Halbritter
Ray Halbritter
Nation Representative

86780 • CARROLL • APPENDIX K

AL 5/19/21

152a
Appendix L
DEED PUTTING LAND IN TRUST
FOR ORCHARD PARTY
[SEAL]
ONEIDA COUNTY – STATE OF NEW YORK
SANDRA J. DEPERNO COUNTY CLERK
800 PARK AVENUE, UTICA, NEW YORK 13601
COUNTY CLERK’S RECORDING PAGE
***THIS PAGE IS PART OF THE
DOCUMENT – DO NOT DETACH***
[BAR CODE]
INSTRUMENT #: 2015-012939
Receipt#: 2015664467
Clerk:
PF
Rec Date: 09/09/2015 02:55:42 PM
Doc Grp: RP
Descrip: DEED
Num Pgs: 52
Party1:
Party2:
Town:

PHILLIPS MELVIN L SR
PHILLIPS MELVIN L SR
VERNON

Recording:
Cover Page
Number of Pages
Cultural Ed
Records Management – Coun
Records Management – Stat
TP584
RP5217 Residential/Agricu
RP5217 – County

86780 • CARROLL • APPENDIX L

20.00
260.00
14.25
1.00
4.75
5.00
116.00
4.50

AL 5/19/21

153a
RP5217 – County Clerk
Sub Total:

4.50
430.00

Transfer Tax
Transfer Tax

0.00

Sub Total:

0.00

Total:

430.00

**** NOTICE: THIS IS NOT A BILL ****
***** Transfer Tax*****
Transfer Tax #:
Transfer Tax
Consideration:

736
0.00

Total: 0.00
WARNING***
I hereby certify that the within and foregoing was
recorded in the Oneida County Clerk’s Office,
State of New York. This sheet constitutes the
Clerks endorsement required by Section 316 of the
Real Property Law of the State of New York.
Sandra J. DePerno
Oneida County Clerk
Record and Return To:
MARTIN H TILLAPAUGH
30 1/2 PIONEER STREET
COOPERSTOWN NY 13326

86780 • CARROLL • APPENDIX L

AL 5/19/21

154a
QUIT CLAIM DEED
THIS INDENTURE
Made this 1st day of September, Two Thousand
and Fifteen
BETWEEN
MELVIN L. PHILLIPS, SR., presently of 4675
Marble Road, Oneida, NY 13421
party of the first part,
and
the “MELVIN L. PHILLIPS, SR., / ORCHARD
PARTY TRUST, dated August 2015”, a New York
Trust having an address of 4675 Marble Road,
Oneida, New York,13421
party of the second part.
WITNESSETH, that the party of the first part,
in consideration of One Dollar ($1.00) lawful
money of the United States and for other good and
valuable consideration, paid by the party of the
second part, does hereby remise, release and quit
claim unto the party of the second part its
successors and assigns forever,
ALL THAT TRACT OR PARCEL OF LAND
situate in the Town of Vernon, County of Oneida
and State of New York more particularly bounded
and described on the attached Schedule “A”
TOGETHER with the appurtenances and all the
estate rights of the party of the first part in and to
said premises,
TO HAVE AND TO HOLD the premises herein
granted unto the party of the second part, its
successors and assigns forever.

86780 • CARROLL • APPENDIX L

AL 5/19/21

155a
IN WITNESS WHEREOF, the party of the first
part has hereunto set his hand and seal the day
and year first above written.
/s/ Melvin L. Phillips
Melvin L. Phillips, Sr.
2015664467

Clerk: PF

STATE OF NEW YORK

LS

2016-012939
09/09/2015 02:55:42 PM
DEED
52 Pages
Sandra J. DePerno,
Oneida County Clerk

ss
COUNTY OF OTSEGO
On the 1st day of September, in the year Two
Thousand and Fifteen before me, the undersigned,
a Notary Public in and for said State, personally
appeared Melvin L. Phillips, Sr., personally known
to me or proved to me on the basis of satisfactory
evidence to be the individual whose name is subscribed to the within instrument and acknowledged
to me that he executed the same in his capacity,
and that by his signature on the instrument, the
individual, or the person upon behalf of which the
individual acted, executed the instrument.
/s/ Martin H. Tillapaugh
NOTARY PUBLIC
[STAMP]
MARTIN H. TILLAPAUGH
Notary Public, State of New York
No. 4642580
Qualified in Otsego County
Commission Expires August 31, 2017

86780 • CARROLL • APPENDIX L

AL 5/19/21

156a
Prepared by:
Martin H. Tillapaugh, Esq.
30 ½ Pioneer Street
Cooperstown, NY 13326

86780 • CARROLL • APPENDIX L

AL 5/19/21

157a
SCHEDULE “A”
Parcel I
Beginning at a point in the center of Marble Hill
Road and at the southwest corner of property
currently owned by the grantor, Melvin L. Phillips;
THENCE north 55 degrees east, 234.09 feet to
an iron pipe;
THENCE south 45 degrees east, 208.71 feet to
an iron pipe;
THENCE south 55 degrees west 234.09 feet to
the center of Marble Hill Road;
THENCE north 45 degrees west 208.71 feet to
the point of beginning.
The above described property consists of one
acre of land and is bounded north by Melvin
Phillips; east and south by Martha M. Tall and
west by Marble Hill Road.
This conveyance is made subject to covenants,
easements, and restrictions of record.
BEING the same premises by the same
description as was conveyed by Warranty Deed of
Martha M. Tall to Melvin L. Phillips, which deed
was dated April 4, 1974 and recorded in the
Oneida County Clerk’s Office on April 30, 1974 in
Liber 1988 of Deeds at page 605.
Parcel II
Commencing at a point in the centerline of
Marble Hill Road at the northwest corner of the
above described “Parcel I”, which point is and is

86780 • CARROLL • APPENDIX L

AL 5/19/21

158a
intended to be the same “beginning point” as
Parcel I hereinabove;
THENCE northeasterly (north 55 degrees east,
per above referenced deed) along the northwesterly boundary of Parcel I, a distance (per
above referenced deed – 1988 D 605) of 234.09 feet
to an iron pipe:
THENCE northwesterly (north 45 degrees east,
per above referenced deed – 1988 D 605) a distance
of 200 feet to a point;
THENCE southwesterly (south 55 degrees west,
per above referenced deed – 1988 D 605) parallel
with the first described course herein, and 200 feet
distant therefrom, a distance of 234.09 feet to the
centerline of Marble Hill Road;
THENCE southwesterly along said centerline of
Marble Hill Road 200 feet to the point or place of
beginning.
Containing by estimation 1 +/– acres.
BEING the same parcel as is referenced as the
“adjoining” parcel belonging to the grantor herein,
Melvin Phillips, and referenced as a starting point
in Parcel I hereinabove and as lands adjoining
Parcel I herein “on the north”.
Parcel III
Commencing at an iron pipe on the easterly
boundary of the lands purportedly of the State of
New York, (TM # 333.00-1-46.00) which pipe marks
the northeasterly corner of Parcel I above and the
southeasterly corner of Parcel II above;
THENCE continuing northeasterly along the
southeasterly boundary of the lands purportedly of

86780 • CARROLL • APPENDIX L

AL 5/19/21

159a
the State of New York a distance of 600+/– feet to
the southeasterly corner of the lands purportedly
of the State of New York;
THENCE southeasterly (south 45 degrees east,
per above referenced deed – 1988 D 605) a distance
of 208.71 feet to a point;
THENCE southwesterly (south 55 degrees west,
per above referenced deed – 1988 D 605) along a
line 208.71 from and parallel with the first
described course herein a distance of 630+/– feet to
the iron pin marking the southeasterly corner of
“Parcel I” above;
THENCE northwesterly (north 55 degrees west,
per deed referenced above – 1988 D 605) along the
easterly line of Parcel I herein a distance of 208.71
feet to the point or place of beginning.
Parcel IV
Commencing at a point in the centerline of
Marble Hill Road which point is 1325+/– feet southeasterly, as measured along said centerline, from
the intersection of the centerline of Indiantown
Road and the centerline of Marble Hill Road, and
which point also lies on the common northwesterly
boundary line of Lot # 3 of the Oneida Purchase of
June 1842, and the southeasterly boundary line of
Lot # 1 of the Oneida Purchase of June 1842;
THENCE southwesterly (approximately south
55 degrees west) along the common northwesterly
boundary line of Lot # 3 of the Oneida Purchase of
June 1842 and the southeasterly boundary line of
Lot # l of the Oneida Purchase of June 1842, and
along a southern boundary of and through the
lands now or formerly of Dennison (2012/1896) and

86780 • CARROLL • APPENDIX L

AL 5/19/21

160a
the northerly boundary of lands purportedly of the
State of New York (TM # 332.00-1-16.00) a total
distance of 1960+/– feet to the easterly line of lands
now or formerly of Schorman (2008 /6778);
THENCE southeasterly along the common
boundary of the easterly boundary of lands now or
formerly of Schorman (2008/6778) and the
westerly boundary of the lands purportedly of the
State of New York and the lands conveyed hereby,
a distance of 860+/– feet to a corner;
THENCE northeasterly along the common
boundary of Schorman (2008/6778) on the south
and the lands purportedly of the State of New York
on the north a distance of 500+/– feet to the northwesterly corner of lands now or formerly of Scheible
(2749/39);
THENCE northeasterly along the common
boundary of Scheible (2749/39) on the south and
the lands purportedly of the State of New York on
the north a distance of 575+/– feet to the point
marking the southwest corner of lands now or
formerly of Denison (2012/1896);
THENCE northwesterly along the westerly
boundary of the lands now or formerly of Denison
on the east and the lands purportedly of the State
of New York on the west to a point twenty (20) feet
southeasterly of the common boundary of Lots # 1
and 3 of the Oneida Purchase of June 1842;
THENCE northeasterly parallel to and twenty
(20) feet from said common line of Lots # 1 and 3 of
the Oneida Purchase of June 1842 through lands
purportedly of Denison (2012/1896) and Moshier
(2007/25259) a distance of 925+/– feet to a point in
the centerline of Marble Hill Road;

86780 • CARROLL • APPENDIX L

AL 5/19/21

161a
THENCE northwesterly along the centerline of
Marble Hill Road a distance of twenty (20) feet to
the point or place of beginning.
Containing by estimation 20+/– acres of land.
The aforesaid four parcels comprising tribal
lands belonging to the Oneida Nation/Orchard Hill
Party and the grantor, Melvin L. Phillips, as further
and more completely evidenced by the Exhibits
(No. 1 to 12) annexed hereto.

86780 • CARROLL • APPENDIX L

AL 5/19/21

162a
Attachment
“Being and Habendum” Clause to Trust Deed
made by Melvin L. Phillips
The grantor, Melvin L. Phillips, is a full-blooded
Indian, being a direct descendent (great, great,
great grandson) of William Day, a chief of the
Orchard Party of the Oneida Tribe of New York,
who, with other Oneida Tribe of New York chiefs
on January 18, 1839, gave his free and voluntary
assent to the January 15, 1838 Treaty made at
Buffalo Creek, New York, between the United
States and the New York Indians (7 Stat. 550,
Article XIII), as amended by the resolution of the
Senate of the United States on June 11, 1838.
The Affidavit of Lewis Day to United States
Commissioner of Indian Affairs on October 16,
1901, Exhibit 1, pursuant to the Act of Congress
approved February 9, 1900, to pay the judgment of
the Court of Claims in favor of the New York
Indians, rendered November 23, 1898, for lands
set apart for them in Kansas under the terms of
Article 2, of the treaty of Buffalo Creek, New York,
January 15, 1838 (Lewis Day Affidavit), on file
with the National Archives, establishes the lineage
of successors in interest to the title of the subject
property as follows:
The said Melvin L. Phillips is the great, great
grandson of Moses Day, who is the son of the
said William Day, and Moses Day’s wife Susan
Johnson Day (sister of Chief William Johnson);
The said Melvin L. Phillips is the great grandson of Lewis Day and Maggie Johnson Day;

86780 • CARROLL • APPENDIX L

AL 5/19/21

163a
The said Melvin L. Phillips is the grandson of
Lucinda Day George, the daughter of the said
Lewis Day and Maggie Johnson Day;
The said Lucinda Day George is the mother of
Evelyn George Phillips; and
The said Evelyn George Phillips is the mother
of the said Melvin L. Phillips.
The said Chief William Johnson signed the treaty
of June 25, 1842 (New York State Archives Microfilm # AO448, Volume 3, pages 243-249), Exhibit 2
(transcribed), between the Orchard Party of
Oneida Indians residing in the Town of Vernon,
Oneida County, and the State of New York.
In September 1993, the Orchard Party/Marble Hill
(also known as Orchard Hill) Oneida convened in
its historic meeting place, the old Methodist
Church at the corner of Marble Road and Indiantown Road, Town of Vernon, Oneida County, New
York. Thelma Buss, at that time, the Turtle Clan
Mother and keeper of the roll of the Orchard
Party/Marble Hill Oneida, chose Melvin L. Phillips
as spokesman. The enrolled members of the
Orchard Party/Marble Hill Oneida agreed with her
choice at the meeting. The Grand Council of Chiefs
of the Haudenosaunee of the Iroquois Confederacy
extended formal recognition to the said Melvin L.
Phillips as spokesman on September 11, 1994.
Exhibit 3.
Lands included in the said Treaty of June 25,
1842, are depicted as Lots No. 1, 2, 3 and 4 on
Historic Map 667, Exhibit 4, entitled Map of the
Oneida Purchase from the Orchard Party, June 25,
1842. --See Office of General Services, Bureau of

86780 • CARROLL • APPENDIX L

AL 5/19/21

164a
Land Management, Oneida Indian Reservation,
Review of Treaties from 1788 Through 1846,
Appendix A, February 2004, revised September
2004. (The following transcribed notes appear in
the margin of Exhibit 4: “Filed by the Surveyor
General, July 1, 1842, Arch. D. Campbell – Dep.
Sec. of State. (This Land is in the Town of Vernon,
County of Oneida – See Treaty).” “Nathan
Burchard being duly sworn, deposed & says that
the above map is true & correct & accurately
shows the courses & distances . . . of the purchase
from the Orchard Party of the Oneida Indians
made in Treaty June 25th 1842 from before him
July 1, 1842.”
Document A included in the said Treaty of June
25, 1842, identifies Moses Day and Susan Day as
two of the sixteen Oneida members of the “Orchard
Party who intend to remain on Lot number three
named in said Treaty.” Those Orchard Party
members are also known as the Home Party.
The members of the Home Party and their
descendants, including the said Melvin L. Phillips,
have fulfilled the intention of those identified in
the said Document A to remain on Lot No. 3 as
members of the Home Party of the Orchard
Indians; they have continuously used and occupied
said Lot No. 3.
Section 1 of Chapter 185, page 244, 66th Session of
the Laws of New York (April 18, 1843), Exhibit 5,
provides that the “Oneida Indians owning lands in
the counties of Oneida and Madison, are hereby
authorized to hold their lands in severalty, in
conformity to the surveys, partitions and schedules
annexed to and accompanying the treaties made

86780 • CARROLL • APPENDIX L

AL 5/19/21

165a
with the said Indians, by the people of this state,
in the year one thousand eight hundred and fortytwo, and now on file in the office of the secretary of
state . . .”, the said Treaty of June 25, 1842, being
one of those treaties.
The said Moses Day certified that the said
Document A contained an accurate list of all those
of the Home Party and that the list was made “in
full council with the consent and approbation of
the whole Orchard Party of the Oneida Indians.”
The said Susan Johnson Day is a Marble Hill
Oneida and the sister of Oneida Chief William
Johnson. See
- - Lewis Day Affidavit. The said Susan
Johnson Day is among the beneficiaries of Chapter
529, page 1279, Ninety-Second Session of the Laws
of New York (May 3, 1869). Exhibit 6. Pursuant to
that act, the Commissioners of the Land Office
referred to in Article 2 of said Treaty were
authorized to cancel the patent to “lot number two
of the Orchard Indian purchase” upon a determination that the patent had been “obtained illegally
or by error, or by mistake of law or facts.”
In his last will and testament, November 13, 1926,
Exhibit 7, the said Lewis Day bequeathed the use
of all his real property on the said Lot No. 2 for
“her natural life” to his daughter Lucinda Day
George and at her death to his grandchildren Elsie
May Hyonoust, Irene Hyonoust, Melvin George,
Evelyn George and Pierre George.
In her last will and testament, Exhibit 8,
December 11, 1952, the said Lucinda Day George
stated that “In accordance with the wish of my
father and my own wish, I direct that all the land
belonging to the George family property and at

86780 • CARROLL • APPENDIX L

AL 5/19/21

166a
present owned in shares by myself and my
children, shall not be sold, but shall be retained
intact for the use of my children during their lifetime and upon the death of the last of my children
shall be divided among the grandchildren; with the
following exception: I leave the three-cornered
piece of land belonging to this property and adjoining Nelson Johnson’s land to Nelson Johnson,” the
George family property being a portion of the said
Lot No. 2 and a portion of the said Lot No. 3.
In her last will and testament, December 11, 1952,
the said Lucinda Day George bequeathed a portion
of the said Lot No. 2 to her daughter Elsie Eckhard,
“provided only that on her death her portion of the
land goes back to the family property.”
In her last will and testament, December 11, 1952,
the said Lucinda Day George bequeathed the
house and land on the said Lot No. 3 occupied by
her daughter Evelyn Phillips to her “as long as she
lives, but at her death both house and land on
which it stands are to revert to the family property.”
In her last will and testament, December 11, 1952,
the said Lucinda Day George stated that the said
Melvin George “may have the use of all the land on
which my house and Evelyn Phillips’ house stand
(sic) during his lifetime, and at his death divide
both land and houses of this property among the
grandchildren,” said land being portions of Lot No.
2 and Lot No. 3.
In her last will and testament, December 11, 1952,
the said Lucinda Day George bequeathed the
house and land on the said Lot No. 2 occupied by
her to her son Pierre George for his use during his
lifetime and at his death” to her son Melvin George.

86780 • CARROLL • APPENDIX L

AL 5/19/21

167a
Pierre George died on or around March 18, 1995.
In her last will and testament, December 11, 1952,
the said Lucinda Day George identified Evelyn
Phillips as her daughter and bequeathed to her
“the use of the house in which she lives as long as
she lives, but at her death both house and land on
which it stands are to return to the family property,”
said land consisting of twenty (20) acres more or
less, being the portion of Lot No. 3 identified as
Parcel 16 on 2014 Tax Map # 333.000-1, Town of
Vernon, Oneida County, State of New York, together
with a road way twenty (20) feet wide to it from
Marble Road on Lot number three abutting its
northwest boundary and traversing Parcel 43.10
and Parcel 43.2 depicted on said 2014 Tax Map
# 333.000-1, Town of Vernon, Oneida County, State
of New York.
The
Tax
NY,
said

land depicted on Exhibit 9, Oneida County
Map No. 333.000-1 for the Town of Vernon,
subject to the conveyance into trust by the
Melvin L. Phillips being,

ALL THAT TRACT OR PARCEL OF LAND situate
in the Town of Vernon, Oneida County, State of New
York, distinguished as Lot No. 2 of the Orchard
Party of Oneida Indians by Treaty bearing date
the 25th of June 1842 and bounded and described
in the field book and map of said tract made by
Nathan Burchard on file with the Secretary of
State. --See Catalogue of Maps and Surveys in the
Offices of the Secretary of State, State Engineer
and Surveyor and Comptroller, and the New York
State Library (1859) Exhibit 10 (cover page) and
more specifically described as follows: that portion
of Parcel 48, one acre more or less, lying within

86780 • CARROLL • APPENDIX L

AL 5/19/21

168a
Lot No. 2 and Lot No. 4 established by said treaty
that is subject to the indenture recorded April 30,
1974, Exhibit 11, in Liber 1988, Page 605 for land
owned by the said Melvin L. Phillips and depicted
on 2014 Oneida County Tax Map #333.000-1 for
the Town of Vernon, NY; and those portions of
Parcel 46 and Parcel 48 depicted on said 2014
Oneida County Tax Map #333.000-1 for the Town
of Vernon, NY, within said Lot No. 2 and bounded
as follows: beginning at a point where the boundary
between the said Lot No. 2 and Lot No. 4 meets
Marble Road (formerly known as Knoxboro Road)
thence northwesterly along the centerline of said
Marble Road four hundred (400) feet more or less;
thence northeasterly three hundred (300) feet
more or less on a line parallel to the said boundary
between Lot No. 2 and Lot No. 4; thence southeasterly two hundred (200) feet more or less to the
boundary of Parcel No. 46 on said 2014 Oneida
County Tax Map #333.000-1; thence northeasterly
on a line parallel to the eastern boundary of Lot
No. 2 to the northern boundary of Lot No. 2; thence
southeasterly to the boundary between Lot No. 2
and Lot No. 4; thence southwesterly on said
boundary to the point of beginning.
ALSO ALL THAT TRACT OR PARCEL OF LAND
situate in the Town of Vernon, Oneida County,
State of New York, distinguished as Lot No. 3 of
the Orchard Party of Oneida Indians by Treaty
bearing date the 25th of June 1842 and bounded
and described in the field book and map of said
tract made by Nathan Burchard on file in the
Secretary’s office and more specifically described
as “Wooded & Overgrown Area, State of New York
(Reputed Owner), Moses Day (Formerly), (Melvin

86780 • CARROLL • APPENDIX L

AL 5/19/21

169a
George Formerly)” on map titled “Portion of the
Lands of Thurston Farms, Inc., Marble Road,
Town Of Vernon – Oneida County, State of New
York File No. 05-137/5 and dated October 16, 2007,
and further described on said 2014 Oneida County
Tax Map #333.000-1 as Parcel 16, consisting of 20
acres more or less; and that portion of Parcel 43.2
and Parcel 43. 10 within said Lot No. 3 depicted on
2014 Oneida County Tax Map #333.000-1, bounded
as follows: beginning at the point on the intersection of the boundaries of Lots No. l, 2, 3 and 4
on Historic Map 667, Exhibit 4, entitled Map of the
Oneida Purchase from the Orchard Party, June·25,
1842; thence southwesterly on the boundary between
Lot No. 1 and Lot No. 3 to the boundary of Parcel
16 within said Lot No. 3 depicted on 2014 Oneida
County Tax Map #333.000-1; thence twenty (20)
feet easterly on the boundary of said Parcel 16;
thence northeasterly to the boundary between Lot
No. 3 and Lot No. 4; thence twenty (20) feet
northwesterly to the place of beginning.
Being the same premises exclusively owned,
possessed and occupied by Melvin L. Phillips
variously for residential, commercial, hunting,
farming, gathering, water supply, and ceremonial
uses by him and his heirs and assigns and as
steward of said premises pursuant to his authority
and responsibility as spokesperson for the Marble
Hill Oneida.
Being also land on which the Oneida ancestors of
Melvin L. Phillips were settled, and secured in
possession pursuant to Article II of the Treaty
with the Six Nations, 7 Stat. 15, October 22, 1784.

86780 • CARROLL • APPENDIX L

AL 5/19/21

170a
Being also a portion of the land that, pursuant to
Article II of the Treaty with the Six Nations, 7
Stat. 44, November 11, 1794, the United States: (1)
acknowledged were reserved to be the property of
the Oneida Nation in its treaties with the State of
New York; (2) pledged never to claim nor disturb
the possession of the Oneida Nation or the free use
and enjoyment of said land by Oneida Indians or
their Indian friends residing thereon: and (3)
pledged would remain in the Indians residing
there until they choose to sell the same to the
people of the United States.
Being also a portion of the land referred to in
Article XIII of the Treaty with the New York
Indians at Buffalo Creek, 7, Stat. 550, January 15,
1838, for which arrangements were not made to be
purchased by the State of New York.
Being also a portion of the land referred to as the
said Lot No. 3 in the said Treaty of June 25, 1842.
Being also a portion of the land in the said Lot No.
2, the patent to which that was issued on or about
December 17, 1867, to William Hamilton, was
cancelled pursuant to the authority of Chapter 529
of the Laws of the 92 Session of the New York
Legislature (May 3, 1869) because the patent had
been “obtained illegally, by error or by mistake.”
Id, section 1.
--

86780 • CARROLL • APPENDIX L

AL 5/19/21

171a

MELVIN L. PHILLIPS, SR.
and
the “MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST, dated August 2015”
EXHIBIT 1

86780 • CARROLL • APPENDIX L

AL 5/19/21

172a
(,-. -~ iimmxi,
~T TIE IQTIOW. NOiMS :
--1.-.-.··.~.·•.~ •- .~ .. -;•,;.:: · 9 ··- -· · 1
- - - --- -·· __ __,, ....... . ..,~ .. .. -

'

The Commissioner of Ind/an A.ff11/rs:
I heNb7 make •ppUCft&lon ror 1ncb 1bare, u mar be dae m", or the fll.lld apprOprl&ted br the ad or
CoD~ ai,pro-.ed FebroM')' t, JOOO, to ~1 I.be Jadpnaotor U.1 Coorl. of0la.lm1 lo t'll,Tor o(U>.1 N•• Y«\
Indl.na, re.ndered N'owe.mbtr 23, 1898, for Jud• 11d1part (or them In X.&011.1aad• thakrmaof Art.lclt2,
oflhe treaty orBClfralo Creek, N. Y ., J&lloary 10,, 18". The 1rideD011 ofldeoUl.y la lrtnwlth nbjoi.a-4 :

......

....

·--//----

?!

e!:

.

II>

··--··--···-·-····-·-··-····---·--·-··"·-·:,
- ······ -·- · · " - -

18. Do 701t .ud 7our

-------·-·-·-

---·---··•-•·•-·-

n.mn7 dn• HHIUa from 1\e Unlted BtatMt .

...........:··-----·- ·- - • .. ·

S l d ' ~. G ( L ~-

a. Al•h•• .lcu"1f ........

U. 'Oit-1 .1H.mea of 700., tatber qd motlier, .Jao wUn _o r htW,aedle

·-·· -·

c:;P.,?,.,

1

-·--- 0.:

M Ui•

fUe•,;.,_;7 ' b,e, ·~

____ .. .22.~~r..,;~~ ~~-.......

-,,.,,.,.9-.. ....k:.. :la,d~-

--~

.... •· .................................. _.. ... ··-······-····-···-····
·-···············-·-·-····
··
,

17. Did ll1e7 rttlde ln t.be United 81&~T .~
18, To whicb tribe or band

or~e"

Torlii.

Gu.-dld

.
t.he7 belong?

- - ••H•--•••••••• .. •••• .... •- •--•--•••.. ••-•oo .... ,_,__,, .,, __ ,.,_,,,,,_., •.•• , - - • •••" •' " "

86780 • CARROLL • APPENDIX L

~=

AL 5/19/21

173a

· •-•••··••-••·.. ••h••••• .. •••--•••••- ••··-•••••• ··•................ ....... _• -•• ••-•••--••· - • - - - --

~==z~
~ ==~~

~O. H11.ve you enr

(or 1111ro1h:oeot. for aonolUc., laq4 Of' other beaellLI; ud lt to Mid been d11Dltd,

•-n••···-.,··••H-••·- ··.. ···-··----·-·-··----···········

,1-.t.e Uae

27.

-

aspedlte ldQ.til.011,dDII, alalm.nta ahoald ilu th• flall mama. Ir poalble, or thalr pa,te,ea1 &l:ldl
maternal a.aoatoni b•ok M 1834.

.J:;.~~·· · ··--~ ____·_---·-·--

-····-- ...~
···~-...

... ....

..

:::::·~.:~:~ :•·· .

.

....

~n-r-iJ,1

I

·l

-:::::::-......................·-············-··-.. ···············-······.......... ..................... ·-····-······
···········-···
·-··---

~t;;:;···:: : : =: :::.::::::::::::::··.·:.·.·:.::~:~::::::::~·-:·~=--::::::::.:=:

,.,,.,~~~~a...---·-·-··-·................·-······-··········-·-.. ·•-,. . ..
....................... ........-•-·-·-··-·---··..
........ ·• . ·•·•·····........................................- ..... ... .....................- ............. ·---·..·---

-

,

86780 • CARROLL • APPENDIX L

AL 5/19/21

174a
(,•:,1 ~.Ar
. . - . ·--.. ···(Uatlur tliM 1..-1 it.. ~ppllOUII•

j:i-iaro.

- _,. . ... _.

"C(fflVl'.:S ''
.,- .

.. -

.REMARKS.

,rlN an, .,1,UUaMI la/onnath11• •1.-t. b. beH,w• wlU aufa 111 P"J"'11111 kill ~

1t07. J

......... -·········.. ····-······-······-···················
···········-·.. ·································-··
···························

.-..,..,

,- - • " ''

··-··-·······-·.. -········-·-···-·························... ·······.. ····--······--······················•·••····-·········-------,,..,-•---··.·-···--·······.············-·····-·-····-·-······-····-·-······--········-·······-···

. ,_ ..... -·

•

• •• • • ~ o,,,,.,,._,, ,, ,,,,,, ,0,,,,,,,,0,,,0,,00,00 •• ••••-•• ••••

• o

•••

-••••••••• •••••••• ....•••-•••--•- ••••• • ••0 .. ,0,,,,,,..,.,,

" '-"'.t bat ~ •r lbe~••l'-. •• ••lfo.•t
~•lii•cp• s-. -.rau,.

lfon..--'---- tlloaM

.... t-..ppllcable,

be ll..:II la -

I eolematr nr6AI" lhal I-he t'oNgola11tattmeoill made by nie are vo• to the bMt:
aod belier.
(Si,-,. ,) ...

Bubtcrlbed ud awora to bel'on me thtl . / £ ~ 7 of • •

..

!:il.~

or 1117 l:no.,Jedp

·····-····-···-······
••, 1901,

AF.FIDAVl'l'.

86780 • CARROLL • APPENDIX L

AL 5/19/21

175a

!

ii

ti
I
I

·-·

I

i·
\

I

I

!

I

I

/

I

/

I

J

I

i

.,.

'I

-

86780 • CARROLL • APPENDIX L

••• -

.,
·;_~.}""'

• ..... ~ l ; i

AL 5/19/21

176a

MELVIN L. PHILLIPS, SR.
and
the “MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST, dated August 2015”
EXHIBIT 2

86780 • CARROLL • APPENDIX L

AL 5/19/21

177a

*.

A Treaty Bctweeo the Orchard Party of tbc Oneida Indians residing in
the town of Vmnon COUDty of Oneida and Sllllc of New Yorlc constitllting
party pf the first part and the people of the Slllte ofNew Yode by lhcir lawfn1
agems the Commissionm of the Land Office being party of~ Secaul part
Witnesseth as follows to wit

""'Ju#I :z.l;'
/

f l/P.

' ~ •f

Article I The abow named party af the finlt part fur and in
considc:mtion of the agrccmcnt hcn:ioaflcr contained IIIIOlher part of the party
of the socond part and tho .i=:ipt of the som of U10J1cy hCRinaft.cr mfl111ioncd
to be paid Do hcn:by grant, bergain, sell,. cede and surrender to tho pcoplo of
the Stan: of New YOlk all 1hc right title, cs1a11: and inteiest in and to all that
part oftheir reaavation known and distingaishcd as Lofll NIIDlber Ooe, two
and Four cantainingin tho aggregate one hondrcdfi>urtem24/100 acres in
Nathan Burchards Survey and locat.ed .in the town of VCIDOO county of• • •
Referred to in the foregoing troaty conblms an accurate·list of all those of the
Orchard Party who intend to remain on lt£tnmnber three named in said
Treaty known as the Home party of the Orchard Indillils !lie n.mnes anfj

_ hm
_ of~th~e h~om~o~party~-- -~
~ ~- - - -~
PocmPC:Df.A
-mem
Wtlliam Johnson cbic:f
Elizabeth Johnson
Hannah Johnson
11 souls
Jcmry Johnson
Moses Day
Caty Johnson
SusanDay
David Johnson
Margaret Day
6
Sally Day
Baptist Day

Mllri!am Iolm

mno1111t

DollyJolm
Thomas John
Caty Jahn
Eve John

t1-r...n:

,I J~ f ,r, lio

. . t#lflAl!C
11n:
f'6'

,t.latOPJ&lf

•A0'/118
~.J

i

16 souls

2

11 souls

Oneida County SS:

the•

We hereby certify_that documcnl3 A and B COlllain an
aCCUillte list of all those of tho emigrating and home party of the Orchard
Party of the Oneida Indian& and that
were made by us in full co11JlCil
with the canscnt and approbation of the whole of tile On:herd Party of the
Oneida Indians.
_.
Moses·

X

Day

·

William x Camclius Chief

Moses x

Cornelius

William

X

.H.cmy

Comclius

David

x Johosan

X

Johnson

In prcsa= ofws . Nathan Burolwd

Jacob Cornelius
Joseph Comclios

86780 • CARROLL • APPENDIX L

AL 5/19/21

178a

MELVIN L. PHILLIPS, SR.
and
the “MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST, dated August 2015”
EXHIBIT 3

86780 • CARROLL • APPENDIX L

AL 5/19/21

179a

i#•=•C!•#S

HAUDENOSAUNEE

ONEIDA NATIOII '

OF ORCHA RD HILL

MELVUI L. PH11.t.lP8 • RsPR&HK TATrY&

VIA

RD#2 MARBLB RD

OHIDA,

N.Y. 13421

(3161363 -9:293

To Whom it May Concern:
This letter la to inform you that on Septembe r 11, 199t the Gnmd Council
of O,i~fs
of the Fiw Nations Iroquois Co,1faderacy - in our language the Haudmosaunu
- in

accord with the traditiona l laws of the Longhouse extended formal recognitio
n to
Melvin L. Phillips as Representative of the Ondda Nation of Orchard Hill.

The Orchard Hill Oneidas dwell on lands that have been passed down
from
generatio n to generatio n since tjme immemorial. These sacred lands
remain
uruelinqu ished and unceded to the United Stales, or to any other foreign
government. Our peop_le are the direct descendants of the Oneidas who
have
remained in these ancestral lands when the other citizens of the original Oneida
Nation were &catlered to the Onondag a Territory, Canada, and Wisconsin due
lo
treaties entered into in the 1840s.
We maintain our own distinctive customs, traditions, treaties, rolls, and burial
ground. As a separate and independ ent people we are fully participat
ing
members of the Five Nations Iroquois Ccnfedemcy. We continue to manage
our
own affairs, and respect as sacred th~ traditional form of governme nt of
the
Havdenosaunu.
Representative - Melvin L. Phillips

/JJ7ak-vir, ;J IPA:fei;,c,

Oanmother-Thelma B u s s ~ -~
I

In attestation of the foregoing: •
·
Tadodaho of the Haudenosnuntt - Leon Shenandoah

86780 • CARROLL • APPENDIX L

c:.l/, 1,,
<

L~

AL 5/19/21

180a

MELVIN L. PHILLIPS, SR.
and
the “MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST, dated August 2015”
EXHIBIT 4

86780 • CARROLL • APPENDIX L

AL 5/19/21

181a

Historic Map No. 677

;fl

...

J_• • ·• -

,·)

,•,

. '.I'

• I

. . . _ _ _ _ _ ~ - , - - - -\~

'

I;

,,-;..,,, ,, )' •,.,,_,1,, I

IT'fl

;

,.

/.

-.

86780 • CARROLL • APPENDIX L

......_. ..
. .

. ......: ......,

.

'>l,_lf,'fj;,~~ ..,., ,.. ';/dd,

AI

•

A,,"• •
1

•

,;,

.;·
.,,J.,, ..

~('Ir

f'l •

I

I
.(

•

1•,..,,__.,....,.,,,._,l·.,

I'~ •- -

. .. 4 : ,~- ,,,.

•· • •• • ,,.
,l,,

. ~ -

•1 . . . • , ; •

• ' •'"}• ,,-,. t-

...

l>,1.,,.,, ,,,1· ,,u,,, • ,~.,.~,,..,

AL 5/19/21

182a

MELVIN L. PHILLIPS, SR.
and
the “MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST, dated August 2015”
EXHIBIT 5

86780 • CARROLL • APPENDIX L

AL 5/19/21

183a
244
.._

LAWS 01' Nl::W-YORX.
., · \-,. Tbi1 act sb,oll cO!lti'!ule in forte for two yea.n frora
tlie tiJlle al it,s passage.

CHAP.

185.

.A.N Af!r· rtlalwe ·to . th• OMida .TluiiaM.
. Passed April 18, 1843.

M

2"M PeOJ>l• oj-lM Stirt, ef .}(-Y'~!,, 1"tp<1ml..J in 8,t• and .&,,mhly, do m,u;t ,u follm.M:

\ L Tbt Onadn locliMs O-WBing ISllda in tl>e
=.
On.;Ja tnd
an hareb1 •uthoriud
~'l:,.. lt.D<la in s«ualty, io 0011tarmity-to
-•

)if:,,a11011,

CO'lllltiet

of

ui old theuthe suruJ•f p111t.hions
- ky. and cebu!ulc.i a.ot1Ctd to •nd 1ccomp2J1yillg the t rutiu
mue ,.ith Ilic. ai.d lnd~ by luc people of
atal~ in
the Jt<ar en• lhon.ud eight bu.nJred ""d /erty-{v,e 1 ,.,,,1srow
on 61.< m the olDce of lh ~~taty of 1111.e; nd Ille leis ac,
puuliened u,d itsignuLd by Cllid fllne:y to !htgjot In~ian.s,
shall be detme<I to ba in -li"' of oil clai,m! a!>d intces.t af1ht
Aid .India~., b,· u,d le all otht: luida •••l property in lbc
, Oi,ci.11. ll.cunnou, u~pf u,, 1.11\aion lot ca 101 obe, aod
• lhc cbmcl, lot o lot two, of lho OncidA Purdwe, of ?Ny
~, lS4.2, whicb
to be bold bJ d,esaidlndlauulen1.n 18

Ul common..

·

l!.. The goumor 11,':all app?iot" su.painlc~dcnl a! 11>e
._ ,...:,~ Onia1 lodi....., wbo lb ll ~old"" office for rho urn, of two
"'yun. r.i.bjaet kl bt ttmoye,I fer e&IIU.
ws--,
lt .ull be awful for
said guptrintcndeiu of u,.,
::!.."";- Oocia• Iodiana, 11po~ appUcat:foo "'11.de lo him fnr
pur....._
-pose, b)' 2JIJ :x..liu,, w Ioclian uwniog l;imtb .11 ~far<:slid,
:o .sdl and cow,ey 111oh hn4J to the pan<ID or paioas e:o
q,plfi.ne,J'rovidcd tb, prie11 agn.cd bpOTI Olt"<fUD .:o\Jl Lidiani or lildw, IXld U.t ii.id pm,on ct penon1 ,o applfing lo
pa:rchu. said 11114), ahAll, in Ill• opiru011 of lh1 &aid auperint.eadoot1 bt lllM loo Wint !air onJ .-u!>lo price lhcaJ'nr:
A.id Ul • aid ..pumtm'.l~mt lb.ill ttcc,hc, at I.be tii:a af
muung A~b "1<, not lea lh"" ont-folU1li J'l,l'I ol tht p11rtr.oaey ia ' hand, aad $hall lffllfe t.bs :uiihie by bone!
a:ndm0<1g"-g~p,yahlt wit.buifcrar )'can nom lheda~ tlie~of,
wiih Ul>Ual 'm!cre,t, to tao Kid ,upwt.,ndcJlt u<l hie ...~CffS()f~ ill offiu, In t:ro<t for 1h1 said lodru,1 l'flptoti••ly.
A dee<\ ot an Indian el,11) be Talid i.o .ooa•ry lha litlt o! haii11l{, hu wilt ud ID.iao, cbildren; ..,11 t nry dm uu,,tLti
b, -.irtu. of thia act, ahtJl 1w, ~clmcrwttllgtrl h U c gr:i,>lot
l>efore tb• 6nt Judge oJ Madi,o11 eogntf, u,d
conont or
Ila ,upumluidez,t thall be uidol'MCI t h - ; ud, vboo oo
~..

'a'.

86780 • CARROLL • APPENDIX L

AL 5/19/21

184a
245

SIXTY-s:IXTH SESSION.

exec11led IU>d aclcnos,Jcdged and <crC'6ed sb1D be =tde.J
in the coo.oty jo vhu>b uid laru! sl:all le, -.,il.h lb.e SIUDe
dfect » other d ~
\ 4.. T\ ..,i,\ •ll{>e<int=oot shall k""l' • boalc, i o 1"hiGb ~ h.e slraU opcn1111d lcu.p , full ""COU!l t o( debt 0111 uecliL .,,t.h ~"".!"
cuh Indian (or ,.hon, be acl.l 411.d fo:rwhora buha)I rcctive::"~~
'ooox ,b,all 111: all~ ..iit
""1 monC)' by ,ircu oJ \\,\s w,all"'bi<l1
eusou:s; .ad ht •hall ...._
t:imd be OfW1 for inspcctioo lo
PRJ ..... all n>onq !If lt ~nl !rom am« \O tiaic, COClle lo
his IA.ntls, to I.he L,Ji,oa or Ionian, to wh0<0 it tna] rigbtflllly
bdoog, 011 dtnwul, dedacliilg tbtn&om bia rtt19?.ablc
chug<L
6. Tbc mid Npctintcn,leot aball, yj(h t be COMenl of Lm~.,
n>1jority o/ tho allicfs n~d haul racn o( tbc cnid bdi.o.ns, ..,U ~ " "
:>nd cc11ny lbc uo•c meotio1od Jo~o!-l;md, he\clo=tdinr=..'. r

to fnduin UPgcs, ~11cl unctioot:d by t/cati.es 1Vith,t:bem oa the lltir.at.
part of this st:tt., A• the comm0C1 pn,perty of all the O.n ddss
who did aot =lt: their laad1 to Ilic i:,eop1o of dm st,,t,: p,..;.
vlcut to tLo b'c:ll)I 01ailc w;u, 11>e,i,, lihroh 8th1 1~ t, for &
(a.i, pric:e, 1mto any put<:hAKr or pu-,;h.l.nl'l, r,y re.tnirini:
f<11m them cash p,,ymcn~: A.no IA.a cou•c~1111= 5li:Jl
made, t">Cc.cnlecl,ourl °"koowltilgcil by <he saul npcrrn cod·
ir. couna,l
cnl· and tl.c coo~nt or tbu chi.C. ond utvtl
~ I ,1,o bo aclcnowlcrlgetl ln the prcsai'ce o( 1,0 o!lia:r doly
<1.uali.6cd tu huc4 aol.nowlod~t, of dtedt; Clnti 1111ch 1,::.

mu

la,o,..Jcdgmuu ,!,,JI be co,lon.cd cm aoc:h deeds, in lhc l~c
-nnc,r uorl lo llio ,cunc. dJ'«1 a., coo,..,yiu,c.,, meyrioacd ;,.
· lhc U,ir~ section a ( t.his a_ct; nJ lbc moooy a , ~ uom the
Ale <If :111icl ccmro<Tll hlmls, alltt deducting the TCMOoa.blt
c,cptJlllCS iilcl!J'tcol u, tlu, "'1nty, c!Mcriplion 'an,1 Ilic partitiall
o( rJl lcu,,J,; ,.,,lcb n,c Ibo cnl>ju:I of l.)ia ...:t, ""d a( all the
e~t11114S< in lite n•~nti:il:io!> :uul eoocla.siou of the arlral.,,~
.mtio11 or th,ic public ;u&;~ ahall be paid by Li,u w t:bc
Did chicl', q111\ bc••l 01cn.
\ 6. '.M,o d ~ .uul onn•cy11nccs made u afor-i~, uall
"°"""Y all tbo ngLt, title M•f intuait o! tl,o said Indiana or
Iodiau 1 wl\oao l•nrll s4:i.ll bn bceo conveyed IS "fo,-id,

=-~

to tho Qlllc1 and rihe.11 . Y.,.t mt~c 1111rchiucr oc
of, in
piuclwi:r11 b~ or lbdr bcir, ot ll$$icns Iorner1 ..,, abso/dc
caiate o( ioiaibacc io fee simp)L
1 . Duoro U,c aid 1t.1pe1ml.ad.ctlt ab.t.U }'rooc~ to e:xe- - - . ~ •
Clllc tloo truat 1epo31:J in hi,- by thio :,ct, ha 1b.o.ll, with t"'o
sufficient snrctioa lo bw ~ppra,,id by 0..1ir&t J~c\r--*·
gooll
of Madison tolltlty, aacuta a boat! ~the JJtopl< or tb!s st•ic,
i,, th., 111111 orti•c t.hocnncl doUGr&, C011<fftioood (or tho 6.lthfol pc,normanc.e oC 1.,e tnJat npoac<I ;. biu, by tbiJ acL;
'lfhioh nid bmld shyll bl! liled ii, 1b1 oJJica or U1e-coo,p:tQllcr
cf th.I. etatc.

•~•l

=•!,S

.

LAWS OF REW-YORK.

246

8. Th1 -sa.id superiotende.nt shall, an the fint Monday of
F~firaary io ucl, a.11d cYerJ year, ,eport tc tbe C•lllJ117o0n
.

of lhis sl:91t, bi3 procudmg under wd by •irwc of 1h15 ict
stat.mg- hi< aconomt with each Iodin, reqoired lo bf: kept~
abovt.

86780 • CARROLL • APPENDIX L

AL 5/19/21

185a

MELVIN L. PHILLIPS, SR.
and
the “MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST, dated August 2015”
EXHIBIT 6

86780 • CARROLL • APPENDIX L

AL 5/19/21

186a

NiNETY-SECOND SES8ION.

1279

Chap. 529 .

.A.N .A.CT to authorize the Commissioners of the
Land Office to vacate a certain pa.tent. issued
to William Hamilton, to lands claimed by the
widow and heirs of William Johnson, deceased,
the Oneida Indians.
Passed .Mny 3, 1869 ; three-fifths being present.

of

Tiu People of the Slate of Nw York, rqn·eseuted in
Senate ancl .Assembly, do enact as follows :
SRCTJON 1. The Commissioners of the Lnn<l Office are

cood,tiona,

hereby authorized to vacate a cerlnin pntent, issued on !~~ll
. h
lolten
or about tlie seventeenth day of Decemher, e1g teen ta•e•t mar
hundred and sixty-seven, to William Hamilton. to certaiu ll\nds ol:l.imed by the widow a.od heirs of Willit\m
Johnson, deceased, member of the Oueida tribe of
Indians, for twenty-eight acres of hmd situate in the .
town of Vernon , Oneida county, and being lot nl.Hllbe_r
two of the Orchard Indian purchase of June twenty•
fifth , . eighteen hundred ·and forty-two, provided the
same W!1S .o btained illegally or by error, or by mist(,lke

c!,::·

o{ law

or facts.

·

2. And in case it shall satisfactorily appear that
said Willi11m Hamilton .was leo-o.lly entitled to said

L~ud com•

::i:;•::in:;:•
ti~:~aa-

pntent for said premises, then s~id commissioners are
herehy authorized and ·required to make to said widow :J~':u,.
a.ncj heirs of said
Jobosoo , _such compensation
··
118 i,ba\1 in their judgment. be equitable in the premises,
tnki ng into corisiclention the value of said lnnds at the
d.nte of such sale to said Hamilton.
· 3. This act shall take effect :immediately.

:w:miam

86780 • CARROLL • APPENDIX L

AL 5/19/21

187a

MELVIN L. PHILLIPS, SR.
and
the “MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST, dated August 2015”
EXHIBIT 7

86780 • CARROLL • APPENDIX L

AL 5/19/21

188a
LAST WILL AND TESTAMENT.
I Lewis Day of the town of Vernon in the County of
Oneida, and Sto.te of Ne\V York, being of sound mind and
memory do make publish and declare this my last will und
tes t am ent, in the mat t er following, that is to say:
FIRST, I direct that all my just debts and funeral
expenses be paid.
SECO ND, I give unto my daughter Lucinda George the use of
all my property both personal and real of every name and nature
during her natural life.
THIRD, At the death of my daughter Luc inda George, I give
devise and bequeath unto my grand children all of my property
equally both pe_rsonal and real their names being as follows:
Elsie Yay ,Hyonouet and Irene Hyonouet also Melvin George,
Evelyn George and Pien:eGeorge and any after born children to
take the same share with the others as mentioned and in
existance at the time of the making of said 'Ifill.
LASTLY, I hereby appoint Lucinda George my daughter
execrutrix

and in case of her death Frank George, Executor and

trustee of this my last will and testament hereby revoking all
former wills by me mr. de ...I also authorize my executor and
trustee to do and!preform all things incumbent upon thera, to
carry out the terras of said w111 and if it become.ft! neces s ary for
, them to sell the real property t o carry out the terms of the
, will they are authoniz ed to execute and deliver a deed ••1th the
same force a.nd effect as though done by me during my life time.
IN WITNESS WHEREOF', I have hereunto subscribed my name the

·~

thirteenth d~ of November, 1926

-:Ln,-<-{,j 9,~

We, whose nrunes are hereto subscribed, DO CERT IF Y, that on the
thirteenth day of Hov~ruber , 19<i6 Lewie
eubecribed hie

name

D8,f

the testator

to th is instrument 'in our presence and in the

presence of each of us, and at the same time, in our presence a,nd
hearing ddclaxed the same to be his last will and testament and

86780 • CARROLL • APPENDIX L

AL 5/19/21

189a
requested us, and each of us to sign our names thereto as
witnesses to the execution thereof which we he reby do in t he
presence of the testator and of each other of the said date
and write opposite our names our respective places of residence.

8/?4:!t.~
·
~(.~,-v ~hha.,

86780 • CARROLL • APPENDIX L

residing at

J a~

,4(0,.,....::,

I:; .

:ztee iding at/:/,, ?/4, .. ~ t i ' / ,

t?;.,.:

AL 5/19/21

190a

;."!·".

·-=·~

--'ak•1<w.1i.L AND '"TES'rAMENT. .
•

•

••

• • ~it-

4;:../

'°1

OF
LEWIS -,DAY·:

13th,

86780 • CARROLL • APPENDIX L

AL 5/19/21

191a

MELVIN L. PHILLIPS, SR.
and
the “MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST, dated August 2015”
EXHIBIT 8

86780 • CARROLL • APPENDIX L

AL 5/19/21

192a

...

1Wll1.

£,c.'

lJ

14ijnt.-:ll\ll}il. ririh Wt11tttme11t
·------:- In

Vo"'?n

---~ - of

.

.. . ,.,-·.. .

~ ~-P

b

of the
.

.

tho _County of-Jlllai.~

·t:

and Stato o~ · Jio'lf I 0 rlc ___ _'.__: __ ; bein11: of. 1ound,mlnd.•nd .~•mory; do 111&Jie1 ,Pt,blla\i and

Jaitil•:

decla.re tb!a my laat

, In ma~ne~ foliowlftll:,I that 11

anb {il~Jltamtnt

. •

.

3JlirBl-I direct that all my juat debto and !unoral

.

be pa.id .

upen,01

'

,,u,v-._. ~i-~t>.Y.tt....1...!ld.,-:.;....!l..:-;i!t,;,;c :to' nay

{i, ... .,,,1',-. __ l

.

.

-~~.! h11 ueo during ll1a l1totime e.nd

.. .
t.t )ip dt&t;I,. 1C ht

1

,~y:'

·-

)Uln.._.2.;._...t..J.'.l&....LL!IO~---

.

tl;)om

I direct tb.o.t ' my do.ughtor1 Ehie Bolcha.Tii

and Iropo INrsUok db'.ldo th• ·

.furJU ture aha re and aha re &like, &nd th•

hou,e 12..!L.to

SPY ..

,on :Wolx11:1 '0 :tierc•-.. .•

. '"",•• ,!J'•

.

1 lean tho piano to my grallddaucl}t,r, Ruthi~ 7 ~ .__,__

Third -

.. !~?!'!h -

In &ooorda.no~ with_ti\Lwi.lll....2.1'

diroot that &11 tho

hnd

lQV

·ea:tbir

&114 my QlllL..ld.Js!J.......I+-.

bolopu11c....1i9..:!;~cn fa'!'l)l' property •~ •t

1 Mt be
· 1hal
prese nt owned in aharoa by DlYIOl(• and ,m.X....Jl.hi.ldron ' :,·
• :•~
,•
.,
t

.ahall be retained 1ntaot tor the u,o

or

and upon ttlo de&tb of' the la.at

ah\l dron iba JJ be d1Y1da

.

or IQ)'

0

I

bot
•

my. oh1ldr~n d_1ir1ng tbe1r I1tet1P>•
•

•

I

•

•

·· 1

•

9JPODS

,th.
'

•

_ll!.(\1.:~.'!.l...&tj;ijhL..Coll~~ "Ptl~u• ' I )Mn ~
••

.2.!.~o~ of lo.gd bqlonriD<

11.1111 to Nolsop Johnpon.

\

to
•

,.

-t ~ n i e r,-4
:,...·yr.,,·.... .
t_b1 • l''7'P,DrQ< end •d;)o ln1ng >leho"' l~hqooa••
t

"'

• •

•

:

••

t'

'

. . . ... ~ , - ,

1 ••

•

:· -

.- •

••

•

•

•

.. , • ., .

• •

~: . •

'"'-~ ··· ••

••

•

t.. : .

- ~ ~w1-A-h-tha..t...tbJL.dj__apo e1t1o~ at the' rSeiht, ot •Y •~Ha-i-,n,_,,~...,•- - - - .
·,
'"
oC tho lead ervf-th..i.o...~1•U.e~pott--i,,,_. ---_(1U11lllL'1Ll'POCey

.

...P.r_ tcl...la-<t.c.o..a.t.ed upon· 1 t 1ho>1ld ho .,4. • • r:..~'lo.;, ..._ _ _ _ _ _ _ _ _ _ _ __
..•.. - - - 1 b ' . J l ~ ~ l c h u : d . , wb~ o~• her honu 1 ~¥

-,.

a,,,..;....,.,,..,.....t,.i....,.t~----

house or move it from the property a.pd boqpoath 1t or nnl) 1t ••

de-

0

airo,, proTided only_ that on h er doath bor PJ2.rr1on at tho lend. goee beak
property .
to th o
My d4 •Jghter Tren.e

Burd1ok ,

who own, ODO '"ro

or

tho r r.11:\ly prOf>•rty,·

~--L~::·•~~'!11. ! tpd ~i!!:!~L ll!l~.h. .b.Yil/\.ul.t..a.a...,.Ju,;.u.aha.•.::·1,,.Lo.;,_i,. ...........
ner eha.ro ot U\• 1.. nc1 1o Lo' reT•rt to tho £a.m.1lx p't:A11ort)C •. ~-..--:c· - - ---daughhr:4'!:oiynfbS 1·11P!"= 1~::ha;,:;;.k;~ ,:;,_ot: th•· ;.;.;:.:.....;,·~ ---~ ~
aho 11•~• a s lon& a, aho 11....,• 1 but at hor death both

1t

et&nda aro

My

10n

to retw-n to the 1'.MUv · rcop•ccy

Mel..,in OoOrca may baxo the

and C.elyn Ph1111Pt'

1ue

... - -

of ell the lend

bou10 ot-ond during b1e J1Cet1:aa end et

4a tlr, I horoby &ppo1nt my ,on, l.leh1n Goorg~,

86780 • CARROLL • APPENDIX L

•nd land

on whioa

:•. .·- . ::•.:·•·. -~-~:?-~·ai~

'1"'"Jl9Wf

4••'-e-'

o_(,l!l X,Jd) l

AL 5/19/21

193a

t.t'lll~Ml,a,-•... v-1 :.t,·111,
, :~1.:

tu.,· ,t-~ ~, .,l

lu.l '. • ~w;,~e.l~

wi~h . ,..;; .,o...,.: .... •U'-' ,r.~1.lu.,.. :i.,- i,.#

"&· 1..1.;~· ,iai4' rea1 .ds·~J.'ll, tiere.:,y 1·evokl.Ui &.1i 1orLlet' wiiift by ...ne mo.cie..

lit Wlitttrr;. i!l!f17neuf,

!\no

m, IJo Oltrtlfg

I h&vo hereunto

~y u&rno th1 _

a\,:~: . .....:

tt ,., -.., .

_l~'-~----

that the !orei(lnr ln•trument, partly pr!Dted .and partly_· ___ .,__ ,

wriU.n, waa at tho date tho<" of ( ~ . - ~ L , 19>"::l.) 'at.)C,,,., •., M rt
_ /l>...4...~_.c•,-.-Cour.::1,

,Q;u • J ._ _,

N, Y., ~limed, ee&led; pu611ihed and~oclaf•f~! -the.~ t~:~.

.... :. ~-- ·-· ;"'.·.. -.. ·~:.;;._.. - ::-:... ::·:•, _i;::: •:~-=:=-, :~"'~"-;;_.".:::,;,:;-.::.

... i·. <';;;_ ·.:/. . .

1<4t will ,nd t.eatall'CAt, In ':h• prP.Aell_ee cf uo, who, at ~ . requeat 'Am! ia, 1!.,.__P"•s•,11c,~ •n~
u Un preaonco of urh othr:· v,. aubacribed..ou~ namu'u·•,ltne.,,115 tiJo.•oto.
.

•-::.~I\,.. ~, ·r, ,·_:r__
...,,., ~ · . . . . . . , __

• -.F

......... ~

=r;;-.;~•••rt..,.•.

·. .

,, '

A

,o_ • '

ff , · ·

•,

.

. ·A-.

21.

·r,i.:i_d lng .& t ~
.-~...C:¼l&l\t',t, r~ldlnz at ....0'?> a •~w 1 ,a

TA

'?;/:.

.

r.
I

i

i...

•1

..;~ :.
,•\

.,~;':~~~;·

86780 • CARROLL • APPENDIX L

AL 5/19/21

194a

MELVIN L. PHILLIPS, SR.
and
the “MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST, dated August 2015”
EXHIBIT 9

86780 • CARROLL • APPENDIX L

AL 5/19/21

195a

Map on page 195a
in 8.5 by 11 inch section

86780 • CARROLL • APPENDIX L

AL 5/19/21

196a

MELVIN L. PHILLIPS, SR.
and
the “MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST, dated August 2015”
EXHIBIT 10

86780 • CARROLL • APPENDIX L

AL 5/19/21

197a

..

CATALOGUE

SURVEYS,

OFFIOE S
~:_:: :

o,na

m:,~-=- .~ ~-- -

,·,·.

~:~~-·=:··sxoHTARI or STAT&, 8TAT8 ENGINREB AND SURVIYOB,
'

IIUJ.I!. :. .. •.

- - .--· · ···

~-,lCIYi.tn~rt , • .-

____,,,

i:.=_:.:,._ •_ • :..~._ .. •:

- -·
~
:.·.· .

86780 • CARROLL • APPENDIX L

....... ·:- •_..,,_~:.=~z:
I ;

•

~-• -• • • -.:.:.;.J

NEW YORK STATE :LIB~ARY•.

~ - •i.~--ff eu•• o; ..... u1aaiT ....-.
. .. ._:" "'

!

...,,HS

- •u• - .• ·
:::==-:-

_

:

: • . Dmaa:10~-~-:~

•rin

9.U

DIUOfl~ ~

o; -~ -

.....
9.t.t•• ~a&e.T .t.J(I ,nn ,._ .. .:·.

~ •.T.~!.-"f.li,P.a__f!'~_:. __ ••• -"""' - - -

. ..,.,..

DAVID_.~· E. MIX., C. E.

AL 5/19/21

198a

MELVIN L. PHILLIPS, SR.
and
the “MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST, dated August 2015”
EXHIBIT 11

86780 • CARROLL • APPENDIX L

AL 5/19/21

199a

Indenture on page 199a
in 8.5 by 11 inch section

86780 • CARROLL • APPENDIX L

AL 5/19/21

200a

MELVIN L. PHILLIPS, SR.
and
the “MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST, dated August 2015”
EXHIBIT 12

86780 • CARROLL • APPENDIX L

AL 5/19/21

201a
MELVIN L. PHILLIPS, SR./
ORCHARD PARTY
TRUST DECLARATION
On this 1st day of August September, 2015,
MELVIN L. PHILLIPS, SR., presently of 4675
Marble Road, Oneida, NY 13421 (hereinafter
referred to as “Grantor”), and MELVIN L.
PHILLIPS, SR. in his capacity as spokesman, for
the Orchard Party / Marble Hill (a/k/a Orchard
Hill) and as “representative” to the Grand Council
of Chiefs of the Haudenosaunee, in accordance
with the traditional laws of the Longhouse
presently of 4675 Marble Road, Oneida, NY, 13421
(hereinafter referred to as “Trustee”), hereby
declares and accepts the responsibility to act as
Trustee for the benefit of his lineal heirs and all
current and future members of the Orchard Party,
relative to and over certain real property currently
owned, occupied, titled to, possessed by, and under
the stewardship of MELVIN L. PHILLIPS, SR. as
hereinafter described. The name of this Trust will
be the “MELVIN L. PHILLIPS, SR. / ORCHARD
PARTY TRUST dated August of 2015”.
1) TRUST PROPERTY. The Grantor, desiring
to create a Trust for the benefit of himself, his
lineal heirs as well as the present and future
members of the Orchard Party, hereby transfers
and conveys to the Trustee (by deed recorded in
the Oneida County Clerk’s Office) certain real
property as more particularly and specifically
described on the attached Schedule “A” (hereinafter referred to as the “trust property”), in trust
for the following uses and purposes, and on the
conditions hereinafter stated. It is the intent of

86780 • CARROLL • APPENDIX L

AL 5/19/21

202a
MELVIN L. PHILLIPS, SR., to relinquish all
personal ownership interest, occupancy and
possessory rights in all real property now or
hereafter transferred and assigned to the Trustee.
2) DEFINITIONS. Whenever the following
terms are used in this Trust, they shall be defined
as follows:
a) Trust principal (corpus): all Trust real
property.
b) Net income: interest, rents after all
expenses chargeable to their production, if any.
c) Interested parties: For the New York
Estates, Powers and Trusts Law, Section 7-1.9,
the “interested parties” to this Trust Agreement
shall consist only of the lineal descendants of the
Granter and any others named under Paragraph
“4 c)”, and the Grantor, if living and competent.
3) PURPOSE. The purpose of this trust is to
insure, in furtherance of and in keeping with the
intent of the ancestors of MELVIN L. PHILLIPS,
SR., and the resulting previously stated and
agreed upon intent of the State of New York (as
established by Treaty, Statute and Resolution(s)),
and the members of the Orchard Party past,
present and future, that the lands described herein
will now and in the future be reserved to MELVIN
L, PHILLIPS, SR,, and his heirs and lineal
descendants if said heirs and descendants actually
occupy, possess and live on the lands described
herein for uses including but not specifically
limited to: residential, recreational, stewardship,
social, cultural, ceremonial, commercial, hunting,
agricultural, and gathering. And should MELVIN

86780 • CARROLL • APPENDIX L

AL 5/19/21

203a
L. PHILLIPS, SR., leave no lineal descendants, or
none who meet the foregoing possession and
occupancy obligations, then, and in that event, to
other members of the Orchard Party who actually
live on and occupy the said lands described herein.
4) DISPOSITIVE PROVISIONS. The Trustee
shall hold and manage the Trust property for the
benefit of MELVIN L. PHILLIPS, SR., his lineal
descendants who live thereon or who use the lands
for the purposes and uses mentioned herein above.
a) For so long as MELVIN L. PHILLIPS,
SR., is living he shall have the absolute and
unfettered right to live upon occupy, possess and
use the lands which constitute the corpus of this
trust for the purposes listed hereinbefore.
b) In the event any government action or
threatened government action impairs or
threatens to impair, or threatens to defeat the
stated purpose and intent of this trust or
impairs the grantor’s or the grantor’s lineal
descendant’s or future members of the Orchard
Party’s right to use, occupy and live upon the
lands which are the corpus of this Trust, the
Trustee, acting jointly with at least one other
beneficiary, in his sole and absolute discretion,
may terminate this Trust and distribute the
corpus as he in his sole and absolute discretion
deems proper and appropriate.
c) This Trust shall automatically terminate
on the happening of both of the following events:
(1) the death of MELVIN L. PHILLIPS, SR., and
(2) the failure of any of MELVIN L. PHILLIPS,
SR.’s, lineal descendants to live upon, possess

86780 • CARROLL • APPENDIX L

AL 5/19/21

204a
and occupy the lands constituting the corpus of
this trust or upon their collective determination
that none of them intend to live upon, possess
and occupy the lands described herein. Once no
lineal descendant of MELVIN L. PHILLIPS, SR.,
resides upon, possesses and/or occupies said
lands, then and in that event this trust shall
terminate and the title to the lands herein shall
pass collectively to the then surviving members
of the Orchard Party then living upon, occupying
and using said lands.
Nothing herein shall obligate the Trust or
Trustee to pay any portion of the carrying
charges which may be incurred by the real
property (i.e., insurance, maintenance, etc.) all
such charges being the sole obligation of the
person or persons living upon, occupying and
using the real property and upon said
individuals failing to do so then their respective
rights hereunder shall cease.
Nothing contained herein shall be interpreted as
altering the tax exempt status of the trust
principal (corpus) as it currently exists under
New York State law.
5) ADDITIONS TO TRUST PROPERTY. From
time to time, additions may be made to the Trust
property and such additions to the Trust property
shall be received by the Trustee and administered
in accordance with the terms and conditions of this
Trust Agreement.
6) TRUSTEES’ POWERS AND DUTIES. In
addition to any powers hereinbefore conferred
upon the Trustee, and subject to any rights or uses
reserved to the beneficiaries, the Trustee, in

86780 • CARROLL • APPENDIX L

AL 5/19/21

205a
accordance with prudent fiduciary standards, is
empowered to take any action desirable for the
complete administration of the Trust created hereunder, including, but not by way of limitation, the
power to hold and own real property; to use Trust
funds to improve, maintain, and preserve Trust
property; and to compromise any claim against or
in favor of the Trust to the extent deemed
advisable by the Trustee; and, the power to remove
an individual or entity who/which are not in compliance with the terms of this trust. Upon the
termination of this Trust, the Trustee may continue
to exercise any of the powers described above as
they shall deem reasonable and necessary to wind
up the affairs of the Trust and to distribute the
assets of the Trust to the named beneficiaries. The
Trustee herein shall be permitted to qualify and
act as such without the giving of a bond for the
faithful performance of their duties.
The Trustee hereby waives the right to receive
any statutory or other fee for carrying out the
duties of Trustee.
7) SUCCESSOR TRUSTEE. In the event the
Trustee herein is unable to continue to serve in
such capacity, whether because of death, disability, resignation or otherwise, DANIEL MARK
PHILLIPS, (the grantor’s son) presently of 4669
Marble Road, Oneida, NY, 13421 shall serve as
Successor Trustee. Should the said DANIEL
MARK PHILLIPS also be unable to serve for any
reason whatsoever, then and in that event I direct
that the Trustee shall be any other direct lineal
descendant of MELVIN L. PHILLIPS, SR. Who are
then residing upon and possessing the land which
constitutes the corpus of this trust, and if none,

86780 • CARROLL • APPENDIX L

AL 5/19/21

206a
then and in that event such person as is then
designated as “spokesman” by the Orchard Party.
Said Successor Trustee(s) shall have the same
obligations, responsibilities and powers as the
original Trustee and shall be bound, in all
respects, by all of the terms and conditions of this
Trust Agreement.
8) SITUS. The Trust created hereunder shall
be governed and regulated in accordance with the
laws, rules and governing regulations of the State
of New York and of the Orchard Party, and in the
event of a conflict between the two then and in
that event the Orchard Party’s rules, regulations,
laws, traditions and decisions shall prevail and
control.
IN WITNESS WHEREOF, the parties hereto
have executed this instrument in duplicate the day
and year first above written.
/s/ Melvin L. Phillips
MELVIN L. PHILLIPS, SR., Grantor
/s/ Melvin L. Phillips
MELVIN L. PHILLIPS, SR., Grantor

86780 • CARROLL • APPENDIX L

AL 5/19/21

207a
STATE OF NEW YORK
ss:
COUNTY OF OTSEGO
On this 1st day of September, 2015, before me,
the undersigned, a Notary Public and for said
State, personally appeared, MELVIN L. PHlLLIPS,
SR., personally known to me or proved to me on
the basis of satisfactory evidence to be the
individual whose name is subscribed to the within
instrument and acknowledged to me that he
executed the same in his capacity, and that by his
signature on the instrument, the individual, or the
person upon behalf of which the individual,
executed the instrument.
/s/ Martin H. Tillapaugh
Notary Public
[STAMP]
MARTIN H. TILLAPAUGH
Notary Public, State of New York
No. 4642560
Qualified in Otsego County
Commission Expires August 31, 2017
STATE OF NEW YORK
ss:
COUNTY OF OTSEGO
On this 1st day of September, 2015, before me,
the undersigned, a Notary Public and for said
State, personally appeared, MELVIN L. PHlLLIPS,
SR., personally known to me or proved to me on
the basis of satisfactory evidence to be the
individual whose name is subscribed to the within
instrument and acknowledged to me that he
executed the same in his capacity, and that by his

86780 • CARROLL • APPENDIX L

AL 5/19/21

208a
signature on the instrument, the individual, or the
person upon behalf of which the individual,
executed the instrument.
/s/ Martin H. Tillapaugh
Notary Public
[STAMP]
MARTIN H. TILLAPAUGH
Notary Public, State of New York
No. 4642560
Qualified in Otsego County
Commission Expires August 31, 2017
Prepared by:
Martin H. Tillapaugh, Esq.
30 1⁄2 Pioneer Street
Cooperstown, NY 13326
Tel.: (607) 547-7004

86780 • CARROLL • APPENDIX L

AL 5/19/21

209a
Appendix M
UNITED STATES DISTRICT COURT
FOR THE N ORTHERN D ISTRICT OF N EW Y ORK

__________
Civil Action No.: 5:17-cv-1035 (GTS/ATB)

__________
O NEIDA I NDIAN N ATION
1 Territory Road
Oneida, NY 13421,
Plaintiff,
—v.—
M ELVIN L. P HILLIPS , S R .,
individually and as trustee,
4675 Marble Road
Oneida, NY 13421
and
M ELVIN L. P HILLIPS , S R ./
O RCHARD P ARTY T RUST
c/o Trustee Melvin L. Phillips
4675 Marble Road
Oneida, NY 13421,
Defendants.

__________

86780 • CARROLL • APPENDIX M

AL 5/19/21

210a
DEFENDANTS MELVIN L. PHILLIPS, SR.
AND MELVIN L. PHILLIPS, SR./
ORCHARD PARTY TRUST’S ANSWER AND
COUNTERCLAIMS TO THE COMPLAINT
Defendants Melvin L. Phillips, Sr. and Melvin L.
Phillips, Sr./Orchard Party Trust (collectively
“Orchard Party Trust”) answer Plaintiff Oneida
Indian Nation’s (“OIN”) Complaint as follows. Any
allegations or averments not specifically admitted
herein are denied.
1.
The Orchard Party Trust admits that OIN
is suing to quiet title to 19.6 acres of land. The
Orchard Party Trust states that Melvin L. Phillips,
Sr. is a full-blooded Oneida Indian residing in the
Town of Vernon and a direct descendant of the
Oneida Indians identified as the Orchard Party in
Article 13 of the United States Treaty with the
New York Indians, of January 15, 1838, 7 Stat. 550
(also known as the Treaty of Buffalo Creek and
attached as Answer Exhibit 1). Members of the
Orchard Party Oneida, including Phillips’ ancestors,
chose not to remove to lands in the west pursuant
to the Treaty of Buffalo Creek but instead made
“satisfactory arrangements” for the Orchard Party
Oneida lands with the State of New York by the
Treaty of June 25, 1842, pursuant to the authority
of the Buffalo Creek Treaty. The Orchard Party
Trust further states that Mr. Phillips is the official
spokesman for the descendants of the Orchard
Party of Oneida Indians and their duly appointed
representative to the Grand Council of the Iroquois
Confederacy. The Orchard Party further states
that as an Orchard Party Oneida descendant and
spokesman, Mr. Phillips is trustee for the Melvin

86780 • CARROLL • APPENDIX M

AL 5/19/21

211a
L. Philips, Sr./Orchard Party Trust and possessed
of the lands of the Orchard Party Oneida held in
that trust, including the land subject to this suit.
The Orchard Party Trust denies the remaining
allegations contained in paragraph 1 of the
Complaint.
2.
The Orchard Party Trust states that the
19.6 acres at issue in this case have been held,
used and occupied collectively by generations of
Orchard Party Oneida descendants, whose continuity of ownership, possession, use and occupancy
are documented and culminate in the deed at issue
in this case. The Orchard Party Trust further states
that Melvin L. Phillips, Sr., acting in his leadership capacity as the spokesman for the Orchard
Party/Marble Hill (aka Orchard Hill) Oneida and
as an Orchard Party Oneida descendent and member
presently occupying Orchard Party Oneida land,
acted to conserve the Orchard Party Oneida lands
for the use and enjoyment of current and future
members of the Orchard Party Oneida by placing
the land at issue in this case into a trust. The
Orchard Party Trust denies the remaining allegations in paragraph 2.
3.
The Orchard Party Trust states that the
19.6 acres at issue in this case have been held,
used and occupied collectively by generations of
Orchard Party Oneida descendants, whose continuity of ownership, possession, use and occupancy
are documented and culminate in the deed at issue
in this case. The Orchard Party Trust further
states that Melvin L. Phillips, Sr., acting in his
leadership capacity as the spokesman for the
Orchard Party/Marble Hill (aka Orchard Hill)
Oneida and as an Orchard Party Oneida descendent

86780 • CARROLL • APPENDIX M

AL 5/19/21

212a
and member presently occupying Orchard Party
Oneida land, acted to conserve the Orchard Party
Oneida lands for the use and enjoyment of current
and future members of the Orchard Party Oneida
by placing the land at issue in this case into a
trust. The Orchard Party Trust denies the remaining allegations in paragraph 3 of the Complaint.
4.
The Orchard Party Trust states that the
19.6 acres at issue in this case have been held,
used and occupied collectively by generations of
Orchard Party Oneida descendants, whose continuity of ownership, possession, use and occupancy
are documented and culminate in the deed at issue
in this case. The Orchard Party Trust further
states that Melvin L. Phillips, Sr., acting in his
leadership capacity as the spokesman for the
Orchard Party/Marble Hill (aka Orchard Hill)
Oneida and as an Orchard Party Oneida descendent
and member presently occupying Orchard Party
Oneida land, acted to conserve the Orchard Party
Oneida lands for the use and enjoyment of current
and future members of the Orchard Party Oneida
by placing the land at issue in this case into a
trust. The Orchard Party Trust denies the remaining allegations in paragraph 4 of the Complaint.
Jurisdiction and Venue
5.
Paragraph 5 of the Complaint contains
conclusions of law, no response is required. To the
extent that a response is deemed required to the
remaining allegations of paragraph 5 of the
Complaint, the Orchard Party Trust denies the
remaining allegations of paragraph 5 of the
Complaint.

86780 • CARROLL • APPENDIX M

AL 5/19/21

213a
6.
The Orchard Party Trust admits Melvin L.
Phillips, Sr. and Melvin L. Phillips, Sr./Orchard
Party Trust reside in this district and are New
York residents. The Orchard Party Trust admits
the property that is the subject of this action is
situated in this district. The remaining allegations
in paragraph 6 of the Complaint contain conclusions
of law, to which no response is required. To the
extent that a response is deemed required to the
remaining allegations of paragraph 6 of the
Complaint, the Orchard Party Trust denies the
allegations.
Parties
7.
Paragraph 7 of the Complaint contains
conclusions of law, to which no response is
required. To the extent that a response is deemed
required to the allegations of paragraph 7 of the
Complaint, the Orchard Party Trust denies the
allegations..
8.
The Orchard Party Trust states that
Melvin L. Phillips, Sr. is a full-blooded Oneida
Indian residing in the Town of Vernon and a direct
descendant of the Oneida Indians identified as the
Orchard Party in Article 13 of the United States
Treaty with the New York Indians, of January 15,
1838, 7 Stat. 550 (also known as the Treaty of
Buffalo Creek and attached as Answer Exhibit 1).
The Orchard Party Trust further states that Mr.
Phillips is the official spokesman for the descendants
of the Orchard Party of Oneida Indians and their
duly appointed representative to the Grand Council
of the Iroquois Confederacy. The Orchard Party

86780 • CARROLL • APPENDIX M

AL 5/19/21

214a
Trust further states that as an Orchard Party
Oneida descendant and spokesman, Mr. Phillips is
trustee for the Melvin L. Philips, Sr./Orchard Party
Trust and possessed of the lands of the Orchard
Party Oneida held in that trust, including the land
subject to this suit. The Orchard Party Trust admits
that Mr. Phillips is sued individually and as the
trustee of the Melvin L. Phillips, Sr./Orchard Party
Trust, which also is a defendant. The Orchard
Party Trust denies the remaining allegations of
paragraph 8 of the Complaint.
Facts
A. The 19.6 Acres of Land the Nation Seeks
to Protect
9.
The Orchard Party Trust admits that
members and ancestors of the Orchard Party
Oneida used, occupied, and possessed the land at
issue in this case since time immemorial. The
Orchard Party Trust denies the remaining allegations in paragraph 9 of the Complaint.
10. Paragraph 10 of the Complaint contains
conclusions of law, to which no response is
required. To the extent that a response is deemed
required, the Orchard Party Trust denies the
allegations in paragraph 10 of the Complaint.
11. The Orchard Party Trust admits that
members and ancestors of the Orchard Party
Oneida used, occupied, and possessed the land at
issue in this case since time immemorial. The
Orchard Party Trust denies the remaining allegations in paragraph 11 of the Complaint.

86780 • CARROLL • APPENDIX M

AL 5/19/21

215a
12. The Orchard Party Trust admits that the
State never obtained the 19.6 acres at issue in this
case. The Orchard Party Trust denies that OIN ever
possessed the 19.6 acres, which had always been in
possession of members of the Orchard Party Oneida.
Therefore, the land was never OIN’s to convey. The
Orchard Party Trust denies the remaining allegations in paragraph 12 of the Complaint.
13. The Orchard Party Trust denies that OIN
ever possessed the 19.6 acres at issue in this case,
which had always been in possession of members
of the Orchard Party Oneida. The Orchard Party
Trust denies the remaining allegations of paragraph 13 of the Complaint.
B. June 25, 1842 Treaty with the State of
New York
14. The Orchard Party Trust admits that,
pursuant to the Treaty of Buffalo Creek, the State
of New York and members of the Orchard Party
Oneida entered into a treaty on June 25, 1842
regarding Orchard Party Oneida land, more
specifically Lots 1, 2, 3, and 4 as depicted in
Exhibit B of the Complaint. The Orchard Party
Trust denies the remaining allegations of paragraph 14 of the Complaint.
15. The Orchard Party Trust admits on
information and belief that the State of New York
surveyed Orchard Party Oneida lands Lots 1, 2, 3,
and 4. The survey map referred to in paragraph 15
of the Complaint speaks for itself and to the extent
that the allegations raised in paragraph 15 do not
comport with the language and depictions of the
survey map, they are denied.

86780 • CARROLL • APPENDIX M

AL 5/19/21

216a
16. The Orchard Party Trust admits the 19.6
acres that are the subject of this action are wholly
within Lot 3 and were never conveyed as part of
the June 25, 1842 treaty. Rather, the treaty
confirmed that the land would be “so reserved for
such of the Orchard Party as intending to remain
in the State is to be had, held, enjoyed and occupied
by them collectively in the same manner and with
the same right, title and interest therein as
appertained to them, the party so remaining before
the execution of this treaty.” Complaint, Ex. A,
Art. 4. The Orchard Party Trust denies the
remaining allegations of paragraph 16 of the
Complaint.
17. The Orchard Party Trust admits that
Exhibit C purports to be a Bureau of Land Management map, purportedly filed in Oneida land
claim litigation. The Orchard Party Trust admits
the 19.6 acres that are the subject of this action
were never conveyed as part of the June 25, 1842
treaty. Rather, the treaty confirmed that the land
would be “so reserved for such of the Orchard Party
as intending to remain in the State is to be had,
held, enjoyed and occupied by them collectively in
the same manner and with the same right, title
and interest therein as appertained to them, the
party so remaining before the execution of this
treaty.” Complaint, Ex. A, Art. 4. The Orchard
Party Trust denies the remaining allegations of
paragraph 17 of the Complaint.
18. The Orchard Party Trust admits that there
was a 2013 settlement between the State of New
York, Madison County, Oneida County, and OIN.
The Orchard Party Trust denies that the 2013

86780 • CARROLL • APPENDIX M

AL 5/19/21

217a
settlement agreement had any effect on Orchard
Party Oneida members’ ownership of land in Lot 3
or that the settlement agreement conveyed or purported to convey any land. The remaining allegations
of paragraph 18 of the Complaint contain conclusions
of law, to which no response is required. To the
extent that a response is deemed required, the
Orchard Party Trust denies the remaining allegations in paragraph 18 of the Complaint.
C. The Nation’s Members Living in the
Vicinity of the 19.6 Acres on Marble Hill
19. The Orchard Party Trust admits the land
in the vicinity of the 19.6 acres has been known to
belong to and be occupied by the Orchard Party /
Marble Hill (Orchard Hill) Oneida. The Orchard
Party Trust admits that members or ancestors of
the Orchard Party Oneida have lived in the area
since time immemorial. The Orchard Party Trust
denies the remaining allegations in paragraph 19
of the Complaint.
20. The Orchard Party Trust admits that the
32 acres of land was the subject of separate
Christian Party treaties and has no relevance to
the 19.6 acres subject to the Orchard Party treaty.
The Orchard Party Trust denies the remaining
allegations of paragraph 20.
21. The Orchard Party trust admits that New
York State had separate treaties with the Christian
Parties and with the Orchard Party Oneida. The
Orchard Party Trust denies that OIN was party to
or acceded to any rights under the Orchard Party
treaty. The Orchard Party Trust denies the remaining allegations in paragraph 21 of the Complaint.

86780 • CARROLL • APPENDIX M

AL 5/19/21

218a
22. On information and belief, the Orchard
Party Trust admits that certain beneficiaries of
the Orchard Party Trust may be members of OIN
and as such may receive certain services and
benefits from OIN and may participate in OIN
government. The Orchard Party Trust denies the
provision of services or receipt of benefits from
OIN or participation in OIN’s government is relevant
to Orchard Party Oneida members’ ownership of
the 19.6 acres. As to the remaining allegations in
paragraph 22 of the Complaint, the Orchard Party
Trust lacks knowledge or information sufficient to
form a belief about the truth of the allegations,
and therefore denies them.
23. On information and belief, the Orchard
Party Trust admits that certain beneficiaries of
the Orchard Party Trust may be members of OIN.
The Orchard Party Trust denies that membership
in OIN is relevant to Orchard Party Oneida
members’ ownership of the 19.6 acres. The Orchard
Party Trust denies the remaining allegations of
paragraph 23 of the Complaint.
24. The Orchard Party Trust states that
Melvin L. Phillips, Sr. is a full-blooded Oneida
Indian residing in the Town of Vernon and a direct
descendant of the Oneida Indians identified as the
Orchard Party in Article 13 of the United States
Treaty with the New York Indians, of January 15,
1838, 7 Stat. 550 (also known as the Treaty of
Buffalo Creek and attached as Answer Exhibit 1).
The Orchard Party Trust further states that Mr.
Phillips is the official spokesman for the descendants
of the Orchard Party of Oneida Indians and their
duly appointed representative to the Grand Council
of the Iroquois Confederacy. The Orchard Party

86780 • CARROLL • APPENDIX M

AL 5/19/21

219a
Trust further states that as an Orchard Party
Oneida descendant and spokesman, Mr. Phillips is
trustee for the Melvin L. Philips, Sr./Orchard
Party Trust and possessed of the lands of the
Orchard Party Oneida held in that trust, including
the land subject to this suit. The Orchard Party
Trust denies the remaining allegations of paragraph 24 of the Complaint.
D. Prior Rejections of Phillips’ Erroneous
Claim to Head a Separate Marble Hill
Oneida Tribe
25. The Orchard Party Trust states that
Melvin L. Phillips is a full-blooded Oneida Indian
residing in the Town of Vernon and a direct
descendant of the Oneida Indians identified as the
Orchard Party in Article 13 of the United States
Treaty with the New York Indians, of January 15,
1838, 7 Stat. 550 (also known as the Treaty of
Buffalo Creek and attached as Answer Exhibit 1).
The Orchard Party Trust further states that Mr.
Phillips is the official spokesman for the descendants
of the Orchard Party/Marble Hill (aka Orchard
Hill) Oneida and their duly appointed representative
to the Grand Council of the Iroquois Confederacy.
The Orchard Party Trust further states that as an
Orchard Party Oneida descendant and spokesman,
Mr. Phillips is trustee for the Melvin L. Philips,
Sr./Orchard Party Trust and possessed of the
lands of the Orchard Party Oneida held in that
trust, including the land subject to this suit. The
Orchard Party Trust denies the remaining allegations of paragraph 25 of the Complaint.
26. To the extent that paragraph 26 of the
Complaint contains conclusions of law, no response

86780 • CARROLL • APPENDIX M

AL 5/19/21

220a
is required. To the extent that a response is
deemed required, the Orchard Party Trust denies
the allegations of paragraph 26 of the Complaint.
27. To the extent that paragraph 27 of the
Complaint contains conclusions of law, no response
is required. To the extent that a response is
deemed required, the Orchard Party Trust denies
the allegations of paragraph 27 of the Complaint.
28. To the extent that paragraph 28 of the
Complaint contains conclusions of law, no response
is required. To the extent that a response is
deemed required, the Orchard Party Trust denies
the allegations of paragraph 28 of the Complaint.
E. Phillips’ Trust and Recorded Quitclaim
Deed
29. As to paragraph 29 of the Complaint, the
trust instrument referred to in Paragraph 29
speaks for itself and to the extent that the allegations raised in paragraph 29 comport with the
language of the trust instrument, they are admitted.
To the extent that they do not comport with the
language of the trust instrument, they are denied.
30. As to paragraph 30 of the Complaint, the
trust instrument referred to in paragraph 30
speaks for itself and to the extent that the allegations raised in paragraph 30 comport with the
language of the trust instrument, they are admitted.
To the extent that they do not comport with the
language of the trust instrument, they are denied.
31. As to paragraph 31 of the Complaint, the
trust instrument referred to in paragraph 31
speaks for itself and to the extent that the allegations raised in paragraph 31 comport with the

86780 • CARROLL • APPENDIX M

AL 5/19/21

221a
language of the trust instrument, they are admitted.
To the extent that they do not comport with the
language of the trust instrument, they are denied.
32. The Orchard Party Trust admits that Mr.
Phillips asserts in the papers filed with the deed
that the 19.6 acres “compris[e] tribal lands belonging to the Oneida Nation/Orchard Hill Party and
the grantor, Melvin L. Phillips,” that he represents
the interests of Orchard Party Oneida members,
and that the lands are “currently owned, occupied,
titled to, possessed by, and under the stewardship
of Melvin L. Phillips, Sr.” The Orchard Party Trust
denies the remaining allegations in paragraph 32
of the Complaint.
33. The Orchard Party Trust denies the allegations in paragraph 33 of the Complaint.
Claim
34. The Orchard Party Trust denies all allegations in paragraph 34 of the Complaint.
35. The Orchard Party Trust denies all allegations in paragraph 35 of the Complaint.
36. The Orchard Party Trust denies all allegations in paragraph 36 of the Complaint.
37. The Orchard Party Trust denies all allegations in paragraph 37 of the Complaint.
38. The Orchard Party Trust denies all allegations in paragraph 38 of the Complaint.
39. The Orchard Party Trust denies all allegations in paragraph 39 of the Complaint.

86780 • CARROLL • APPENDIX M

AL 5/19/21

222a
Prayer for Relief
The Orchard Party Trust denies the allegations
of paragraphs a–d of OIN’s Prayer for Relief and
denies that OIN is entitled to any of the relief it
requests.
Affirmative Defenses
The Orchard Party Trust hereby asserts the
following defenses without undertaking or otherwise shifting any applicable burdens of proof. The
Orchard Party Trust reserves the right to assert
additional defenses, as warranted by facts revealed
though investigation and discovery.
40. OIN’s claims are barred by the Eleventh
Amendment to the United States Constitution.
41. OIN has failed to join the United States,
the State of New York, Oneida County, the Town
of Vernon, and other necessary individuals who
are all indispensable parties to this litigation.
42. OIN’s claims are barred by the statute of
limitations.
43. OIN’s claims are barred by collateral
estoppel.
44.

OIN’s claims are barred by res judicata.

45.

OIN’s claims are barred by release.

46. OIN’s claims are barred by accord and
satisfaction.
47.

OIN’s claims are barred by Congressional act.

48.

OIN’s claims are barred by laches.

86780 • CARROLL • APPENDIX M

AL 5/19/21

223a
49.

OIN’s claims are barred by impossibility.

50. OIN has failed to present a justiciable
dispute.
51. OIN has abandoned any rights it may have
to Orchard Party Trust lands.
52. OIN has failed to state a claim upon which
relief can be granted.
53. OIN’s claims are barred by the doctrine of
acquiescence and estoppel.
Counterclaims
Jurisdiction
54. Subject matter jurisdiction is established
by 28 U.S.C. § 1367.
Parties
55. Melvin L. Phillips, Sr. is a full-blooded
Oneida Indian, descended from members of the
Orchard Party of the Oneida, who have resided on
and possessed lands now located in the State of
New York since time immemorial. Mr. Phillips is a
leader of the Orchard Party Oneida, a successorin-interest to the historic Oneida Indian Nation
(distinct from the Plaintiff in this proceeding).
Mr. Phillips’ leadership role as spokesman for the
Orchard Party Oneida is recognized by the
Haudenosaunee—the Grand Council of Chiefs of
the Five Nations Iroquois Confederacy.
56. Melvin L. Phillips, Sr./Orchard Party Trust
is the trust created by Melvin L. Phillips, Sr. to
protect the historic lands of the Orchard Party

86780 • CARROLL • APPENDIX M

AL 5/19/21

224a
Oneida and reserve them for current and future
members of the Orchard Party Oneida. Mr.
Phillips also acts as trustee.
57. The Plaintiff in this case is OIN, which “is a
federally recognized Indian Tribe and a direct
descendent of the Oneida Indian Nation . . . .” City
of Sherrill v. Oneida Indian Nation, 544 U.S. 197,
203 (2005). As City of Sherrill recognizes, OIN is
one of the successors-in-interest to the historic
Oneida Indian Nation, as is the Orchard Party
Oneida.
The Lands
1. Time Immemorial and Early Treaties
58. Since time immemorial, Indians of the
historic Oneida Indian Nation have lived on land
located in what is now the State of New York.
59. In the 18th and 19th centuries, the Oneidas
entered into treaties with the State of New York
that significantly diminished the area of Oneida
lands in the State. The Treaty of Fort Schuyler, in
1788, resulted in the shrinking of Oneida lands
from around six million acres to closer to 300,000
acres. City of Sherrill, 544 U.S. at 203 (2005).
60. The Treaty of Canandaigua in 1794
resulted in the federal government’s recognition of
an Oneida reservation comprising the approximately 300,000 acres of land in the State of New
York retained by the Oneidas in the Treaty of Fort
Schuyler. City of Sherrill, 44 U.S. at 203–05. The
property at issue in this case was part of the
original Oneida reservation.

86780 • CARROLL • APPENDIX M

AL 5/19/21

225a
2. The Treaty of Buffalo Creek
61. In the Treaty of Buffalo Creek, entered into
in 1838, members of the Orchard Party Oneida and
members of another group of Oneida Indians, the
First Christian Party, made an agreement with
the United States to, amongst other things, sell
their lands in New York to the State of New York.
Answer Ex. 1. Article 13 of the treaty contained a
provision for the “Oneidas Residing in the State of
New York” that authorized the Oneida parties to
“make satisfactory arrangements with the Governor
of the State of New York for the purchase of their
lands at Oneida.”
3. The Treaties of 1842
62. Following the Treaty of Buffalo Creek, in
1842, the First and now Second Christian Parties
of the Oneida and the Orchard Party Oneida
entered into separate treaties with the State of
New York, selling significant portions of their
remaining land.
63. The State of New York entered into a treaty
with the First and Second Christian Parties of the
Oneida Indians in May of 1842. United States v.
Boylan, 265 F. 165, 167 (2d Cir. 1920). The First
and Second Christian Parties agreed to sell a
portion of their land to the State of New York. Id.
at 167–68. None of the land included in the treaty
is at issue in this case.
64. On June 25, 1842, the State of New York
entered into a separate treaty with the Orchard
Party Oneida. Complaint, Ex. A. The treaty effected
the purchase of the majority of remaining Orchard

86780 • CARROLL • APPENDIX M

AL 5/19/21

226a
Party Oneida lands, labeled as Lots 1, 2, and 4 on
the survey map in Exhibit B of the Complaint. The
unpurchased Lot 3 was reserved for the Orchard
Party Oneida identified in Document A of the treaty
as the “Home party of the Orchard Indians” who
decided to remain on their land in New York. According to the terms of the treaty, Orchard Party land
in Lot 3 was “so reserved for such of the Orchard
Party as intending to remain in the State is to be
had, held, enjoyed and occupied by them collectively
in the same manner and with the same right, title
and interest therein as appertained to them, the
party so remaining before the execution of this
treaty.” Complaint, Ex. A, Art. 4. In recognition of
the Orchard Party Oneida’s ownership of the lands
under the deed, the State of New York and Oneida
County exempt those lands from taxation.
4. Post 1842
65. Members of the Home party of the Orchard
Indians, otherwise known as the Orchard Party
Oneida, have used and occupied 19.6 acres of Lot 3
ever since the 1842 Treaty. Melvin Phillips is
directly descended from those members of the
Home Party of the Orchard Indians. He is the great,
great grandson of Moses Day, who is listed on
Document A of the 1842 treaty as an Orchard
Party Oneida member intending to remain on Lot
3, and Susan Johnson, the sister to Orchard Party
Oneida Chief William Johnson, who is also listed
in Document A. Mr. Phillips and his direct
ancestors have remained on the land of Lot 3 since
the 1842 treaty, as summarized in the trust deed:
“The members of the Home Party and their

86780 • CARROLL • APPENDIX M

AL 5/19/21

227a
descendants, including the said Melvin L. Phillips,
have fulfilled the intention of those identified in
said Document A to remain on Lot No. 3 as
members of the Home Party of the Orchard Indians;
they have continuously used and occupied said Lot
No. 3.” Complaint, Ex. E, Attach. p. 3.
66. This Court has previously determined that
Orchard Party Oneida lands do not belong to OIN.
In Shenandoah v. U.S. Dept. of the Interior, 1997
WL 214947 (N.D.N.Y. Apr. 14, 1997), aff’d, 159
F.3d 708 (2d Cir. 1998), this Court determined
that Orchard Party Oneida Clanmother Thelma
Buss, who was residing on Orchard Party Oneida
lands located on Lot 2, directly adjacent to Lot 3,
“does not reside on Oneida Nation territory” Id. at
*8 n.6 (citation omitted).
67. The Bureau of Indian Affairs (BIA) has also
recognized that OIN’s lands do not extend to the
Orchard Party Oneida land at issue. In a 2001 affidavit, the BIA Deputy Commissioner, M. Sharon
Blackwell, described the “Oneida Nation of New
York” as the “Indian tribe that remained on the
New York Oneida Reservation, as surveyed by
Nathan Burchard, following the Treaty of May 23,
1842, between the State of New York and the First
and Second Christian Parties of the Oneida
Indians.” Notably excluded from Deputy Commission
Blackwell’s affidavit is any mention of the Orchard
Party Oneida or its lands.
68. In 2005, OIN filed an application to put
land OIN had reacquired into federal trust. The
land at issue in this case was not included in OIN’s
application. OIN has never attempted to put the
land at issue in this case into federal trust, and,

86780 • CARROLL • APPENDIX M

AL 5/19/21

228a
indeed, could not, as it has always been in
possession of members of the Orchard Party Oneida.
5. 2013 Settlement
69. In 2013, OIN, the State of New York, and
Madison and Oneida Counties entered into a comprehensive settlement of litigation over land that
had previously been part of the historic Oneida
Indian Nation reservation, some of which OIN had
repurchased from non-Indian owners and some of
which OIN had applied to put into federal trust.
Complaint, Ex. D; see Oneida Indian Nation v.
County of Oneida, 414 U.S. 661 (1974); County of
Oneida v. Oneida Indian Nation, 470 U.S. 226
(1985); City of Sherrill v. Oneida Indian Nation,
544 U.S. 197 (2005) (examples of the litigation).
The settlement was approved by this court in New
York v. Jewell, 2014 U.S. Dist. LEXIS 27042
(N.D.N.Y. Mar. 4, 2014). The Orchard Party
Oneida was not a party to the settlement.
70. Included in the settlement’s definitions
section are provisions which incorrectly describe
the “Marble Hill tract” as “land retained by the
Oneida Nation as Lots 2 and 3 in the June 25,
1842 Orchard Party treaty,” and as “Nation Land”
possessed by OIN. Complaint, Ex. D, Sec. II.G, L.
Rather, this land was retained by the Orchard
Party Oneida. As part of the settlement, “Nation
Land,” while not subject to state taxes, is subject
to a comprehensive taxation scheme on activities
carried out on the land, to be implemented by OIN.
Id. at Sec. V.A, E.

86780 • CARROLL • APPENDIX M

AL 5/19/21

229a
The Trust Deed
71. Melvin L. Phillips, Sr. acting in his leadership capacity as the spokesman for the Orchard
Party Oneida and as an Orchard Party Oneida
descendent and member presently occupying
Orchard Party Oneida land, acted to conserve the
Orchard Party Oneida lands for the use and enjoyment of current and future members of the Orchard
Party Oneida. To accomplish this goal, Mr. Phillips
placed the land at issue in this case, as well as
other parcels located in Lots 2 and 3, into a trust.
OIN has made no claims in this case related to
these latter parcels.
72. On September 1, 2015, Mr. Phillips
executed a quitclaim deed, transferring the rights
of those parcels to the Melvin L. Phillips, Sr. /
Orchard Party Trust. Complaint, Ex. E. Under the
trust instrument, Mr. Phillips is trustee “for the
benefit of his lineal heirs and all current and
future members of the Orchard Party.” Id. at Ex.
12, p. 1. The trust fulfills the “intent of the ancestors
of Melvin L. Phillips, Sr.,” as well as “the members
of the Orchard Party past, present and future” to
reserve the lands in question to Mr. Phillip’s “heirs
and lineal descendants” and “other members of the
Orchard party who actually live on and occupy the
said lands described herein.” Id. at p. 2–3.
Claims
73. Melvin L. Phillips, Sr. / Orchard Party Trust,
as a successor-in-interest to the historic Oneida
Party Oneida, does possess and has a right to
possess the 19.6 acres, and the other lands under

86780 • CARROLL • APPENDIX M

AL 5/19/21

230a
the deed, a right arising from and protected against
infringement by federal treaty, state treaty, statutory and common law, and by the Constitution.
74. The Orchard Party Oneida never alienated
the 19.6 acres to any person or entity.
75. Melvin L. Phillips, Sr., as spokesman for
the Orchard Party Oneida, conveyed the 19.6 acres
to a trust.
76. Mr. Phillips’ execution and recording of the
trust declaration, quitclaim deed and other documents in county land records was a lawful action
to maintain possession and control of the 19.6
acres and other Orchard Party Oneida lands
identified in the deed for the benefit of the
Orchard Party Oneida.
Prayer for Relief
WHEREFORE, the Orchard Party Trust prays
for entry of judgment in its favor and against OIN:
a.

Declaring that OIN does not own nor has
any property interest in the 19.6 acres;

b.

Declaring that the trust document, the
quitclaim deed and all related documents
filed by Melvin L. Phillips, Sr. on behalf of
the Orchard Party Oneida in the Oneida
County land records are valid so far as they
concern the 19.6 acres;

c.

Enjoining OIN (i) not to claim the 19.6
acres for itself, (ii) not to assert that OIN
owns or has a property interest in the 19.6
acres, and (iii) not to create or cause to be
created, or file or cause to be filed, in land

86780 • CARROLL • APPENDIX M

AL 5/19/21

231a
records any document asserting that OIN
owns or has a property interest in the 19.6
acres; and
d.

Granting such other relief as the Orchard
Party Trust may be entitled to at law or in
equity.
Respectfully submitted,
/s/ Eric N. Whitney
Eric N. Whitney
ARNOLD & PORTER KAYE
SCHOLER LLP
250 West 55th Street
New York, NY 10019
(212) 836-8000
Eric.Whitney@apks.com
Attorneys for Defendants Melvin
L. Phillips and Melvin L. Phillips,
Sr. / Orchard Party Trust

Dated: January 12, 2018

86780 • CARROLL • APPENDIX M

AL 5/19/21

232a

Defendant Exhibit 1
Treaty of Buffalo Creek
on pages 232a to 246a
in 8.5 by 11 inch section

86780 • CARROLL • APPENDIX M

AL 5/19/21

247a
Appendix N
UNITED STATES CONSTITUTION
ELEVENTH AMENDMENT
AMENDMENT XI
Passed by Congress March 4, 1794. Ratified
February 7, 1795. Note: Article III, section 2, of
the Constitution was modified by amendment 11.
The Judicial power of the United States shall not
be construed to extend to any suit in law or equity,
commenced or prosecuted against one of the
United States by Citizens of another State, or by
Citizens or Subjects of any Foreign State.

86780 • CARROLL • APPENDIX N

AL 5/19/21

248a
Appendix O
NEW YORK INDIAN LAW 7
PARTITION OF LANDS
New York Indian Law § 7. Partition of tribal lands
Any nation, tribe or band of Indians which owns
and occupies land in this state as the common
property of such nation, tribe or band may, by the
act of its Indian government, divide such lands
into lots, and distribute and partition the same,
quantity and quality relatively considered, among
the individuals and families of such nation, tribe
or band, so that the same may be held in severalty
and in fee simple, according to the laws of this
state. No lands occupied and improved by any
Indian according to the laws, usages or customs of
the nation, tribe or band shall be set off to any
person other than the occupant or his family. The
officers, agents or commissioners to execute the
deeds to effect such partition shall be appointed by
the nation, tribe or band, whose lands are to be
distributed, subject to the approval of the commissioner of general services. They shall go before the
county judge of the county in which such lands are
situated, and prove to his satisfaction that they
are authorized to effect such transfers, and shall
acknowledge before him the deeds necessary therefor. The county judge shall examine such deeds,
and his indorsement thereon that he has examined
the same, and that they are executed in pursuance
of authority duly conferred, shall authorize the
county clerk to record such deeds.
Lands partitioned or distributed in pursuance of
this section shall not be subject to any lien or

86780 • CARROLL • APPENDIX N

AL 5/19/21

249a
incumbrance, by way of mortgage, judgment or
otherwise, or be alienable by the grantee or his
heirs, for twenty years after the recording of the
deed effecting the partition; but may be partitioned among the heirs of a grantee who dies.

86780 • CARROLL • APPENDIX N

AL 5/19/21

250a
Appendix P
Unpublished decision by Judge Port
from Oneida Nation of New York
v. County of Oneida
ROBERT T. COULTER, ESQ.
GERALD L. HILL, ESQ.
c/o Indian Law Resource Center
1101 Vermont Avenue, N.W.
Washington, D.C. 20005
Attorneys for Plaintiff-Intervenor
EDMUND PORT, Judge
RDER
OThe “Government of the Oneida Nation of New
York” has requested a reconsideration of the
denial of its motion to intervene as party plaintiff.
The motion to intervene was made returnable on
short notice at the same time that a motion for
summary judgment, filed by the defendant County
of Madison, was scheduled to be heard. The motion
to intervene was denied “for failure to establish
facts warranting intervention.”
A companion motion to postpone the argument of
the motion for summary judgment was denied but
the applicant was granted leave to argue as
amicus curiae in opposition to the motion if he felt
it necessary. He was thus not disadvantaged by
the denial of intervention in relation to the motion.
The application for reconsideration fleshes out
the motion to intervene by affidavits of Robert T.
Coulter, attorney for the applicant, and Ray
Halbritter and Lyman Johns, each claiming to be

86780 • CARROLL • APPENDIX P

AL 5/24/21

251a
an authorized representative of the “Government
of the Oneida Nation of New York” which the
affidavits allege governs the Oneida people of New
York living on the Oneida Indian Territory, the
Oneida Community of Marble Hill and elsewhere.
The Halbritter and Johns affidavits further
allege that each has been “informed by the Bureau
of Indian Affairs that the United States government does not give official recognition to any
Oneida Indian government in New York and has
not since 1975’.” This statement apparently has as
its source a letter from the Eastern Area Director
of the Bureau of Indian Affairs to the Postmaster
of Oneida, New York dated December 18, 1975,
stating that as of that date, “Nor do we recognize
any group of individuals as official representatives
of the Oneida Indian Nation of New York.”
No one questions that the proper party plaintiff
is “The Oneida Indian Nation of New York State.”
The plaintiff, the Oneida Indian Nation of New
York State, at the time of the trial (November 1214, 1975), was a “tribe presently recognized by the
Bureau of Indian Affairs” and was represented in
court by its duly authorized representatives.
Oneida Indian Nation of New York v. County of
Oneida, 434 F. Supp. 527, 538 (N.D.N.Y. 1977).
The applicant for intervention asserts its
interest in the property because the individual
members of the Oneida Nation residing in the area
for which it claims to speak has “the right to share
and participate in the use or distribution of all
Oneida property.” I assume that they are asserting
a right claimed to belong to each individual
Oneidan. The assertion of such an interest would
permit the intervention of each individual

86780 • CARROLL • APPENDIX P

AL 5/24/21

252a
Oneidan, a proposition whose very nature demonstrates its undesirability. The applicant further
claims as entitlement to intervention that its
interests will not adequately be represented by the
existing parties.
Up to this point, the parties’ representations of
the interest of all the Oneidas needs no apologist.
Jurisdiction in this court was successfully
established by the plaintiffs only after litigating
the matter through the United States Supreme
Court which reversed a dismissal for lack of jurisdiction by this court, affirmed in the Second
Circuit Court of Appeals. Oneida Indian Nation of
New York v. County of Oneida, 414 U.S. 661
(1974). On remand, they successfully established
liability against the defendants, leaving the question
of damages only to be determined. Oneida Indian
Nation of New York v. County of Oneida, 434 F.
Supp. 527 (N.D.N.Y. 1977). In the matter in which
intervention is sought they successfully opposed a
motion for summary judgment made by the
defendant County of Madison. See Order dated
May 17, 1979. The present parties have demonstrated that they have and can adequately represent
the interest of the plaintiffs and all persons having
an individual interest in any recovery that might
be obtained here. All Oneidas should share a
common interest in disposing of this litigation in a
manner which will serve their best collective
interests. As indicated, those interests have been,
and there is no evidence that they will not
continue to be, adequately represented by a
continuation of the present parties.
Affidavits and exhibits on this motion indicate
that the balkanization of the Oneidas of New York

86780 • CARROLL • APPENDIX P

AL 5/24/21

253a
with its internecine sniping and worse, should not
be introduced into this lawsuit. As indicated by the
exhibits, this is not the forum in which to resolve
the internal problems of governance.
If for no other reason, intervention should be
denied because it was not timely pursued. The
applicant for intervention states “The issue of the
adequacy of representation by the parties now
before the Court did not arise until after the trial
which was held in November of 1975.” Memorandum
on Motion for Reconsideration at 8. However, the
factionalism and questions concerning recognition
of leadership arose shortly afterward. See Coulter
affidavit, Attachments A and B. The conflict that
the applicant asserts results in inadequate representation existed before the liability issue was
decided. Yet the applicant made no move for intervention until a few days before the return date of
the Madison County motion for summary judgment
in this case and in 74-CV-187. Hopefully, before
the next phase of the litigation arrives, the parties
will conclude that cooperation is preferable to
conflict. For the reasons herein, it is
ORDERED, that the motion for reconsideration
be and the same hereby is granted and it is further
ORDERED, that upon reconsideration, the order
denying intervention is adhered to.
/s/ Edmund Port
Senior United States District Judge
Dated: June 7, 1979
Auburn, New York

86780 • CARROLL • APPENDIX P

AL 5/24/21

